No. 20A87
In the

Supreme Court of the United States
THE ROMAN CATHOLIC DIOCESE OF BROOKLYN, NEW YORK,
Applicant,
V.

GOVERNOR ANDREW M. CUOMO, in his official capacity,
Respondent.
APPENDIX FOR RESPONDENT – VOLUME II OF II, PAGES 174-303

November 18, 2020

LETITIA JAMES
Attorney General
State of New York
BARBARA D. UNDERWOOD*
Solicitor General
ANDREA OSER
Deputy Solicitor General
BRIAN D. GINSBERG
Assistant Solicitor General
28 Liberty Street
New York, New York 10005
(212) 416-8016
barbara.underwood@ag.ny.gov
* Counsel of Record

Counsel for Respondent

TABLE OF CONTENTS
PAGE
Complaint (D. Ct. Dkt. Nos. 1, 1-1, and 1-2)......................................................... R.A. 1
Proposed Order to Show Cause for a Preliminary Injunction
and Temporary Restraining Order (D. Ct. Dkt. No. 3)............................ R.A. 27
Declaration of Randy M. Mastro, Ex. 2 (D. Ct. Dkt. No. 7-2) ............................ R.A. 29
Declaration of Debra S. Blog, M.D., M.P.H. (D. Ct. Dkt. No. 20) ...................... R.A. 32
Blog Decl., Ex. A (WHO Situation Report 1)
(D. Ct. Dkt. No. 20-1) ................................................................................ R.A. 59
Blog Decl., Ex. B (WHO Situation Report 3)
(D. Ct. Dkt. No. 20-2) ................................................................................ R.A. 64
Blog Decl., Ex. C (WHO Statement on the Second Meeting of
the International Health Regulations Emergency Committee)
(D. Ct. Dkt. No. 20-3) ................................................................................ R.A. 71
Blog Decl., Ex. D (WHO Declares Global Pandemic)
(D. Ct. Dkt. No. 20-4) ................................................................................ R.A. 77
Blog Decl., Ex. E (National Emergency Declaration)
(D. Ct. Dkt. No. 20-5) ................................................................................ R.A. 81
Blog Decl., Ex. F (WHO Article)
(D. Ct. Dkt. No. 20-6) ................................................................................ R.A. 84
Blog Decl., Ex. G (CDC Guidance)
(D. Ct. Dkt. No. 20-7) .............................................................................. R.A. 105
Blog Decl., Ex. H (CDC Guidance)
(D. Ct. Dkt. No. 20-8) .............................................................................. R.A. 109
Blog Decl., Ex. I (Executive Order 202)
(D. Ct. Dkt. No. 20-9) .............................................................................. R.A. 111
Blog Decl., Ex. J (Executive Order 202.3)
(D. Ct. Dkt. No. 20-10) ............................................................................ R.A. 114
Blog Decl., Ex. K (Executive Order 202.4)
(D. Ct. Dkt. No. 20-11) ............................................................................ R.A. 116
R.A. i

TABLE OF CONTENTS (cont’d)
PAGE
Declaration of Debra S. Blog, M.D., M.P.H. (D. Ct. Dkt. No. 20) (cont’d)
Blog Decl., Ex. L (Executive Order 202.5)
(D. Ct. Dkt. No. 20-12) ............................................................................ R.A. 118
Blog Decl., Ex. M (Executive Order 202.10)
(D. Ct. Dkt. No. 20-13) ............................................................................ R.A. 121
Blog Decl., Ex. N (Executive Order 202.32)
(D. Ct. Dkt. No. 20-14) ............................................................................ R.A. 125
Blog Decl., Ex. O (Executive Order 202.33)
(D. Ct. Dkt. No. 20-15) ............................................................................ R.A. 128
Blog Decl., Ex. P (Executive Order 202.42)
(D. Ct. Dkt. No. 20-16) ............................................................................ R.A. 129
Blog Decl., Ex. Q (Executive Order 202.45)
(D. Ct. Dkt. No. 20-17) ............................................................................ R.A. 130
Blog Decl., Ex. R (Executive Order 205)
(D. Ct. Dkt. No. 20-18) ............................................................................ R.A. 132
Blog Decl., Ex. S (Executive Order 202.61)
(D. Ct. Dkt. No. 20-19) ............................................................................ R.A. 134
Blog Decl., Ex. T (Scientific American Article)
(D. Ct. Dkt. No. 20-20) ............................................................................ R.A. 136
Blog Decl., Ex. U (CDC Report)
(D. Ct. Dkt. No. 20-21) ............................................................................ R.A. 142
Blog Decl., Ex. V (New Scientist Article)
(D. Ct. Dkt. No. 20-22) ............................................................................ R.A. 148
Blog Decl., Ex. W (CDC Guidance)
(D. Ct. Dkt. No. 20-23) ............................................................................ R.A. 155
Blog Decl., Ex. X (Asian Bioethics Review Article)
(D. Ct. Dkt. No. 20-24) ............................................................................ R.A. 163
Blog Decl., Ex. Y (WHO Guidance)
(D. Ct. Dkt. No. 20-25) ............................................................................ R.A. 171
R.A. ii

TABLE OF CONTENTS (cont’d)
PAGE
Declaration of Debra S. Blog, M.D., M.P.H. (D. Ct. Dkt. No. 20) (cont’d)
Blog Decl., Ex. Z (Executive Order 202.6)
(D. Ct. Dkt. No. 20-26) ............................................................................ R.A. 179
Blog Decl., Ex. AA (PEOPLE Article)
(D. Ct. Dkt. No. 20-27) ............................................................................ R.A. 181
Blog Decl., Ex. BB (CDC Guidance)
(D. Ct. Dkt. No. 20-28) ............................................................................ R.A. 185
Blog Decl., Ex. CC (Guardian Article)
(D. Ct. Dkt. No. 20-29) ............................................................................ R.A. 189
Blog Decl., Ex. DD (Vox Article)
(D. Ct. Dkt. No. 20-30) ............................................................................ R.A. 198
Blog Decl., Ex. EE (Status Report)
(D. Ct. Dkt. No. 20-31) ............................................................................ R.A. 210
Blog Decl., Ex. FF (CDC Frequently Asked Questions)
(D. Ct. Dkt. No. 20-32) ............................................................................ R.A. 212
Blog Decl., Ex. GG (CDC Guidance)
(D. Ct. Dkt. No. 20-33) ............................................................................ R.A. 215
Blog Decl., Ex. HH (Gov. Cuomo Announcement)
(D. Ct. Dkt. No. 20-34) ............................................................................ R.A. 220
Blog Decl., Ex. II (Executive Order 202.68)
(D. Ct. Dkt. No. 20-35) ............................................................................ R.A. 225
Blog Decl., Ex. JJ (Affidavit of Elizabeth M. Dufort, M.D., FAAP)
(D. Ct. Dkt. No. 20-36) ............................................................................ R.A. 227
Blog Decl., Ex. KK (Declaration of Howard A. Zucker, M.D.)
(D. Ct. Dkt. No. 20-37) ............................................................................ R.A. 247
Second Supplemental Declaration of Randy M. Mastro, Ex. 3
(D. Ct. Dkt. No. 22-3) .............................................................................. R.A. 265
Declaration of Howard A. Zucker, M.D. (D. Ct. Dkt. No. 29-1) ....................... R.A. 277

R.A. iii

TABLE OF CONTENTS (cont’d)
PAGE
Order Denying Administrative Stay (Ct. App. Dkt. No. 29) ............................ R.A. 285
Letter (Ct. App. Dkt. No. 75-1) .......................................................................... R.A. 286
Ltr., Attachment
(Ct. App. Dkt. No. 75-2) .......................................................................... R.A. 287
Letter (Ct. App. Dkt. No. 78) ............................................................................. R.A. 302

R.A. iv

1011212<12lase 1 :2O-cv-O4844-NGG-CLP

Docu m emtbm;lsd2!ian f.ileo WiWB/12.0erP age 4 of 8 PagelD # : 548

Catholic aid agencies collaborate to P-revent SP-read of COVID-19 in Africa*
23 March 2020 I Catholic San Francisco

lnfographics

All ----•

How to cope with stress during COVID-19
outbreak
How to wear masks against COVID-19

Download and share

https://www.who.int/teams/risk-communication/faith-based-organizations-and-faith-leaders

R.A. 174

4/8

1011212<12lase 1 :2O-cv-O4844-NGG-CLP

Docu m emtbm;lsd2!ian f.ileo WiWB/12.0erP age 5 of 8 PagelD # : 549

Download and share

Download and share

https://www.who.int/teams/risk-communication/faith-based-organizations-and-faith-leaders

R.A. 175

5/8

1011212<12lase 1 :2O-cv-O4844-NGG-CLP

Docu m emtbm;lsd2!ian f.ileo WiWB/12.0erP age 6 of 8 PagelD # : 550

Download and share

Q&As
5 October 2020

Guidance on COVID-19 for the care of older geogle
and geogle living in long-term care facilities, other...
:::-....:.:.......-=

::::---=,,..

Download

Read More

2 October 2020

Emergency Global Suggly Chain System (COVID-19).
catalogue
Download

AA-

ITTVltl,U.,.,,l~S. &

rN":!!.~,ll~

Read More

24 September 2020

ACT Accelerator: An economic investment case &
financing reguirements
Download

Read More

24 September 2020

ACT Accelerator : Status Regort & Plan

https://www.who.int/teams/risk-communication/faith-based-organizations-and-faith-leaders

R.A. 176

6/8

1011212<12lase 1 :2O-cv-O4844-NGG-CLP

Download

Docu m emtbm;lsd2!ian f.ileo WiWB/12.0erP age 7 of 8 PagelD # : 551

Read More

Publications

All

Q&A: Masks and COVID-19

Q&A: Schools and COVID-19

Q&A: Pregnancy, childbirth and COVID-19

Q&A: Staying at hotels and accommodation establishments and COVID-19

Webinars

All~

26 February, 2020

COVID-19 and faith based organizations - P-art 1

COVID-19 and faith based organizations - P-art 2

https://www.who.int/teams/risk-communication/faith-based-organizations-and-faith-leaders

R.A. 177

7/8

1011212<12lase 1 :2O-cv-O4844-NGG-CLP

Docu m emtbm;lsd2!ian f.ileo WiWB/12.0erP age 8 of 8 PagelD # : 552

25 March 2020

COVID-19 and faith based organizations - Qart 3

Related Health Topic
Coronavirus

*Disclaimer: The provision of a link from the WHO website to other sites does not indicate
endorsement of those sites by WHO, and WHO accepts no responsibility for the validity or accuracy
of their content.

(COVID-19) pandemic

Coronavirus disease

https://www.who.int/teams/risk-communication/faith-based-organizations-and-faith-leaders

R.A. 178

8/8

Case 1:20-cv-0484 4-NGG-CLP Document 20-26 Filed 10/13/20 Page 1 of 2 PagelD #: 553

_-o. 202.6
EXECUTI VE ORDER
Continuing Temporary Suspension !Uld Modificntion of 1'.,aws
Relating to the Disaster Emergency

WHEREA,S, on March 7, 2020, I issued Executive Orde.r Number 202, declaring a State disaster
emergency fur the entire State •o fNew York;
V\7HEREAS, both travel-related ca;;es and community contact transmi~oo of COVID-19 have
beep documented in New York State and are expected lo be continue;

WHEREAS, in otdec to facilitate the most timely and effective response to the COVID 19 emergency
disaster, it is critical far New York Stale to be able toe.ct quickly to gather, coordinate, and deploy
goods
services, :professionals, and voJunt,,iars of all kinds; and

NOW, THERE'.FOR E, 1, Andrew M. Cuomo, Governor of the Staie of'"l'; ew York, by virtue of the
authority vesied in mec by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or modify
any statute, local law, ordinance. order, rule, or regulation, or parts tbe,:eof, of auy agency during a State
disaster emergency, if compliaiiee with such statute, local law, ordinance, order, rule, oc regulation would
~revmt, hinder, or delay action necessary to cope with the disaster emergency or ifpecessary to assist
or aid
in coping with 5llcb disaster, r ber.,by -tempoi;a1ily suspend or modify, for me period from ibe
dale of this
Executive Order tru;ongb. April I 7, 2020 the followmg:

•

Section three of the Public Office,'s Law shall not apply to an individual who is d=cd p_ecessary
to hire or to engage in a voluntcei capacity to provide for an effective 1IOd efficient emergency
response, fur the duration. of snch emergency;

•

Subparagraph (i) of subdivision I of section 73 of the Public Officers Law Section shall not apply to
any person. who is hired, retained, a_ppointed, or wbp volunteers in any way to as.sist ::--lew York
State in its response to the declared eccergency;

•

Sub_paragraph 5 of s1.,-ction 73 of the Public Offio.ers Law Section sb.a.llnot apply to a state of6cer or
employee, or a volu.otcer who is faoilil.atingcontributions or donations to assi.st New Yorlc State il:J
its response to the declared emergency;

•

Subparagraph 8 of section 73 of the Public Officers Law Section 73(8) and section 74- of the Publlc
Officer's I.aw shall not apply to vo)unteers or com:ractocs who assist New York State in lts
response, provided that any recusals sh.all be adhered to if deterl'tli:noo necessary b')' the :wpointi.ng
entity;

•

Legislative Law Sectioo 1-M is sllspendcxl to the eictent that any agency may receive a donation in
kind or otherwise, in any amoun1 from any source, provided such donation is made to the State and
is administered by a state agency in furtherance of the response effort;
State Finance Law Section 11, to the extent oeces.~ to facilitate an efficient and effective New
Y or)c State emergency disaster response, shall not apply to any state agepcy efforts to further tb,e
response to the declared emergency;

R.A. 179

Case 1:20-cv-04844-NGG-CLP Document 20-26 Filed 10/13/20 Page 2 of 2 PagelD #: 554

~ OW, THEREFORE, by virtue of the authority vested in /Ile by Section 29"a of Aniole 2-B of the
E;,ecutive Law to issue any directive during a disaster em~gency necessary to cope with the disaster, l
hereby issue the following directives for the period -from the date of Executive Order through April \7,
2020:
•

Effective OI'.\ March 20 at S p.m.: All businesses and not-fur-profit entities in fue stal e shall
utilize, to the maximum extent possible, any telecommuting or work {rom home procedures that
they can safely utilize. Each employer shall reduce the in-person workforce at any work
locations by 50% no lerer than Match 20 at 8 p.m. Any essential business or entity providing
essential service.s or .fi.mctions shall not b..- subject to the in-person restrictions. This includes
essential health care opdratioru; including research and laboratory services; essential
infrastructure including utilities, telecommunication, airports .and tatnsportation infr:as1IUoture;
essential manufacturing, including food processing and pharmaceuticals; essential t etail
including grocery stores and pharmacies; essential services .including trash collection, mail. and
shlppJ.ng services; news media; banks and related financial institutions; providers of basic
necessities to economically dis.advantaged populations; construction; vepdo,;s of essential
services necessary to maintain the safety, sanitation an.d essential operations of reside.nee~ ot
othet essential busi.oesst,S; vendors that provide essential services or prodLLcts. iiicludiug
logistics and tech.nology support, child care and services needed to ensure the continuing
operation of gover;nmept ag_encies and provide for the health, safety and welfitrc of the public;

•

Arl.y other business may be de=ed essential after requesting an opinion from the Empire State
Development Corporation, which shall review and grant such request, S}iould it dotemrine that it
is in the best intere.st of the state to have {he workforce contlnue at full capacity in order to
properly respond 10 this ~ J- No later than 5 p.m. on March 19,2020, Empire State
DevelopmeJtt Corporation shall issue guidance as to which blLsinesses are deternti.ned to be
essential.

G l V TI N =der my hand and the Privy Seal of the
State in the-City of Albany this

eighteenth day ofMaroh i.u tbt year
two thousand twenty.

BY 11-IB GOVER.N"OR

Secretary to the Governor

R.A. 180

1011212@ase 1 :20- cv-04844-NGG-C IBl!ligicJij}Qelllffle mt:y~

~ ingiileonaG~ l f i licaFf SWfPIIE0Jn4

Pagel D #: 555

Religious Leaders Say Worshiping at Home Is Most
Ethical: 'The Command Is to Love One Another'
Across faiths, leaders agree that staying home is the best way to care for one another's
health and safety during the Coronavirus pandemic
By ~heila Cosgrove Baylis

April 09, 2020 05:01 PM

PHOTO: JESSE JOHNSON

While some churches have been in the s12otlight for continuing large in-person
services during the coronavirus pandemic, many Christian pastors and religious
leaders of other faiths say virtual gatherings are the most responsible and
compassionate option for worship.
"We want to gather as people of faith; it's really vital to who we are;' says Kevin
Bradley, pastor of Crawford Street United Methodist Church in Vicksburg,
Mississippi. "But the question for me became, 'How can we love one another in this
https://people.com/human-interest/pastors-say-worshiping-at-home-this-easter-coronavirus-responsible-the-command-is-to-love-one-another/

R.A. 181

1/4

1011212@ase

1: 20-cv-04844-N GG-C IBl!ligicJij}Qelllfflemt:y~

~ ingiileonaG~

lfilicaFf SWfP'-E0Jn4 Page ID

#: 556

season?' I think it's responsibility over recklessness and I think the responsible thing
to do is social distancing;'
"The command is to 'love one another; so how can we love one another? When
government officials and medical experts are saying this is the right thing to do we can best demonstrate loving relationships with each other and take care of each
other with some safe distancing;' he tells PEOPLE.
Bradley, 56, a pastor for 17 years, began remote services on March 15 and offers a
recorded service each Sunday morning that is available on Facebook and YouTube.

He made the decision to lead the congregation remotely after careful thought and
prayer, he says, but also using something he calls 'the grandmother test; which he
typically applies in dangerous situations like hurricanes or tornadoes.
"We all have or know grandmothers who, if the church doors are open, are going to
come to church. So I ask myself, 'Would I want my grandmother in church in these
conditions?' And the answer right now is 'no' because they are the most at-risk at
this time:'
Rabbi Aaron Schonbrun, 43, from Torat El in Oakhurst, New Jersey, agrees: "To me it
was important to keep people safe, that was my number one concern. But number
two was, 'How long is this going to be going on?' People need contact. Religion,
synagogues, all are built around relationships. It's at the center of what we do. So I
had to think, 'How am I going to maintain relationships if we can't be together?' That
pushed me quickly to say, we are going to do this virtually on Shabbat, we are going
to do this on Passover. At least we can see each other;' he tells PEOPLE.

https://people.com/human-interest/pastors-say-worshiping-at-home-this-easter-coronavirus-responsible-the-command-is-to-love-one-another/

R.A. 182

2/4

1011212@ase 1 :20- cv-04844-NGG-C IBl!ligicJij}Qelllffle mt:y~

~ ingiileonaG~ l f i licaFf SWfP~0Jn4

Pagel D #: 557

"Every time I go on Zoom - Is it a little strange that we're all sitting in front of our
computer like The Brady Bunch? Sure. But we see each other. I have to say, my
service attendance is actually up;' he laughs. "Because people are popping in just for
a touchpoint:'
Brett Harris, co-pastor at University Baptist Church in Hattiesburg, Mississippi, also
says attendance to virtual services has been solid and he's seen "even an increase in
participation:'
"The first reported case in Mississippi was on March 11th, and by the 15th we were
doing virtual services. We were trying to be proactive. We have a Facebook Live
every Sunday and we're using Zoom for our small study groups:• he tells PEOPLE. He
and co-pastor Kat Kimmel have created a guide to do "Holy Week at Home" and also
collaborated with pastors from eight other churches to bring daily online reflections
to the community throughout Holy Week.
"There's been some really good things that have come out of this tough time:• Harris,
36, says. The church members "are still getting something out of the experience
even if it's wildly different than having their seat in a pew." He says he doesn't
understand why some churches are still meeting in person. "Having seen the great
response we've had from our people and their willingness to do what's best for our
community, I don't know what is to be gained from meeting in person during this
crisis. We're still worshipping and praying alongside each other, just in a new way:'
"To me it was a pretty easy decision to live out the idea of loving our neighbors as
ourselves, knowing that none of us want to get sick and we don't want anybody else
to get sick."
RELATED VIDEO: 90-Year-Old Recovers From Coronavirus
Dr. Omid Safi, Professor of Middle Eastern Studies at Duke University, Director of
Illuminated Courses and author of Radical Love: Teachings from The Islamic
Mystical Tradition agrees that love is the way to find God in these difficult times.
"I don't think we're going to find God by coming up with some moral explanation
about why people are being punished. I think that we can look for God in our
response to the virus:• he tells PEOPLE.
https://people.com/human-interest/pastors-say-worshiping-at-home-this-easter-coronavirus-responsible-the-command-is-to-love-one-another/

R.A. 183

3/4

1011212@ase

1 :20- cv-04844-NGG-C IBl!ligidulaelllffle mt:y ~

~ ingiileonaG~ l f i licaFf SWfPt'.E0Jn4

Pagel D #:

558

"When you look at people clapping for the health workers, for people who are
knowingly putting themselves in a position of risk, extending themselves in love and
in service to others ... When we're overwhelmed, we stand up and we applaud - not
bluster and not ego and greed - but we applaud love and service. I look also to the
people keeping the grocery stores open, to the people who are checking in on the
elderly, on little invisible acts of goodness and kindness; and I think that's where
God is."
Additionally, Dr. Safi says using this time to turn inward can be beneficial. "In the
Islamic tradition, there's more than a thousand years of insight on the role of
retreats. I think that's a meaningful set of teachings to tap into right now, because it
helps us think about our lives as having waves of activity - there's a time for going
out into the public square and having social interaction - and then there's time for
repose and going inward. I think the difference is traditionally, one would choose to
go on retreat, whereas now we're being forced to go into a retreat so the dynamics
are different, and of course people's health and home situations are different."
For those who miss in-person contact with their spiritual community, "that means
you have something to be grateful for;' Dr. Safi says. "Rumi says, 'Before you find the
water you have to have thirst; and that your thirst is actually what guides you to the
water. I think for people who miss in-person rituals it says to them that the rituals of
their church, mosque or synagogue are meaningful to them. And that's not the case
for so many people. So the missing of it, at this stage of things, is something to be
thankful for:'
With reporting by Stephanie Emma Pfeffer

As information about the coronavirus pandemic rapidly changes, PEOPLE is
committed to providing the most recent data in our coverage. Some of the
information in this story may have changed after publication. For the latest on
COVJD-19, readers are encouraged to use online resources from CDC, WHO, and
local public health departments. To help provide doctors and nurses on the front
lines with life-saving medical resources, donate to Direct Relief here.

https://people.com/human-interest/pastors-say-worshiping-at-home-this-easter-coronavirus-responsible-the-command-is-to-love-one-another/

R.A. 184

4/4

Case 1:20-cv-04844-NGG-CLP DoclfflMll~

1019/2020

Q,00- c~hiuilitil,Oilffi/1l!4)coe'age 1 of 4 PagelD #: 559

~.,-~ Centers for Disease
~ !lt'j Control and Prevention
1VU~.

'!i

Coronavirus Disease 2019 (COVID-19)

iiiHl1d

Considerations for Communities of Faith
Considerations for Communities of Faith
Updated May 23, 2020

CDC offers the following general considerations to help communities of faith discern how best to practice their beliefs while
keeping their staff and congregations safe. Millions of Americans embrace worship as an essential part of life. For many faith
traditions, gathering together for worship is at the heart of what it means to be a community of faith. But as Americans are
now aware, gatherings present a risk for increasing spread of COVID-19 during this Public Health Emergency. CDC offers
these suggestions for faith communities to consider and accept, reject, or modify, consistent with their own faith traditions, in
the course of preparing to reconvene for in-person gatherings while still working to prevent the spread of COVID-19.
This guidance is not intended to infringe on rights protected by the First Amendment to the U.S. Constitution or any other
federal law, including the Religious Freedom Restoration Act of 1993 (RFRA). The federal government may not prescribe
standards for interactions of faith communities in houses of worship, and in accordance with the First Amendment, no faith
community should be asked to adopt any mitigation strategies that are more stringent than the mitigation strategies asked of
similarly situated entities or activities.
In addition, we note that while many types of gatherings are important for civic and economic well-being, religious worship
has particularly profound significance to communities and individuals, including as a right protected by the First Amendment.
State and local authorities are reminded to take this vital right into account when establishing their own re-opening plans.

Scaling Up Operations
• Establish and maintain communication with local and State authorities to determine current mitigation levels in your
community.
• Provide protections for staff and congregants at higher risk for severe illness from COVID-19. Offer options for staff at
higher risk for severe illness (including older adults and people of all ages with certain underlying medical conditions)
that limit their exposure risk. Offer options for congregants at higher risk of severe illness that limit their exposure risk
(e.g., remote participation in services).
• Consistent with applicable federal and State laws and regulations, put in place policies that protect the privacy and
confidentiality of people at higher risk for severe illness regarding underlying medical conditions.
• Encourage any organizations that share or use the facilities to also follow these considerations as applicable.
• If your community provides social services in the facility as part of its mission, consult CDC's information for schools and
businesses and workplaces, as relevant, for helpful information.

Safety Actions

Promote healthy hygiene practices
• Encourage staff and congregants to maintain good hand hygiene, washing hands with soap and water for at least 20
seconds.
• Have adequate supplies to support healthy hygiene behaviors, including soap, hand sanitizer with at least 60 percent
alcohol (for those who can safely use hand sanitizer), tissues, and no-touch trash cans.

114

https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html

R.A. 185

Case 1:20-cv-04844-NGG-CLP DoclfflMll~

1019/2020

Q,00- c~hiuilitil,Oilffi/1l!4)coe'age 2 of 4 PagelD #: 560

• Encourage staff and congregants to cover coughs and sneezes with a tissue or use the inside of their elbow. Used tissues
should be thrown in the trash and hands washed.
• Whenever soap and water are not readily available, hand sanitizer with at least 60% alcohol can be used.

•

• Consider posting signs on how to stop the spread
of COVID-19 and how to promote everyday protective measures
such as washing hands, covering coughs and sneezes, and properly wearing a mask I! .

•,

Masks
• Encourage use of masks among staff and congregants. Masks are most essential when social distancing is difficult. Note:
Masks should not be placed on children younger than 2 years old, anyone who has trouble breathing or is unconscious,
and anyone who is incapacitated or otherwise unable to remove the mask without assistance. Masks are meant to
protect other people in case the wearer is unknowingly infected but does not have symptoms.

Intensify cleaning, disinfection, and ventilation
• Clean and disinfect frequently touched surfaces at least daily and shared objects in between uses.
• Develop a schedule of increased, routine cleaning and disinfection.
• Avoid use of items that are not easily cleaned, sanitized, or disinfected.
• Ensure safe and correct application of disinfectants and keep them away from children .
• Cleaning products should not be used near children, and staff should ensure that there is adequate ventilation when
using these products to prevent children or themselves from inhaling toxic fumes.
• Ensure that ventilation systems operate properly and increase circulation of outdoor air as much as possible by opening
windows and doors, using fans, etc. Do not open windows and doors if they pose a safety risk to children using the
facility.
• If your faith community offers multiple services, consider scheduling services far enough apart to allow time for cleaning
and disinfecting high-touch surfaces between services. Take steps to ensure that all water systems and features (for
example, drinking fountains, decorative fountains) are safe to use after a prolonged facility shutdown to minimize the
risk of Legionnaires' disease and other diseases associated with water.

Promote social distancing
• Take steps to limit the size of gatherings in accordance with the guidance and directives of state and local authorities and
subject to the protections of the First Amendment and any other applicable federal law.
• Promote social distancing at services and other gatherings, ensuring that clergy, staff, choir, volunteers and attendees at
the services follow social distancing, as circumstances and faith traditions allow, to lessen their risk.
• Consider holding services and gatherings in a large, well-ventilated area or outdoors, as circumstances and faith
traditions allow.
• Consider appropriate mitigation measures, including taking steps to limit the size of gatherings maintaining social
distancing, at other gatherings such as funerals, weddings, religious education classes, youth events, support groups and
any other programming, where consistent with the faith tradition.
• Provide physical guides, such as tape on floors or walkways and signs on walls, to ensure that staff and children remain
at least 6 feet apart in lines and at other times (e.g. guides for creating "one-way routes" in hallways).

Take steps to minimize community sharing of worship materials and
other items
• Consistent with the community's faith tradition, consider temporarily limiting the sharing of frequently touched objects,
such as worship aids, prayer rugs, prayer books, hymnals, religious texts and other bulletins, books, or other items
passed or shared among congregants, and encouraging congregants to bring their own such items, if possible, or
photocopying or projecting prayers, songs, and texts using electronic means.
• Modify the methods used to receive financial contributions. Consider a stationary collection box, the main, or electronic
methods of collection regular financial contributions instead of shared collection trays or baskets.
• Consider whether physical contact (e.g., shaking hands, hugging, or kissing) can be limited among members of the faith
rnmm,,nitv
214

https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html

R.A. 186

Case 1:20-cv-04844-NGG-CLP DoclfflMll~

1019/2020

Q,00- c~hiuilitil,Oilffi/1l!4)coe'age 3 of 4 PagelD #: 561

_...,., . . . . ....... ··--J •

• If food is offered at any event, consider pre-packaged options, and avoid buffet or family-style meals if possible.

Nursery/Childcare
• If a nursery or childcare will be provided during services and events, refer to CDC's information on preventing the spread
of COVID-19 in childcare settings and adapt as needed for your setting.
• If holding summer day camps, refer to CDC's information on youth and summer camps and adapt as needed.

Staffing and Training
• Train all clergy and staff in the above safety actions. Consider conducting the training virtually, or, if in-person, ensure
that social distancing is maintained.

Monitoring and Preparing

Check for signs and symptoms
• Encourage staff or congregants who are sick or who have had close contact with a person with COVID-19 to stay home.
Share CDC's criteria for staying home with staff and congregants so that they know how to care for themselves and
others. Consider posting signs at entrances with this information.

Plan for when a staff member or congregant becomes sick
• Identify an area to separate anyone who exhibits symptoms of COVID-19 during hours of operation, and ensure that
children are not left without adult supervision.
• Establish procedures for safely transporting anyone who becomes sick at the facility to their home or a healthcare
facility.
• Notify local health officials if a person diagnosed with COVID-19 has been in the facility and communicate with staff and
congregants about potential exposure while maintaining confidentiality as required by the Americans with Disabilities
Act (ADA) ['.'.l or other applicable laws and in accordance with religious practices.
• Advise those with exposure to a person diagnosed with COVID-19 to stay home and self-monitor for symptoms, and
follow CDC guidance if symptoms develop.
• Close off areas used by the sick person and do not use the area until after cleaning and disinfection. Ensure safe and
correct application of disinfectants and keep disinfectant products away from children.
• Advise staff and congregants with symptoms of COVID-19 or who have tested positive for COVID-19 not to return to the
facility until they have met CDC's criteria to discontinue home isolation.

Maintain healthy operations
• Implement flexible sick leave and related flexible policies and practices for staff (e.g., allow work from home, if feasible),
and provide requested reasonable accommodation absent undue hardship to individuals with disabilities under the
Americans with Disabilities Act (ADA) ['.'.l or other applicable laws and in accordance with religious practices.
• Monitor absenteeism and create a roster of trained back-up staff.
• Designate a staff person to be responsible for responding to COVID-19 concerns. Staff, clergy, volunteers, and
congregants should know who this person is and how to contact them if they become sick or are around others
diagnosed with COVID-19. This person should also be aware of state or local regulatory agency policies related to group
gatherings.
• As volunteers often perform important duties (e.g., greeters, ushers, childcare), consider similar monitoring, planning,
and training for them . Consider that volunteer and staffing may need to increase to implement cleaning and safety
protocols and to accommodate additional services with reduced attendance.

• Communicate clearly with staff and congregants about actions being taken to protect their health.
314

https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html

R.A. 187

Case 1:20-cv-04844-NGG-CLP DoclfflMll~

1019/2020

Q,00- c~hiuilitil,Oilffi/1l!4)coe'age 4 of 4 PagelD # : 562

Signs and Messages
• Post signs in highly visible locations (e.g., entrances, restrooms, gathering halls/community rooms/gyms) that promote
everyday protective measures
_and describe how to stop the spread
of germs (such as by properly washing
hands and properly wearing a mask !! ).

•

•

• Include messages(for example, videos)about behaviors that prevent the spread of COVID-19 when communicating
with staff and congregants (such as in emails and on community websites and social media accounts).
• Find freely available CDC print and digital resources on CDC's communications resources main page.

Closing
• Check state and local

health department notices daily about transmission in the community and adjust operations.

• In the event a person diagnosed with COVID-19 is determined to have been in the building and poses a risk to the
community, it is strongly suggested to dismiss attendees, then properly clean and disinfect the area and the building
where the individual was present before resuming activities.
Last Updated May 23, 2020

414

https://www.cdc.gov/coronavirus/2019-ncov/community/faith-based.html

R.A. 188

Sign in
Support us

•

News Opinion Sport Culture Lifestyle
US Elections 2020 World Environment Soccer US Politics Business Tech Science

Maine

Maine 'superspreader' wedding linked to 170 Covid
cases and seven deaths
More than 100 people gathered for August event in Millinocket
'It is spreading in the community with remarkable force'

Associated Press
Thu 17 Sep 2020 06.30 EDT

<

961

A rural church wedding and reception on a beautiful day in the shadow of Mount
Katahdin was no doubt a happy day. But it has spread misery ever since.
https://www.theguardian.com/us-news/2020/sep/17/maine-wedd ing-superspreader-event

R.A. 189

1/9

1011312@ase

1 :20-cv-04844-rMGG1:1~ !:sJ;teads00tA1mtentkOOe2~ ci;;JieflisWl~lih dB&lQ~ alnef-0,~llii) #: 564

The outbreak changed the calculus of state health officials, who urged renewed
vigilance in a state that had largely controlled the virus previously, Shah said.
"It is spreading in the community in and around York county with remarkable force;'

he said.

The epicenter was an unlikely place. Millinocket is a rural community that serves as
gateway to North Woods made famous by Henry David Thoreau. Before the wedding,
the community had no cases of the coronavirus.
It unfolded on a sunny day in August with a wedding at the Tri Town Baptist church in

East Millinocket and a reception at the Big Moose Inn in Millinocket, population 4,400.

There were 65 guests at the Big Moose Inn - violating the state's so-person limit for
indoor events - and many attendees didn't wear masks or socially distance from each
other, state officials said.
Other guests not affiliated with the wedding brought the number to more than 100.
The officiant at the wedding, the Rev Todd Bell of Calvary Baptist church in Sanford,
joined several members of his congregation.
About 10 of his congregants have also tested positive for the virus. He declined to
speak to the Associated Press.
Bell continued to hold services in Sanford and bristled over attacks aimed at him on
social media.
In one sermon, he urged people to put their trust in God over government and
questioned the wisdom of masks, likening their effectiveness to a chain-link fence
trying to keep out mosquitoes.
On a video, which is no longer public on YouTube, he said he's been "reviled" because
of the wedding.
Many people have questioned the wisdom of having such a gathering in the midst of a
pandemic.
"Tragic is the word for things that we don't have any control over. In this case, we don't
have control over the virus but this pastor absolutely had the choice whether to
perform the wedding;' said the Rev Erika Hewitt, a Unitarian Universalist in Bath.
A lrP::lfhr c;:tr110-olino- M::iinP'c;: c;:11mmPr urPrlrlino- inrl11c;:tn1 tio-htPnPrl n1lpc;: fnrrino- nPnnlP

https://www.theguardian.com/us-news/2020/sep/17/maine-wedd ing-superspreader-event

R.A. 190

3/9

1011312@ase

1 :20-cv-04844-fMGG1:1~ !:sJ;teads00tA1mtentkOOe2~ ci;;JieflisW/~Q, dB &lQ~ anef -0,~llii) #: 565

That single event on 7 August is linked to coronavirus outbreaks in
at least two other locations in Maine, with more than 170 people
contracting the virus and seven deaths since.
Trump claims CDC
director is
·confused' over 2021
vaccine timetable

t) Read more

Nirav Shah, director of the Maine Center for Disease Control, said
the single event has the power to undo much of the state's progress
during the pandemic. The virus can become "the uninvited guest
at every single wedding, party or event in Maine", he warned.
Advertisement

The "superspreader" event started with wedding attendees in the Katahdin region and
spread to the community at large and to a nursing home in Madison.
An attendee worked at the York county jail, 220 miles away, where there are more than
70 cases. The state is also investigating an outbreak at a church in Sanford, home of the
wedding's officiant.
None of those who died actually attended the wedding and reception. The first of the
deaths was reported in Millinocket, where no one has tested positive for several weeks,
the town manager said on Wednesday.
Six other deaths were residents of Maplecrest rehabilitation and living center in
Madison.
The ramifications were swift.
Across the state, brides and grooms scrambled as event venues reassessed safety rules
during the pandemic.
The reception venue lost its business license, briefly, and hired a public relations firm.
The pastor hired a law firm that specializes in religious liberty.
https://www.theguardian.com/us-news/2020/sep/17/maine-wedd ing-superspreader-event

R.A. 191

2/9

to pare down guest lists, or cancel events altogether.
In Belfast, Thomas Roberts nearly blew a gasket when the
Boathouse notified his daughter the venue might cancel her
wedding.
Susan Collins has
cause for concern
on Trump in Maine
race key to US
Senate
t)Readrnore

"We have people already paid for travel arrangements, airline
arrangements, rooms, and Covid-19 testing before traveling. Don't
mess with my daughter's wedding less than a month before it:' he
said on social media.

His daughter, Amber, said she had already reduced her guest list,
and informed guests of Maine's quarantine and testing requirements. Her wedding is
outdoors but she may have to drop more people from an indoor reception.
"I worry and stress out very easily;' said the bride-to-be. "We're trying very hard to
follow their guidelines so we can have a happy day!'

America faces an epic choice ...
... in the coming weeks, and the results will define the country for a generation. These
are perilous times. Over the last four years, much of what the Guardian holds dear has
been threatened - democracy, civility, truth.
The country is at a crossroads. The Supreme Court hangs in the balance - and with it,
the future of abortion and voting rights, healthcare, climate policy and much more.
Science is in a battle with conjecture and instinct to determine policy in the middle of
a pandemic. At the same time, the US is reckoning with centuries of racial injustice as the White House stokes division along racial lines. At a time like this, an
independent news organization that fights for truth and holds power to account is not
just optional. It is essential.
Like many news organizations, the Guardian has been significantly impacted by the
pandemic. We rely to an ever greater extent on our readers, both for the moral force to
continue doing journalism at a time like this and for the financial strength to facilitate
that reporting.
We believe every one ofus deserves equal access to fact-based news and analysis.
We've decided to keep Guardian journalism free for all readers, regardless of where
they live or what they can afford to pay. This is made possible thanks to the support
we receive from readers across America in all so states.
As our business model comes under even greater pressure, we'd love your help so that
https://www.theguardian.com/us-news/2020/sep/17/maine-wedd ing-superspreader-event

R.A. 192

4/9

Nobel prizes/ US game theory specialists win prize in economics
10h ago

Beatified millennial / Pope sets late tech whiz on path to sainthood
10h ago

Norway/ Norway grants asylum to man claiming persecution by Polish government
7h ago

California/ State investigates unauthorized ballot boxes installed by Republicans
7h ago

Related stories
Susan Collins has cause for concern on Trump in Maine race key to US
Senate
12 Sep 2020

Rare shark attack in Maine may be linked to marine protection efforts
30 Jul2020

- - - - --, Maine tells swimmers to stay in shallow water after fatal shark attack
29 Jul 2020

-~-~ +

~!!".~•~ ..:.~.~ :: ::

Woman killed in apparent shark attack off Maine coast

;i, ..

'

.

'

28 Jul2020

New York warns of children's illness linked to Covid-19 after three deaths
9 May2020

New York reports 15 cases of rare illness in children possibly linked to Covid-19
5 May 2020

Right whale population decline linked to ocean warming, research says
27 May 2019

Former president George HW Bush admitted to hospital in Maine
https://www.theguardian.com/us-news/2020/sep/17 /maine-wedd ing-superspreader-event

R.A. 193

6/9

1011312@ase

1 :2O- cv-O4844-rMGG1:1~

!:sJ;teads00tA1mtentkOOe2 ~

ci;;JieflisWl~lih dB &lQ~

i nef - 0 , ~llii)

#:

568

we can carry on our essential work. If you can, support the Guardian from as little as
$1 - and it only takes a minute. Thank you.
Support The Guardian

•

VISA

Topics

Maine

Coronavirus outbreak / news

f

'#

B

in

<p

{9

0
Subscribe

Read The Guardian in print

Find clarity by subscribing to The Guardian's
essential news magazine, with 6 issues for
$6. Home delivery available wherever vou

•

Take time to understand the
week

Once a week, take a moment to pause, reflect
'.3nrf rnncirfor In Thor:, r'.:lrrfi~n \Aloo~h, u,o

Headlines
Amy Coney Barrett/ Supreme court hearing sets stage for partisan clash
10h ago

Florida / Trump holds packed rally after Covid diagnosis as he struggles

in polls
lh ago

Peru/ Machu Picchu ruins opened for one tourist
https://www.theguardian.com/us-news/2020/sep/17/maine-wedd ing-superspreader-event

R.A. 194

5/9

1011312@ase

1 :2O- cv-O4844-rMGG1:1~
-

-

!:sJ;teads00tA1mtentkOOe2 ~

ci;;JieflisWl~lih dB &lQ~~nef - 0 , ~llii) #: 569
-

27 May 2018

Most popular
I Across The Guardian

1

2
3
4
5
6
7
8
9
10

InUSNews

II Amy Coney Barrett went to my all-girls high school. I hope she's not

confirmed

California investigates unauthorized ballot boxes installed by Republicans
Beatified millennial: Pope sets late tech whiz on path to sainthood
US election polls tracker: who is leading in the swing states?
Buckley delivers 'most unbelievable KO in UFC history' with spinning kick

live / Trump holds first rally since Covid diagnosis, as Senate opens bitter
hearings on court pick- as it happened
Peru opens Machu Picchu ruins for one tourist
II Business class was my chance to get home. After 24 hours of niceness, I wish I

had my $7,000 back

Kim Jong-un sheds tears as he delivers rare apology to North Korea over failings
Tm a perfect physical specimen': absurd claims Trump made this weekend

Most commented

Martin Rowson on England's three-tier Covid system - cartoon

Most shared

Amy Coney Barrett went to my all-girls high school. I hope she's not
confirmed

Lisa M O'Neill

https://www.theguardian.com/us-news/2020/sep/17/maine-wedd ing-superspreader-event

R.A. 195

7/9

US Elections 2020 World Environment Soccer US Politics Business Tech Science

News Opinion Sport Culture Lifestyle
Sign up for the Guardian Today email
All the day's headlines and highlights from the
Guardian, direct to you every morning
(

ldll

dddress

Sign up

About us

All topics

Contact us

All writers

Complaints & corrections

Digital newspaper archive

SecureDrop

Facebook

Work for us

Twitter

California resident - Do Not Sell
Privacy policy
Cookie policy
Terms & conditions
Help
Advertise with us
https://www.theguardian.com/us-news/2020/sep/17/maine-wedd ing-superspreader-event

R.A. 196

8/9

1011312@ase

I_

1 :2O- cv-O4844-rMGG1:1~

Guardian Labs

!:sJ;teads00tA1mtentkOOe2 ~

I

ci;;JieflisWl~lih dB8lQ~

'1nef

tl,~llii) #:

Search jobs
~ - - - - - - - - - - - - - - - - - - - - - - - - - - - - - Backtotop
© 2020 Guardian News & Media Limited or its affiliated companies. All rights reserved. (modern)

https://www.theguardian.com/us-news/2020/sep/17/maine-wedd ing-superspreader-event

R.A. 197

571

A

J

9/9

101131:.fo!mse 1:2O-cv-O4844-NGG-CLP DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

A server wearing a face mask takes orders from a table of customers in Houston, Texas, on May 22.

e 1 of 12 PagelD #: 572

I Mark Felix/AFP via Getty Images

How superspreading is fueling the
pandemic - and how we can stop
it
"Any one of us could unknowingly be a superspreader."
By Katherine Harmon Courage

I Updated Oct 3, 2020, 8:00am EDT

We now know that, on average, most people with the novel coronavirus pass the virus to
just one other person, or to no one else at all.
But some go on to infect many, many more, often before they even experience symptoms.
Many of these transmission chains begin with "superspreading" events, where one person
(usually in a crowded indoor space) passes the virus to dozens of others. Early contact

tracing studies suggest these events have been a large driver of transmission around the
world. By some estimates, 10 percent of people have been causing 80 percent of new
infections.

https://www.vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 198

1/12

101131:.fo!mse 1:2O-cv-O4844-NGG-CLP

DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

e 2 of 12 PagelD #: 573

To date, some of the largest superspreading events have happened aboard ships, including
Navy carriers and cruise ships. But they are also happening in smaller settings, including at

a church in Arkansas.
In early March, a 57-year-old pastor and his wife, who both felt fine, attended a series of
church events over three days, and the pastor returned for an additional Bible study group
a few days later. Soon after, they each started developing symptoms and eventually tested
positive for the coronavirus. But it had already spread. At least 33 of the other 92 event
attendees later tested positive for Covid-19, and three of them died. These cases then
spawned more than two dozen other illnesses - and another death - in the community.
One preliminary Centers for Disease Control and Prevention report analyzed all of the
3,184 confirmed Covid-19 cases in Japan through the beginning of April. The researchers
found that 61 percent of cases could be definitively traced to clusters of spread outside
the household, such as at restaurants, bars, event venues, and workplaces. And this is
likely an undercount due to limitations in contact tracing.
Superspreading events can lead to potentially thousands of cases in the community, as an
August 25 preprint that hasn't yet been peer reviewed suggests. The authors sequenced
the full viral genome in 772 Covid-19 cases in the Boston region, including 28 early cases
that were linked to a late-February conference for the biotech company Biogen. By
finding a specific genetic mutation in the conference infections, they could then trace the
chain of transmission. This one variant was found in about one in three later cases in their
Boston area study (and about 2.7 percent of all of the analyzed US cases), suggesting that
the Biogen conference led to an estimated 20,000 Covid-19 cases in total.
RELATED

How large "superspreader" events turned into coronavirus hot spots

What causes these superspreading clusters, and why are they such a key driver of this
pandemic? Is it something about the people themselves who start them? Or is it more
about the settings where these events take place? Or a combination?
Thankfully, we are learning more about superspreading events, and this insight can help
dramatically slow the spread of the coronavirus and save lives - all while potentially
allowing more people to return to less risky activities. That is, if policymakers implement
the guidance, and people follow it. "If you could reduce superspreading, you could have a
https://www.vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 199

3/12

101131:.fo!mse 1:2O-cv-O4844-NGG-CLP

DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

e 3 of 12 PagelD #: 574

massive impact on the pandemic," Elizabeth McGraw, director of the Center for Infectious
Disease Dynamics at Pennsylvania State University, told Vox in an email. Let's walk through
it .
Why is the coronavirus so good at superspreading?
To understand what might kick off a superspreading event, let's review some basics about
how this virus, SARS-CoV-2, spreads. Researchers have found that it often spreads
through microscopic droplets created when an infected person coughs or sneezes - or
even speaks - and another person breathes them in. These disease-containing droplets
are a large part of the reasoning behind staying at least 6 feet away from people and
wearing a mask in public.
But scientists are finding that the virus likely also spreads through even tinier, longerlasting aerosols particles from breathing or speaking (or flushing a toilet). These are so
small they can linger in the air after an infectious person has left - and may contain
infectious virus particles for up to three hours. And they may be a key element to
superspreading events: An infected person could seed a poorly ventilated indoor space
with virus without even getting physically close to all the people they end up infecting.
RELATED

Why some states became coronavirus hot spots - and others haven't

Superspreading also appears to be more likely with SARS-CoV-2 because people typically
have the highest level of the virus in their system (making them infectious) right before
they develop symptoms. (This is very different from other severe coronaviruses like
SARS and MERS, where people were most infectious seven to 10 days after they started
feeling sick, when they were more likely to be in isolation or in medical care.) So thousands
of people with active Covid-19 infections continue to go about their lives not knowing that
they could be spreading the disease.
This has meant that, as some researchers noted in a preprint, "most transmissions are
front-loaded" toward the beginning of the illness. As another team of researchers who
analyzed cases and contacts in Taiwan noted in JAMA , people actually had a much lower
risk of spreading the virus after five days of symptoms. This might be in part because sick
people are less likely to go out, whether because they don't want to spread their illness or
because they simply don't feel up to it.
https://www.vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 200

4/12

101131:.fo!mse 1:2O-cv-O4844-NGG-CLP DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

e 4 of 12 PagelD #: 575

But it also has to do with a person's "viral load" - an amount that actually tends to go down
as symptoms wear on. A May study of samples collected from patients, published in
Clinical Infectious Disease, suggests that people who had symptoms for more than eight

days might not actually be very infectious.

"I THINK THE VIRUS'S BIGGEST WEAPON HAS BEEN THAT IT CAN BE
SPREAD BY ASYMPTOMATIC OR PRESYMPTOMATIC PEOPLE"
All of this makes it so much more likely for people to be spreading the virus - sometimes
to very large groups of people - unwittingly.
"I think the virus's biggest weapon has been that it can be spread by asymptomatic or
presymptomatic people," McGraw says. "This, in combination with insufficient testing of
people in the community, has meant that it can move from one host to the next while we
are unaware."
This coronavirus's uneven spread is calculated by its "dispersion factor" (sometimes
abbreviated as "k"): what proportion of cases cause the bulk of transmissions. An even
dispersion rate would mean most people cause the same number of secondary infections.
We still don't have an entirely firm k factor for Covid-19, and a lot of the research is still in
the prepublication phase and has not been peer-reviewed. But preliminary estimates, such
as one co-authored by Adam Kucharski, an infectious disease dynamics expert at the
London School of Hygiene and Tropical Medicine, suggest that about 10 percent of
infected people cause about 80 percent of the virus's spread.
Another early, non-peer-reviewed study from Israel put the local k factor at between 1

and 10 percent of infected people causing 80 percent of new infections. And a

preliminary analysis of superspreading events in Hong Kong put their estimates at
around 20 percent of infections causing 80 percent of local transmission.
All of this shows how important superspreading events have been in the virus's spread.
But it doesn't fully explain why they are happening - or how to stop them.
Are certain people more likely to be superspreaders?
Scientists are learning that a person's likelihood of kicking off a superspreading event
probably depends a little bit on biology and a lot on behavior.
https://www.vox.com/21296067/coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 201

5/12

101131:.fo!mse 1:2O-cv-O4844-NGG-CLP DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

e 5 of 12 PagelD #: 576

Some individuals seem to develop higher amounts of the virus in their system, upping
their odds of transmitting it to others.
And given that the amount of virus in the body tends to shift over the duration of
infection - rising until around the onset of symptoms, then declining - the chance that
someone is a likely superspreader changes over time.
Another preprint posted on August 7 developed a model to better understand how these
dynamics might be playing out for SARS-CoV-2. The research suggests that people
carrying this virus are potentially infectious for about two and a half days - and rise to a
"moderate probability of transmission per contact" for "less than half a day," the
researchers write.
This means that it would likely take someone having contact with a large number of people
during the window when they had fairly large amounts of the virus (more than 10 million
RNA copies) to spark a superspreading event infecting more than 50 people (whereas
someone with 100,000 viral RNA copies was unlikely to infect others).
This helps us understand how superspreading can happen by chance, on a population
level. Finding out whether some people are predisposed to be superspreaders will take
more time and research, McGraw says.
But what we have been learning is how individuals' behavior could increase the chance
they spread the virus to many others - or not. "We do know that wearing masks, keeping
up physical distancing, avoiding crowds, and isolating upon becoming sick or testing
positive can prevent superspreading," she says.
The CDC report out of Japan found 22 people who likely started clusters of cases. (Half of
them were 20 to 39 years old.) And for 16 people, the research team could figure out when
transmission occurred, which is important because it showed that 41 percent of them
didn't have any symptoms when they spread the virus. In fact, of the superspreaders, only
one had a cough when they infected others.
And as the authors of the August 7 preprint found, about 62 percent of superspreading
transmissions happened when the spreader was presymptomatic.
This points to an important nuance in thinking about how some individuals might be
sickening a disproportionate number of others. "We should not think about
https://www.vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 202

6/12

101131:.fo!mse 1:20-cv-04844-NGG-CLP

DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

e 6 of 12 PagelD #: 577

This is one of the reasons experts worry about large indoor gatherings-- more so than
outdoor ones - causing large spikes in case numbers.
With Friday's news that at least 12 people who work in the White House or have
recently attended events there, including President Donald Trump, have tested positive

for the coronavirus, there are questions about whether the maskless indoor receptions
on September 26 to celebrate Trump's nomination of Judge Amy Coney Barrett to the
Supreme Court kicked off a superspreading event.

I

Dr. Angela Rasmussen
@angie rasmussen

I

e

The Amy Coney Barrett Rose Garden announcement was a
superspreader event, despite being outdoors.
Single risk reduction measures are not enough. Multiple
measures are needed:
Masks AND distancing AND avoid crowds AND hygiene AND
avoid prolonged contact.

Invincibility punctured by infection: How the coronavirus spread in Trump ...
The jarring contrast between the carefree, cavalier attitude toward the
vi rus on display in a Rose Garden event Saturday and the pernicious ...
c9 washingtonpost.com

CD

7:04 AM · Oct 3, 2020

<::?

994

See the latest COVID-19 information on Twitter

https://www.vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 203

J
2/12

101131:.fo!mse

1:20-cv-04844-NGG-CLP

DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

e 7 of 12 PagelD #: 578

superspreaders as villains," McGraw says. "Any one of us could unknowingly be a
superspreader" - especially given what we know about how much it spreads when people
are feeling just fine.
But that means we can probably also avoid becoming a superspreader by doing things we
already know can limit the spread of the virus: "Wear a mask. Wash your hands. Keep your
distance, and respect the physical space of others," McGraw says.
As the pandemic has worn on and become increasingly politicized, however, many people
in the US are now resisting continued precautions, leading to mask rebellions, large
gatherings - and much greater chances of new superspreading events.
"I see an increasing number of people not wearing masks in public as restrictions ease,"
McGraw says. "I find it disappointing. I worry that our focus on personal freedoms in the
US, rather than being more community-minded, is going to prolong the outbreak and lead
to more deaths than necessary."
Why superspreading is more common at concerts than in libraries
Although we know that individuals' behavior plays a role in superspreading, what might be
even more important for these events is where they happen.
Researchers have been tracking many superspreading events around the globe, and there
seem to be recurring locations no matter what the country. In addition to those we have
heard most about, like prisons, food processing plants, and elder care facilities, there
have also been numerous large superspreading events at bars, churches, offices, gyms,
and shopping centers.
These are also places, though, that are now reopening around the country and likely
contributing to the upward swing of cases in many states. As Kucharski wrote in an email
to Vox, "Identifying and reducing risky events and environments could make a substantial
dent in transmission." Not reducing these events has the opposite effect on the number of
cases.
For example, as South Korea started to reopen in early May, one infected person who
attended five nightclubs caused at least 50 new infections.
And a preliminary study of infection clusters in Hong Kong found that the largest one
documented so far, which resulted in 106 Covid-19 cases, was linked back to exposures
https://www.vox.com/21296067/coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 204

7/12

e 8 of 12 PagelD #: 579

101131:.fo!mse 1:2O-cv-O4844-NGG-CLP DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

from staff and musicians at a series of bars. Seventy-three of the people in this cluster
caught the virus at the bars (including 39 who were customers), who then spread it to
others in the community.

·-·-··-T-·-·-ei.oc.i r,o....
WI ~

(~,.,..

(f) Ttl'IIIM

,............

~

C.MOU.ll!llNd

A

••

B

.•• :. .,..
e
-

--·•

,j

..
.
. -~' . ...
•

•
••
•
lt

. - ... ... ... ......·--. .. .

D

.

e•

••

•

•

ii

:• .,,,•• .,. •
' l • .. .._ .• •
a

••

11!1

• •• •
••
.
.
.
.
·:
~•'. . . ... •-· . . .
. .... ... .. . ,,,; ..

C

"*

._ •._ lt) ,.-e ·•

••

'

•

•

• •

•

• • •

••

8

'Y

•

• •

.:
••

•• •

Figure A shows a large superspreading event that spiraled out from a cluster of bars in Hong Kong.

•

•

••

• •

•

• .

. ..

.. -e

I Epidemiology

A team of researchers at the London School of Hygiene and Tropical Medicine has been
collecting data on these superspreading events in a public database. The largest ones including two that resulted in more than 1,000 cases each - happened aboard ships.
Hundreds of cases also have originated from single individuals in close contact with others
in worker dormitories, food processing plants, prisons, and elder care facilities.
But next on the list are an outbreak tied to a single person at an indoor-outdoor shopping
market in Peru who likely infected 163 other people; an indoor-outdoor religious service in
India where one person likely sickened 130 others; and an indoor-outdoor wedding in New
Zealand where a single case sparked 98 more.
Only one of the 22 cluster location types the team analyzed in a preliminary study was an
outdoor setting (building sites in Singapore; four clusters were linked to these sites,
causing a total of 95 infections acquired directly from the sites).
These findings line up with other preliminary research that calculated closed
environments to be almost 20 times more likely to spur additional coronavirus infections
than open-air ones.
There was concern that the massive protests across the US, which started in late May
after the killing of George Floyd, would become superspreading events. So far the data

https://www_vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 205

8/12

101131:.fo!mse 1:2O-cv-O4844-NGG-CLP DOCLtmelil~ei!{j}raEling lsijed,g_~lia/OOlic ~

e 9 of 12 PagelD #: 580

suggests that wasn't the case, with no large surge in cases in cities that had the largest
demonstrations.
This lines up with the science. "Outdoor events like the protests are inherently less risky
than indoor events, given greater airflow," McGraw says. "It is also easier to spread out and
maintain physical distancing." And photographs of the protests have shown that a large
number of people have been wearing masks. Still, no massive gathering is guaranteed to
stay Covid-19-free. "There will still be increased risk of transmission given the large
number of people present," she says.
It also appears that not all indoor venues and events are equally risky when it comes to
starting a large cluster of new cases.
As we've learned from studying events, like the infamous March church choir practice in
Skagit County, Washington, during which one person infected an estimated 52 of 61 people
(two of whom died), loud talking and singing "can spread more virus than talking at a
normal volume," McGraw says.
Indeed, the recent analysis out of Japan found that "many Covid-19 clusters were
associated with heavy breathing in close proximity, such as singing at karaoke parties,
cheering at clubs, having conversations in bars, and exercising in gymnasiums."
RELATED

How to weigh the risk of going out in the coronavirus pandemic, in one chart

Even looking more closely at cases from these locations can give us clues about what
makes superspreading more likely. A CDC report from South Korea detailed 112 Covid-19
infections that came from aerobic dance classes (like Zumba) in one city. Interestingly, an
instructor who infected dance class participants also taught yoga and Pilates classes, but
none of those participants got ill.
"We hypothesize that the lower intensity of pilates and yoga did not cause the same
transmission effects as those more intense fitness dance classes," the authors noted.
"The moist, warm atmosphere in a sports facility coupled with turbulent air flow generated
by intense physical exercise can cause more dense transmission of isolated droplets,"
thereby making the virus more likely to spread.

https://www.vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 206

9/12

10113/®ase 1:2O-cv-O4844-NGG-CLP Documelitp2JQ,ieQJin~ le6li~ @la .~9nicPage 10 of 12 PagelD #: 581

These hubs of contagion also are helping us learn what activities might be safer, like
seeing small groups of people, from a distance, outdoors.
"There's increasing evidence that certain environments, like socially distanced picnics with
a few other people, are far less risky than crowded, close-knit interactions, like large
gatherings indoors," says Kucharski, who is also the author of The Rules of Contagion.
What should we be doing to limit superspreading?
Superspreading can be both a curse and a potential blessing in a disease outbreak. It
means that having everyone on full lockdown is not necessarily essential to keep the
disease in check when it is not already circulating widely in a community - if (and that's an
important "if") we can determine the highest risks for superspreading and prevent them.
That's the blessing. The curse, Kucharski says, is "if risky situations are missed or
undetected, it means transmission could persist."
Not only that, but there is also the danger that, as the authors of one early report note, "If
a superspreader is infected, the disease may spread to other superspreaders." This seems
entirely possible, especially given that people surrounding an original superspreader were
probably already engaging in behavior (like attending a crowded public location) that would
make them more likely to be a superspreader, too.
Superspreading events also can strain other systems in place, like contact tracing, to
contain the virus, increasing the odds that further infections will continue to spiral in the
community. Just as a sudden spike in cases can surpass the capacity of health care
systems, a big jump can also surpass local capacity to track and notify contacts of the
infected to isolate and get tested.
But now that we have data from recent superspreading events, we could theoretically
prevent future ones. For example, the preprint modeling superspreading dynamics
suggests that just reducing exposure opportunities, such as events with 20 or more
possible people, could get the virus's spread under control.
The good news is that the science on this is growing. But it depends on government,
businesses, and individuals to put these lessons into practice.
For example, in addition to physical distancing measures, limits on capacity, and requiring
mask-wearing, governments and businesses could also take into account other details we

https://www.vox.com/21296067/coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 207

10/12

10113/®ase 1:2O-cv-O4844-NGG-CLP Documelitp2JQ,ieQJin~ le6li~ @la .~9nicPage 11 of 12 PagelD #: 582

are learning about superspreading events, like loud environments that encourage more
droplet-filled speech.
One thing that will help reduce these events is more contact tracing, isolation, and testing.
If those 10 or 20 percent of people who would have sparked 80 percent of the new
infections instead only passed the illness on to one or two other people, we could be in a
much different place, and soon.
A first step is following the lead of infectious disease experts, who know well what
potential superspreading situations to avoid. McGraw says, "I might dine outside, if the
tables were spaced apart, and I felt like the customers and restaurant staff were taking
precautions." Earlier this summer, she went camping with her family, but she chose
campgrounds following CDC guidelines. "For other places, like parks and beaches, my
advice is to be prepared to leave if they get crowded and you cannot safely distance," she
says.
For his part, Kucharski cites the simple guidelines Japan has put out: avoid, when at all
possible, the "3 Cs" - closed environments, crowded places, and close-contact settings.
Katherine Harmon Courage is a freelance science journalist and author of Cultured and

Octopus! Find her on Twitter at @KHCourage.

New goal: 25,000
In the spring, we launched a program asking readers for financial contributions to help
keep Vox free for everyone, and last week, we set a goal of reaching 20,000 contributors.
Well, you helped us blow past that. Today, we are extending that goal to 25,000. Millions
turn to Vox each month to understand an increasingly chaotic world - from what is
happening with the USPS to the coronavirus crisis to what is, quite possibly, the most
consequential presidential election of our lifetimes. Even when the economy and the news
advertising market recovers, your support will be a critical part of sustaining our resourceintensive work - and helping everyone make sense of an increasingly chaotic world.

Contribute today from as little as $3.

https://www.vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 208

11/12

10113/®ase 1:2O-cv-O4844-NGG-CLP Documelitp2JQ,ieQJin~ le6li~ @la .~9nicPage 12 of 12 PagelD #: 583

EXPLAINERS

The battle over a Texas order limiting ballot drop-off locations, explained

EXPLAINERS

A former Republican could win the Kansas Senate race for the Democrats

EXPLAINERS

Originalism, Amy Coney Barrett's approach to the Constitution, explained

View all stories in Explainers

https://www.vox.com/21296067 /coronavirus-covid-wh ite-house-superspreaders-superspreading-contagious-bars-restaurants

R.A. 209

12/12

THE CITY OF NEW y ORK

LAW DEPARTMENT

JAMES E. JOHNSON
Corporation Counsel

100 CHURCH STREET
NEW YORK, NY 10007

Melanie V. Sadok
phone: (212)356-4371
fax: (212)356-2019
email: msadok@law.nyc.gov

October 8, 2020
By ECF
The Honorable Gary L. Sharpe
Senior United States District Judge
James T. Foley U.S. Courthouse
445 Broadway, Room 112
Albany, NY 12207
Re: Soos, et al. v. Cuomo, et al., 1:20-CV-651 (GLS)(DJS)
Your Honor:
I am an Assistant Corporation Counsel in the office of James E. Johnson,
Corporation Counsel of the City of New York, attorney for defendant de Blasio in the abovereferenced matter. I write to inform the Court of a change in circumstances that affects the
ability of individuals to gather in certain areas of New York City. As the Court may be aware,
on October 6, 2020 Governor Cuomo (also a defendant in this matter) issued Executive Order
202.68 (the "Executive Order"), directing that the State Department of Health determine areas in
the State that require enhanced public health restrictions due to severe increases in the number of
COVID-19 cases and imposing mitigating measures in those areas. The Executive Order
establishes three zones based upon the severity of growth in COVID-19 cases and sets forth
different restrictions for each zone.
The Red Zones, which have experienced the sharpest increase in COVID-19
cases, has the greatest restrictions. Indeed, as of the drafting of this letter, the rate of positive
tests in the red zone in New York City is approximately 8% whereas the rest of the City hovers
at around 1%. To combat this resurgence, non-essential gatherings of any size are not permitted
in the red zone. However, houses of worship are permitted to be open at up to 25% capacity or a
maximum of 10 people, whichever is fewer. By contrast, all other non-essential businesses in
the red zone must be closed.
In the Orange Zones, which, as of the drafting of this letter have approximately a
5% positivity rate, the Governor's Executive Order 202.68 prohibits non-essential gatherings
greater than 10 people and allows up to 33% capacity in houses of worship or 25 people,
whichever is fewer. While certain other non-essential businesses (for which there is a high risk
for virus transmission) must be closed, other non-essential businesses may operate at the same
R.A. 210

50% capacity as the rest of the City (other than the Red Zones) While we believe there is a
public health rationale for restricting capacity at houses of worship in the orange zone to 33%,
the City will hold houses of worship to the 50% capacity limit imposed on other non-essential
businesses.
The Yellow Zones currently have approximately 3% positivity rate. Non-essential
gatherings greater than 25 people are prohibited, but up to 50% of capacity is allowed in houses
of worship. That is, houses of worship in the yellow zone are under the same restriction as
houses of worship in the rest of New York City. The Executive Order was effective October 6,
2020 and directs that it shall be enforced no later than Friday, October 9, 2020. For reference, the
Executive Order and current relevant maps can be accessed at:
https://www.governor.ny.gov/news/no-20268-continuing-temporary-suspension-andmodification-laws-relating-disasteremergency;https://nycgov.maps.arcgis.com/apps/instant/lookup/index.html?appid=021940a41da
04314827e2782d3d1986f
The State Department of Health has designated red, orange and yellow zones in
multiple areas in the State, including several areas in Brooklyn and Queens. Given the dangerous
increase in the positivity rate of COVID-19 in the zones designated by the Department of Health,
the City of New York will immediately begin enforcing the Executive Order as described above
as a necessary step to protect the public health and stop the further resurgence of COVID-19 in
New York City.
Respectfully submitted,
/s/
Melanie V. Sadok
Assistant Corporation Counsel
admitted pro hac vice
cc:

By ECF
Christopher A. Ferrara, Esq.
Attorney for Plaintiffs
Adrienne J. Kerwin
Assistant Attorney General
Attorney for Defendants Cuomo
and James

2

R.A. 211

1019/2020

~

~.,-~ Centers for Disease
Control and Prevention

'!i !lt'j

1VU~.

Coronavirus Disease 2019 (COVID-19)

iiiHl1d

Frequently Asked Questions: Calculating Severe Acute
Respiratory Syndrome Coronavirus 2 (SARS-CoV-2) RT-PCR
Laboratory Test Percent Positivity
FAQ: Calculating Percent Positivity
Updated Sept. 16, 2020

FAQ
+

What is percent positivity?
Percent positivity represents the percentage of all COVID-19 (SARS-CoV-2 RT-PCR) tests conducted that are positive.
While the methods used to calculate percent positivity can differ, percent positivity provides important insights into
the transmission of an infectious disease, such as COVID-19 (SARS-CoV-2), in a geographical area (e.g., national,
regional, state, county). Percent positivity provides a strong indication of how widespread infection is in an area
where testing is being conducted, but is dependent upon whether testing is keeping up with the level of disease
transmission and the criteria used for testing (routine screening vs. diagnostic testing).

+

Why is calculating percent positivity important?
A high percent positivity occurs when many of the test results among those being tested and reported in a
community are positive. This can mean that
• There are a lot of infections in the community; or
• That only a subset of the community at greatest risk for SARS-CoV-2 infection is being tested; or
• There are reporting processes or delays that skew the results (e.g., prioritizing reporting of positive test results
over negative results).
The percent positivity goes down when more people tested are negative for COVID-19. This happens when the
number of infections goes down or when testing is expanded to include more people who are not infected. In
general, percent positivity will go down as more persons are being screened in non-outbreak settings (e.g., routine
screening of persons who are not infected by SARS-CoV-2 in schools, long-term care facilities, and workplaces) and
the results are reported.

What methods are used to calculate percent positivity?

+

• Differences in the numerators or denominators they use (e.g., tests/tests, people/tests, people/people). [See
figure below].
• Differences in the timeframe in which data are included (i.e., a seven-day versus a 14-day rolling average), as well
as what dates (e.g. specimen collection date, test date, result date) are used to assign tests to specific timeframes.
https://www.cdc.gov/coronavirus/2019-ncov/lab/resources/calculating..percent.positivity-faq.html

113

R.A. 212

1019/2020

• Differences in the inclusion or exclusion of antigen test results. Antigen tests may be used for screening or
diagnostic purposes. Antigen test results may not be consistently reported to public health officials by clinics or
sites where routine screening is conducted (e.g., long-term care facilities, schools or workplaces).
• Differences in inclusion of screening tests results. With increased screening using both antigen and RT-PCR tests,
the ability to confidently interpret the meaning of percent positivity results will be impacted by the unknown
criteria for testing (routine screening vs. diagnostic testing of symptomatic persons).
• Differences in how test results are assigned to jurisdictions, including by the person's place of residence, the
provider's clinic location, the location the test specimen was collected, or the location of the laboratory.
• Differences in whether "indeterminate" or "inconclusive" results are included in the denominator (even though
these may represent a very small proportion of all results).

+

How is percent positivity calculated?
There are three ways percent positivity can be calculated .

+ ffl

• Test over test-used by CDC

+ ..

• People over tests-used by some states

(m+m]

[m+ ffll]

0 # of positive tests 0
(# positive tests+# negative tests)

# of new people with positive tests
(# of positive tests+# of negative tests)

• People over People used by some states

•

# of new people with positive tests
(# of people with positive tests+# of people with negative tests)
Positive labori,tory test result

•

Necative laboratory test result

What is the value of calculating percent positivity? Does it matter which method is used?

I

+

For surveillance purposes, the value of calculating percent positivity of laboratory tests for COVID-19 RT-PCR is to allow us
to follow the magnitude and trend of the pandemic. Any of the three methods for calculation (tests/tests, people/tests, or
people/people), when applied consistently and with clear communication, will allow public health officials to follow
magnitude and trends effectively, and the trends will be useful for local public health decision making.

What does a high percent positivity mean?

A high percent positivity means that SARS-CoV-2, the virus that causes COVID-19, transmission is elevated in the
jurisdiction and community mitigation measures are warranted to reduce transmission. A high percent positivity
means there is a high rate of SARS-CoV-2 infections due to extensive transmission of the virus in the geographic area.
For details on steps you can take to slow the spread of the virus in your community, visit Implementation of
Mitigation Strategies for Communities with Local COVID-19 Transmission.

I

How can a high percent positivity be reduced?

213

https://www.cdc.gov/coronavirus/2019-ncov/lab/resources/calculating..percent.positivity-faq.html

R.A. 213

1019/2020

To reduce the percent positivity, a community can work to reduce the coronavirus transmission. For a
comprehensive list of CDC recommendations for prevention of COVID-19 transmission, visit CDC's summary of
guidance.
A community can also do more testing. When there is a positive test. make sure that isolation of infected persons is
done to limit further transmission . Other prevention measures also help such as wearing a mask, washing hands
frequently, social distancing, avoiding large gatherings, and cleaning and disinfecting commonly used surfaces
regularly.

+

If I live In a place with high percent positivity, what should members of the community do?
Take steps to protect yourself and others from getting sick. Get tested if you have any symptoms or if you have been
exposed to someone who has tested positive for COVID-19.

+

Where does the federal government report percent positivity?
CDC currently provides data at the national level on RT-PCR laboratory test percent positivity on the CDC COVID Data
Tracker.
The Center for Medicare and Medicaid Services publishes percent positivity [::'.l by county to help guide the frequency
of COVID-19 screening
[::'.l of long-term care facility residents and staff.

•

The White House Coronavirus Task Force reports percent positivity at the national, state and county levels in the
Governor's Report, a weekly report that sent by the Vice President to each Governor.

+

Where can I find more information about calculating percent positivity?
For additional information and resources, visit CDC's web page on Calculating Severe Acute Respiratory Syndrome
Coronavirus 2 (SARS-CoV-2) Laboratory Test Percent Positivity: CDC Methods and Considerations for Comparisons
and Interpretation.

Last Updated Sept. 16, 2020

https://www.cdc.gov/coronavirus/2019-ncov/lab/resources/calculating..percent.positivity-faq.html

313

R.A. 214

Case 1:20-cv-04844-NGG-CLP DocuJTllaffl1il~

1019/2020

;g.-.;le!il,&4llar0/f():: Page 1 of 5 PagelD #: 589

~.,-~ Centers for Disease
~ !lt'j Control and Prevention
1VU~.

'!i

Coronavirus Disease 2019 (COVID-19)

iiiHl1d

Implementation of Mitigation Strategies for Communities
with Local COVID-19 Transmission
Community Mitigation Framework
Updated May 27, 2020

Background
This document describes the goals, guiding principles, and strategies for community mitigation to reduce or prevent local
COVID-19 transmission. Community mitigation activities are actions that people and communities can take to slow the spread
of a new virus with pandemic potential. COVID-19 is an infectious disease caused by a new coronavirus. Community
mitigation actions are especially important before a vaccine or therapeutic drug becomes widely available.
Because COVID-19 is highly transmissible and can be spread by people who do not know they have the disease, risk of
transmission within a community can be difficult to determine. Until broad-scale testing is widely implemented or we have a
more comprehensive and precise measure of disease burden, states and communities should assume some community
transmission or spread is occurring.
Individuals need to follow healthy hygiene practices, stay at home when sick, practice physical distancing to lower the risk of
disease spread, and use a cloth face covering (with some exceptions) in community settings when physical distancing cannot
be maintained. These universal precautions are appropriate regardless of the extent of mitigation needed.
Protecting the public's health is paramount. As communities work to reduce the spread of COVID-19, they are also addressing
the economic, social, and secondary health consequences of the disease. State, local, tribal, and territorial officials are best
positioned to determine the level of mitigation required. Mitigation strategies should be feasible, practical, and acceptable;
they should be tailored to the needs of each community and implemented in a manner that minimizes both morbidity and
mortality from COVID-19 and does not create or exacerbate any health disparities.
The information that follows provides a framework for states and localities as they consider which actions to take to mitigate
community transmission of COVID-19 in the United States. Selection and implementation of these actions should be guided
by the extent of disease transmission (Table 1). Demographic and other community characteristics, as well public health and
healthcare system capacity, will also drive decisionmaking on mitigation (Table 2). Finally, a set of possible cross-cutting
mitigation strategies for communities to consider is outlined (Table 3). More detailed and updated setting or sector specific
mitigation strategies can be found here.

Goals
The goal of community mitigation in areas with local COVID-19 transmission is to slow its spread and to protect all individuals,
especially those at increased risk for severe illness, while minimizing the negative impacts of these strategies. These strategies
are used to minimize morbidity and mortality of COVID-19 in societal sectors such as schools, workplaces, and healthcare
organizations.
Implementation is based on:
• Emphasizing individual responsibility for implementing recommended personal-level actions
• Empowering businesses, schools, and other settings to implement appropriate actions
• Prioritizing settings that provide critical infrastructure services
https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.htni

115

R.A. 215

Case 1:20-cv-04844-NGG-CLP DocuJTllaffl1il~

1019/2020

;g.-.;le!il,&4llar0/f():: Page 2 of 5 PagelD #: 590

• Minimizing disruptions to daily life to the extent possible and ensuring access to health care and other essential services.

Guiding principles
• Community mitigation efforts aim to reduce the rate at which someone infected comes in contact with someone not
infected, or reduce the probability of infection if there is contact. The more a person interacts with different people, and
the longer and closer the interaction, the higher the risk of COVID-19 spread.
• Each community is unique. Appropriate mitigation strategies should be based on the best available data. Decision
making will vary based on the level of community transmission and local circumstances. Refer to Table 1.
• The characteristics of the community and its population, health system and public health capacity, and the local capacity
to implement strategies are important when determining community mitigation strategies. Refer to Table 2.

• As communities adjust mitigation strategies, they should ensure that the healthcare system capacity will not be
exceeded. Precautions should be taken to protect health care professionals and other critical infrastructure workers.
Communities need to assure healthcare systems have adequate staffing, a surplus of inpatient and ICU beds, and critical
medical equipment and supplies such as PPE.
• As communities adjust mitigation strategies, they should ensure public health capacity will not be exceeded. Public
health system capacity relies on detecting, testing, contact tracing, and isolating those who are or might be sick, or have
been exposed to known or suspected COVID-19 cases; it is important to stop broader community transmission and
prevent communities from having to implement or strengthen further community mitigation efforts.
• Attention should be given to people who are at higher risk for severe illness when determining and adjusting community
mitigation strategies.
• Certain settings and vulnerable populations in a community are at particularly high risk for transmission. This includes
but is not limited to congregate settings such as nursing homes and other long-term care facilities, correctional facilities,
and the homeless population.
• Mitigation strategies can be scaled up or down, depending on the evolving local situation, and what is feasible, practical,
and legal in a jurisdiction. Any signs of a cluster of new cases or a reemergence of broader community transmission
should result in a re-evaluation of community mitigation strategies and a decision on whether and how mitigation might
need to change.
• Cross-cutting community mitigation strategies can be organized into the following categories: promoting behaviors that
prevent spread; maintaining healthy environments; maintaining healthy operations; and preparing for when someone
gets sick. Presuming a community is not sheltering-in-place, cross-cutting strategies under each rubric are outlined
below and should be implemented to the extent possible, and in accordance with the amount of ongoing community
transmission. Refer to Table 3.
• Community mitigation strategies should be layered upon one another and used at the same time-with several layers of
safeguards to reduce the spread of disease and lower the risk of another spike in cases and deaths. No one strategy is
sufficient.
• There are range of implementation choices when setting or adjusting community mitigation plans. These choices offer
different levels of protection from the risk of community transmission.
• Communities need to decide the level of risk that is acceptable and make informed choices about implementing
mitigation plans accordingly.
• Individuals make choices about following the behavioral practices that are recommended. Compliance to community
mitigation decisions will also impact the spread of COVID-19.
• CDC offers setting-specific strategies for a variety of sectors that include businesses, schools, institutes of higher
education, parks and recreational facilities, and other places.
• Travel patterns within and between jurisdictions will impact efforts to reduce community transmission. Coordination
across state and local jurisdictions is critical - especially between jurisdictions with different levels of community
transmission .

Table 1. Level of mitigation needed by level of community transmission
and community characteristics
Level of Community

Tr.::inc:mic:c:inn

Community characteristics and
rto:>c:rrintinn

Level of mitigation
215

https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.htni

R.A. 216

Case 1:20-cv-04844-NGG-CLP DocuJTllaffl1il~

1019/2020

----··.----··

;g.-.;le!il,&4llar0/f():: Page 3 of 5 PagelD #: 591

Substantial, uncontrolled
transmission

Large scale, uncontrolled community
transmission, including communal settings
(e.g., schools, workplaces)

Shelter in place

Substantial, controlled transmission

Large scale, controlled community
transmission, including communal settings
(e.g., schools, workplaces)

Significant mitigation

Minimal to moderate community
transmission

Sustained transmission with high likelihood or
confirmed exposure within communal settings
and potential for rapid increase in cases

Moderate mitigation

No to minimal community
transmission

Evidence of isolated cases or limited
community transmission, case investigations
underway; no evidence of exposure in large
communal setting

Low mitigation

•

CDC outlines a range of specific mitigation strategies
to consider to slow the spread of COVID-19 by level of mitigation
required. This includes protecting individuals at increased risk for severe illness, including older adults and persons of any age
with underlying health conditions, and the healthcare and critical infrastructure workforces.

Table 2. Factors to Consider for Determining Mitigation Strategies
Epidemiology

• Level of community transmission: more extensive mitigation will be needed when there is
greater community transmission
• Number and type of outbreaks in specific settings or with vulnerable populations, including,
but not limited to nursing homes and other long-term care facilities, correctional facilities,
meat and poultry processing plants, and the homeless population
• Severity of the disease
• Impact of the level of community transmission and any outbreaks on delivery of healthcare or
other critical infrastructure or services
• Epidemiology in surrounding jurisdictions

Community
Characteristics

• Size of community and population density
• Level of community engagement and support
• Size and characteristics of vulnerable populations
• Access to healthcare
• Transportation infrastructure (e.g., availability and use of mass transit)
• Type of business or industry
• Congregate settings (e.g., correctional facilities, homeless shelters)
• Planned large events/gatherings, such as sporting events
• Relationship of community to other communities (e.g., transportation hub, tourist destination,
volume of commuting, and other attributes)

Healthcare
Capacity*

• Healthcare workforce
• Number of healthcare facilities (including ancillary healthcare facilities)

https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.htni

315

R.A. 217

Case 1:20-cv-04844-NGG-CLP DocuJTllaffl1il~

1019/2020

;g.-.;le!il,&4llar0/f():: Page 4 of 5 PagelD # : 592

• Testing activity
• Intensive care capacity
• Availability of personal protective equipment (PPE)

Public Health
Capacity

• Public health workforce and availability of resources to implement strategies (e.g., resources to
detect, test, track, and isolate cases)
• Available support from other state/local government agencies and partner organizations

* Consult the Framework for Healthcare Systems Providing Non-COVID-19 Clinical Care During the COVID-19 Pandemic and
Ten Ways Healthcare Systems Can Operate Effectively during the COVID-19 Pandemic.

Table 3. Overview of Possible Mitigation Strategies to Consider in
Communities with Local COVID-19 Transmission Across Settings and
Sectors*
Promote
Behaviors that
Prevent Spread

• Educate people to stay home when sick or when they have been in close contact with someone
with COVID-19
• Teach and reinforce practicing hand hygiene and respiratory etiquette
• Teach and reinforce the use of cloth face coverings to protect others (if appropriate)
• Ensure adequate supplies are easily available (e.g., soap, hand sanitizer with at least 60%
alcohol, paper towels) to support healthy hygiene behavior
• Post signs or posters and promote messaging about behaviors that prevent spread

Maintain
Healthy
Environments

• Intensify cleaning and disinfection of frequently touched surfaces
• Ensure ventilation systems operate properly and increase circulation of outdoor air
• Ensure all water systems are safe to use
• Modify layouts to promote social distance of at least 6 feet between people - especially for
persons who do not live together
• Install physical barriers and guides to support social distancing if appropriate
• Close communal spaces, or stagger use and clean and disinfect between use
• Limit sharing of objects, or clean and disinfect between use

Maintain
Healthy
Operations

• Protect people at higher risk for severe illness from COVID-19
• To cope with stress, encourage people to take breaks from the news, take care of their bodies,
take time to unwind and connect with others, particularly when they have concerns
• Maintain awareness of local or state regulations
• Stagger or rotate scheduling
• Create static groups or "cohorts" of individuals and avoid mixing between groups
• Pursue virtual events. Maintain social distancing at any in-person events, and limit group size
as much as possible
• Limit non-essential visitors, volunteers, and activities involving external groups or
organizations, especially with those who are not from the local area
• Encourage telework and virtual meetings if possible
• Consider options for non-essential travel in accordance with state and local regulations
415

https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.htni

R.A. 218

1019/2020

Case 1:20-cv-04844-NGG-CLP DocuJTllaffl1il~

;g.-.;le!il,&4llar0/f():: Page 5 of 5 PagelD #: 593

• Designate a COVID-19 point of contact
• Implement flexible and non-punitive leave policies
• Monitor absenteeism and create a back-up staffing plan
• Train staff on all safety protocols
• Consider conducting daily health checks such as temperature screening or symptom checking
• Encourage those who share the facilities to also adhere to mitigation strategies
• Put in place communication systems for:
o Individuals to self-report COVID-19 symptoms, a positive test for COVID-19, or
exposure to someone with COVID-19
o Notifying local health authorities of COVID-19 cases
o Notifying individuals (employees, customers, students, etc.) of any COVID-19

exposures while maintaining confidentiality in accordance with privacy laws
• Notifying individuals (e.g, employees, customers, students) of any facility closures

Prepare for
When Someone
Gets Sick

• Prepare to isolate and safely transport those who are sick to their home or to a healthcare
facility
• Encourage individuals who are sick to follow CDC guidance for caring for oneself and others
who are sick
• Notify local health officials of any case of COVID-19 while maintaining confidentiality in
.
accordance with the Americans with Disabilities Act (ADA)
• Notify those who have had close contact with a person diagnosed with COVID-19 and advise
them to stay home and self-monitor for symptoms, and follow CDC guidance if symptoms
develop
• Advise individuals who are sick when it would be safe for them to return based on
CDC's criteria to discontinue home isolation
• Close off areas used by someone who is sick. Wait >24 hours before cleaning and disinfecting.
Ensure safe and correct use and storage of EPA-approved List N disinfectants
, including
storing products securely away from children.

* Not all bullets are relevant to each setting or sector.

The bullets are meant to be illustrative of community mitigation
measures to consider. Refer to CDC webpage for more detailed information by setting or sector.

Last Updated May 27, 2020

https://www.cdc.gov/coronavirus/2019-ncov/community/community-mitigation.htni

515

R.A. 219

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

- - - - - -----.-,ase ;;20-ev-04844-NGG-Gl::
00eumen 20-34 ilea 0/131-20
a§e :1, 0f
October 8, 2020 | 2:30 pm
Coronavirus is still active in New York. We have to be smart.
Wear a mask, maintain six feet distance in public and
Information on Novel
download the official New York State exposure notification
Coronavirus
app, COVID Alert NY.

Services

News

Government

Pa€Jel0 : 94- - - - - - GET THE FACTS
1

Local

GOVERNOR
GOVERNORANDREW
HOME
M. CUOMO

PRESSROOM
OCTOBER 6, 2020

Albany, NY

SCHEDULE

Action
Initiative
EXECUTIVE ORDERS
CORONAVIRUS

HEALTH

PUBLIC SAFETY

PRIORITIES

LEGISLATION

ABOUT

SHARE

CONTACT

https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

R.A. 220

•

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

Case 1:20-cv-04844-NGG-CLP Document 20-34 Filed 10/13/20 Page 2 of 5 Page ID#: 595

Initiative Developed in Consultation with Leading National Public Health Experts—Dr.
Noam Ross of EcoHealth Alliance, Dr. Michael Osterholm of the University of
Minnesota and Former CDC Director Dr. Tom Frieden
New Initiative Maps Clusters by Density of Cases to Address COVID Hot Spots in
Brooklyn, Queens, and Broome, Orange and Rockland Counties

Fines for Sponsors of Mass Gatherings Increased to $15,000
New Rules and Restrictions in Effect for Minimum of 14 Days
Governor Andrew M. Cuomo today announced a new cluster action initiative to address COVID19 hot spots that have cropped up in Brooklyn, Queens, and Broome, Orange and Rockland
Counties. Working with the top public health experts, New York State developed a science-based
approach to attack these clusters and stop any further spread of the virus, including new rules
and restrictions directly targeted to areas with the highest concentration of COVID cases and the
surrounding communities. The new rules will be in effect for a minimum of 14 days.
The plan was developed in consultation with national public health experts including Dr. Noam
Ross of EcoHealth Alliance, Dr. Michael Osterholm of the University of Minnesota and former
CDC Director Dr. Tom Frieden.

https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

R.A. 221

.

.....

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

...

C

..

...

.. .. ..

.

.

... ...

. ..

... ...

..

. . .
... ...

.

SHARE

AUDIO

PHOTOS

"A cluster is just that - it's a cluster of cases, a high density of cases, and it seeps and grows from
that cluster almost in concentric circles. Drop a pebble into the pond, the pebble goes in, then
there's one ring, two rings, three rings, and the rings continue across the pond. When you see the
cluster, you have to stop it at that point," Governor Cuomo said. "Our strategy is to crush the
cluster and stop the spread, and we're announcing a special initiative to do just that. Step one,
you take the most dramatic action within the cluster itself where you have the highest density of
cases. Understanding that the people in that cluster interface with the surrounding communities,
take additional action in the communities surrounding the cluster. Then as a precautionary
measure, take action in the communities that are outlying that area."
The initiative is composed of three steps:
1. Take dramatic action within the cluster.
2. Take action in the area surrounding the cluster to stop the spread.
3. Take precautionary action in the outlying communities.
The initiative will currently apply to clusters in the following areas:

•

Broome County (One Area, Yellow) - Click Here for Map

• Brooklyn (One Area, Red, Orange and Yellow) - Click Here for Map
• Orange County (One Area, Red and Yellow) - Click Here for Map
https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

R.A. 222

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

Ca_seQueens
1:20-cv-04844-NGG-CLP
Filedand
10/13/20
Page 4 of 5 Page ID#: 597
(Two Areas, Red, Orange Document
and Yellow)20-34
- Click Here
Here for Maps

•

Rockland County (One Area, Red and Yellow) - Click Here for Map

The initiative will divide clusters and the areas around them into three categories with
successively higher restrictions within each one:
Red Zone — Cluster Itself

•

Houses of Worship: 25 percent capacity, 10 people maximum

•
•

Dining: Takeout only

• Mass Gatherings: Prohibited
• Businesses: Only essential businesses open
Schools: Closed, remote only

Orange Zone — Warning Zone

•
•
•

Houses of Worship: 33 percent capacity, 25 people maximum
Mass Gatherings: 10 people maximum, indoor and outdoor
Businesses: Closing high-risk non-essential businesses, such as gyms and personal care

• Dining: Outdoor dining only, 4 person maximum per table
• Schools: Closed, remote only
Yellow Zone — Precautionary Zone

• Houses of Worship: 50 percent capacity
• Mass Gatherings: 25 people maximum, indoor and outdoor
• Businesses: Open
•
•

Dining: Indoor and outdoor dining, 4 person maximum per table
Schools: Open with mandatory weekly testing of students and teachers/staff for in-person settings. The
New York State Department of Health will establish a percentage of teachers and students/staff who
need to be tested by Friday.

The enforcement of the zones will go into effect as soon as tomorrow and no later than Friday.
Governor Cuomo also announced that fines for the sponsors of mass gatherings in violation of
https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

R.A. 223

Governor Cuomo Announces New Cluster Action Initiative | Governor Andrew M. Cuomo

Case 1:20-cv-04844-NGG-CLP Document 20-34 Filed 10/13/20 Page 5 of 5 Page ID#: 598
state public health rules will be increased to $15,000.

Contact the Governor's Press Office

• Contact us by phone:

•

Albany: (518) 474 - 8418

Contact us by email:

Press.Office@exec.ny.gov

New York City: (212) 681 - 4640

Governor Andrew M. Cuomo
About

Accessibility

Contact

Disclaimer

Executive Orders

Freedom of
Information Law
(FOIL)

Judicial
Screening

Language
Access

Legislation

Pressroom

Privacy Policy

Schedule

•

•

Site Map

CONNECT WITH US

•

FACEBOOK

q

EW

RK

ATE

•

TWITTER

Agencies

•

•

YOUTUBE

App Directory

FLICKR

Counties

Services

https://www.governor.ny.gov/news/governor-cuomo-announces-new-cluster-action-initiative[10/9/2020 10:28:21 AM]

R.A. 224

INSTAGRAM

Events

RSS FEED

Programs

Case 1:20-cv-04844-NGG-CLP Document 20-35 Filed 10/13/20 Page 1 of 2 PagelD #: 599

• o. 202.68
EXECUTIVE ORD.ER

Continuing Temporary Suspension :rod Modification of Laws
Relating to theDis:ister Emergency

WHEREAS, on March 7, 2020, I issued Executive Order Number 202, declaring a State disaster
mnergency for1he ea.tire $rate ofNew York; and
WliEREAS, both travel-related cases and com.mw:u1y contacttranSmi.ssion ofCOVID-i9 have

been documented in New Yorlc Stale and are expected 1D contj:nue;

. OW THEREFORE, 1, Andrew M. Cuomo, Govern.OJ.' of the State ofNew York, by virtue of the
all.thority vested in me by Section 29-a of Article 2-B of the Executive Law to temporarily suspend or
modify any statute, local. law, ordinance, order, rule, or regulation, or parts theteo.t; of any agen.cy during a
Stare disaster emergepcy, if OO)]lpliance with such statute, local law, ordinance, onier, rule, or regulation
would prevent, liioder, or de.lay action necessary to cope with the disaster emergency or if necessm:y{o
assist or aid in coping wi,th such disaster, or 10 provide any diiectivenecessary to respond to the disaster, do
hereby continue the suspensions and modifica.tioos of law, and any directives not superseded by a
subsequent directive contained ln Execul;ive Orders 202.31, 202.41, 202.42, 202.43, 202.51, 202.52,
202.56, as oontamed in Executive Order 202.63, and Eiceoutive Orders 202.61 and 202.62 for another thirty
days through November 5, 2020, and I hereby temporarily suspend or modify the following.from the date
ofthis E:,.ecutive Order through November 5, 2020:
•

Sections 1;2. and 206 of the Public}j'eal,thLaw, to the exteot oecessary to, notwithstaruling

any other provision ofthis Executive Order, provide that any individual who encourages,

promotes or organizes a non-essential gathering as set forth :in Department ofHealth
regulatfon, shall be liable for a civil penalty not to exceed S15,000 per day; and
•

Sections Ii-a and 206(4) of the Public B:ealth Law, to tb.e extent necessary to authorize, at

"fhe direction of the Commissioner of Health. or the Commissioner's rep.resenl!ltive, any local

government official to assess, aJJd the local government to retain; -a civil penalty for
violations of Executive Ordexs issued pursuant to Section 29-A of the Executive Law, or any
re,,auI-ations of the Depa.rtm.ent of Health, that impose requirements pe.rtainmg to maintaiomg
social distance and wearing of face coverings, for the duration of this disaster emergency;
and to conduct any heaJ'lllg related to such penalties. Such penalties, if assessed 011 an
i.ndiv:idlla! basis, shall not e.xceed Sl,000 per violation, ex.cept as otherwise provided herein.

IN ADDIDO, , by virtue of the authority vestetl in me by Section29-a of Artic}e2-B of the
li'.xeGutive Law to -issue any directive during a disaster emergency necessary to cope with the disaster, I do
hereby isb11e the following directives through November S, 2020:
•

Toe Department of Health shall.determine areas in the State th.at require eohan.ced public
health restrictions based upon cluster-based cases of COVID-19 at a level that compramises
the Siate' s containment of the virus. Certairu1cth·ities shall be resn:icied and any p~ed
activities, in all three zones below, shall be conducted in strict adhenmce 10 Departmei;u 0£
Health. guidance.

R.A. 225

Case 1:20-cv-04844-NGG-CLP Document 20-35 Filed 10/13/20 Page 2 of 2 PagelD # : 600

-o- Based upon the .severity of

the cluster activiiy, the Departmenr of Health sh.all adopt
in 1he most severe, or ''ICd zones.-... th" following n.,,itigarion measures:
• Non-essential gathe.cm.gs of any size. shall be postpoocd or cancelled; allnonessC'lltial businesses, as detctmin.ed by the Empire State Development
Corporation based upon published guidance, sball reduce in-peTSOn
woxkforcc by 100%; houses of worship shall be subject to a capacity limit of
'.25% of ma.ximw:n occupancy or IOpeople, whichever is fewer; any
restaurant or tavem shall cease serving patrons food or beverage on-premises
and may be open for takeout or delivery only; and the local DeparttnUI:lt of
Health shall dircctclosrrre of all schools for in-person instruction, eii;ceptas
otherwise provided in Executive Order.
o 1D modc:rate severity w,miing areas.or "orange ,:,ones'' th" follov.ing mitigation
measures:
Ton-essential gatherings shall be limited to 10 people; ce.ctain uon.--esse.ntial
businesses, for. which there is a higher risk associated witl:! th.e ttansmission
of the COVlD-19 virus, including gyms, fitness
or classes, barber..,
hair salons,. spas, tattoo or piercing parlors, nail technicians and nail salot15,
cosmctcilogists, estheticians, the provision oOaser bait removal and
electroly11is, and all oilier personal care strviccs shall reduce in-person
workforce by I 00%; houses of worship sbnU be subject to a maximutn
capacity limit of the lesser of33% ofmaicim.um occupancy or 25 people,
whichever is fewer; any restaurant or tavern shall cease serving patrons food
01: beverage inside oo-p,;c;mises bui may provide outdoor sei;,ioe, and llla;y be
open for takeout o!" delivery, provided however, any one seated group or
party shalhot exceed 4 people; a1.1d.tb,c local Department of Health shall
direct closure of all schools for in-person instruction, except as otherwise
provided i.e. E.-.c.ccuti ve Orde.r.
ci In precautionary or "yellow Wiles," the following mitigation measures:
• Non-essential gatherings sh.all be limited to no more than 25 people; houses
ofwor.ship shall be subject to a capacity limit of50"/o' ofits maxim\lm
occupancy and sball ad.b.= to Department of Health guidance; any .r.:stawam
ot iave.ro must limit any one seated group or party size to 4' people; and f.iie
Depattm,e;11t of Bea.1th shall issue guidance by October 9, 2020 regarding
m!itldatory testing of students and ~chool personnel, and schools s)lall adhere
to sucb guidauce.
The 'above directive shall !le effective immedi,ately, and at such time as notice is provided to
such affected areas, may be enforced and shall be enforced no hirer than Friday, October 9,
2020, as detetmined by the oouuty in which the red zones, orange zones and yellow zones
are located.

=

•

GIVEN UI1der my hand and the Privy Seal of the

State in the City of Albany th.is sixth
day of October in the year two
thousand twenty.

BYTHB GOVERN"0R

Secretary to the Governor

R.A. 226

!FILED• E~
NYSCEF

<;ee~ ~

COmJ.; S&E~
~ r..;J
-

-fll -O

ffl~120 Pag~l&r~2rPOO~!,l;?Jf

0~ 14 , 2021,0 1 ~ : l J
COiii rtt
-3o
ile 1

INDEX NO.

809297/2020
&9h 4/2020

STATE OF NEW YORK

SUPREME COURT: COUNTY OF ERIE
SPORTSMEN'S TA VERN, LLC,

Petitioner,

vs.

NEW YORK STATE LIQUOR AUTHORITY,

TndexNo.: 809297/2020

AFFIRMATION IN
OPPOSITION TO THE
PETITION

Respondent.

STATE OF NEW YORK
COUNTY OF ALBANY

)
) ss.:

ELIZABEfflM. DUFORT, M.D., FAAP, being duly sworn, deposes and says:
1)

I am the Medical Director of the Division of Epidemiology, New York State

Department of Health ("Department"). I have been the Medical Director since October 2014 and
employed by the Department since October 2014. As such. I provide medical and clinical subject
matter expertise and coordinate the Department's efforts to prevent the spread of communicable
diseases, improve vaccination and prevent vaccine preventable diseases among

ew Yorkers,

prevent and track healthcare associated infections, and respond to emerging infectious disease
outbreaks.

2)

I received my medical degree from the State University of New York at Buffalo,

School of Medicine in 2002. I comp1eted an internship and residency in pediatrics at New York
University and Bellevue Hospital in 2005 and served as faculty with the AMPATH program in
western Kenya, 2005-2006.

1 of 20

R.A. 227

!FILED • E~
NYSCEF

<;ee~ ~

COmJ.; S&E~
~ r..;J
-

-fll -O

3)

ffl~120 Pag~f&r~2rPOO~!,l;?Jf

0~ 14 , 2021,0 1 ~ : l J
COiii rtt
-3o
ile 1

INDEX NO . 809297 / 2020
&9'1. 4 / 2020

l also completed a fellowship in pediatric infectious diseases with the Alpert

Medical School of Brown University/Hasbro Children's Hospital in Providence, Rhode Island. I
subsequently served as a pediatric infectious disease clinician and assistant professor of pediatrics
at Brown University and Albany Medical College. I specialize in pediatric infectious diseases and
public health.
4)

My responsibilities as they relate to COVID-19 include coordinaung and engaging

with the overall COVID-19 response team. research and evaluation efforts, directing the CDCfunded NYS COVID-19 Surveillance for Emerging Threats Network for mothers and babies
("SET-NET'), supporting the CDC-funded NYS Emerging Infections Program's (' EIP") COVIDNet surveillance for COVID-19 associated~spitalizations, serving as a subject matter expert for
COVID-19 response efforts and supporting schools reope.ning efforts.
5)

I am familiar with the facts set forth herein based upon personal knowledge,

discussions with Department staff, and Department records. I make this affidavit iu support of
Respondent's Answer and Return in opposition to the Petition.

COVID-19
6)

On January 7, 2020, following an outbreak of pneumonia of unknown etiology in

China' s Wuhan Province 1 Chinese authorities identified a novel coronavirus-COVID-19, Its
spread around the world has been well documented. A copy of the WHO
(2019-nCoV) Situation Report - 1 is attached hereto as Exhibit A.

2

2 of 20

R.A. 228

ovel Coronavirus

!FILED • E\ ~ COmJ.; S&E~
NYSCEF
~ -f17-0
~ r..;J
-

<;ee~

7)

ffl~120 Pag~i&r~2rPOO~!,l;?Jf

0~ 14 , 2021,0 1 ~ : l J
COiii rtt
- 3o
ile 1

INDEX NO . 809297 / 2020
&9h 4 / 2020

COVID-19 is a highly infectious and potentially deadly respiratory disease caused

by a novel •coronavitus that spreads eas~y from person-to-person. A copy of the WHO Novel
Coronavirus (2019-nCo V Situation Report - 3 is attac-hed hereto as Exhibit 8 .

8)

Because there is no pre-existing immunity against this new virus it has spread

worldwide in an exceptionally short period of time, posing a "serious public health risk." Id.
9)

On January 31, 2020, the World Health Organization ("WHO") declared a "public

health emergency ofinternati,onal concern. ' A copy of the Statement from the International Health
Regulations (2005) Emergency Committee is attached hereto as Exhibit C.
10)

Less than two months later, on March 11, 2020, the World Health Organization

declared CQVID-19 a global pandemic. A copy of the WHO Director-General's opening remarks
at the media briefing on COVID-19 • 11 March 2020 is attached hereto as Exhibit D .
11)

On March 13, 2020, the President of the United States declared a national

emergency. A copy of the President's Proclamation is attached hereto as Exhibit E .
/

12)

"Transmission of SARS-CoV-2 can occur through direct, indirect, or close contact

with infected people through infected secretions such as saliva and respiratory secretions or their
respiratory droplets, which are expelled when an infected person coughs, sneezes talks or sings. '
A copy of the WHO Article: Transmission ofSARS-CoV-2: implications for infection prevention

precaulions is attached hereto as Exhibit F. ''WHO, together with the scientific community, has
been actively discussing and evaluating wbether SARS-CoV-2 may also spread through aerosols
in the absence of aerosol generating procedures, particularly in indoor settings with poor
ventilation." Id. "Cl.l.rrent evidence uggests that SARS-CoV-2 may remain viable for hours to
days on surfaces made from a variety of materials." A copy of the CDC Article: Cleaning and
3

3 of 20

R.A. 229

Disinfection for Households is attached hereto as Exhibit G.
13)

COVID-19 has an incubation period of up to fourteen days. See Exhibit F. Social

distancing is one of the most effective means oflintiting transmission of COVID-19. Id.
14)

The CD has thus issued guidance recomn1ending that people comply with so ial

distancing measures in order to prevent the spread of COVID-19. According to the CDC,
"[lJimiting face-to-face contact with others is the best way to reduce the spread" of COVID-19. A
copy of the CDC article Social Distancing is attached hereto as Exhibit H.
15)

In order to limit exposure to COVID-19 and slow its spread, the CDC recommends

keeping "at least six feet away from other people" and limiting "close contact with others outside
your household in indoor and outdoor spaces" including avoiding groups and crowded places. Id.
Social distancing ''is one of the best tools we have to avoid being exposed to thls virus and slowing
its spread locally and across the country and world" because it "helps limit contact with infected
people ahd contaminated surfaces." Id.
16)

The rapid spread ofCOVID-19 in New York, in the United States, and worldwide,

presented and continues to present a grave threat to New Yorkers and to ew York's health care
system. However, by taldng strong action to ensure social distancing as well as other important
measures, New York has mitigated that threat. To avoid a devastating resurgence of COVID-19,
responsible parties, business owners, and the public must continue to adhere to the Executive
Orders and guidance.

4

4 of 20

R.A. 230

!FILED• E~
NYSCEF

<;ee~ ~

com1-

-f17-0

17)

~ r..;J

S&E~
-

&~120 Pag~~&r~2rPOO~!,l;?Jf
INDEX NO. 809297/2020
&9t1. 4/2020

0~ 14 , 2021,0 1 ~ : l J
COiii rtt
- 3o
ile 1

AB of September 14, 2020, 922 252 people have died of COVID-19 worldwide1;

193,195 people have died ofCOVID-l9 in the United States ofCOVID-192 ; and 25,390 bavedied
in the State ofNew York ofCOVID-193 •
COVID-19 Surges in New York

18)

New York recorded its first cases of COVID-19 on March l , 2020, in New York

City and 011 March 2, 2020, in Westchester CoU11ly.
19)
Executive

On March 7, 2020, Governor Cuomo declared a State of Emergency. A copy of

Order

202

is

attached

hereto

as

Exhibit

available

at

btt,Ps://www.govemor.n .!.!ov/uews/no-202-declruing-disaster-emergeucy-state-new-york. As of
March 7, 2020, 60 people had tested positive for COVID-19 in the State of New York See Fn. 3.
Cases in the United States totaled 275. See Fn. 2. Cases worldwide totaled 179,111 with 7~426
deaths reported. See Fn. 1.
20)

By March 20, 2020 the number of individuals testing positive for COVID- 19 in

New York approached 10,000, and deaths exceeded 150. See Fn. 3.
21)

By April 20, 2020, over 267,000 individuals had tested positive for COVID- 19. and

over 13 000 people had died from COV1D-19 in

ew York State. See Fn. 3. See also,

https://www.syracuse.com/coronavirus/2020/06/where-is-coronavirus-in-ny-see-map-charts-of-

1 WHO Coronavirus Disease COVID- I 9) Dashboard found athttps;//covid 19.who.int/ (last viewed September 14,
2020).
2 CDC Covid Tracker found at bttps://www.cdc.gov/covid-data-tracker/index.htmi#cases (lastviewed September
14, 2020).
3 NYSDOH COVlD-19 Tracker found at bttps://covidl 9tracker.health.,.ny.gov/views/NYS-COVID 19Tracker/NYSDOHCOVID- I 9Tracker-DailyTrac.ker?%3Aembed=ves&%3Atoolbar=no&%3Atabs=n/Uviews (~t
viewed September 14, 2020).
4 All ofOovemor Cuomo' s Executive Orders can be found athttps://www.11overrtor.ny. gov/execu1 iveorders.

5

5 of 20

R.A. 231

!FILED • E~
NYSCEF

<;ee~ ~

COmJ.; S&E~
~ r..;J
-

-fll -O

ffl~120 Pag~R&r~2rPOO~!,l;?Jf

0~ 14 , 2021,0 1 ~ : l J
COiii rtt
-3o
ile 1

INDEX NO . 809297 / 2020
&9?1. 4 / 2020

covid-19-cases-deaths-hospitalizations-sunday-june-14.hbnl. (includes similar charts with trends
overtime).
22)

These events placed significant sttai~ on New York State's healthcare system. For

example, as the virus spread, New York faced a shortage of hospital beds ventilators and personal
protective equipment such as masks and gloves.
23)

As a result, alternate c~e sites were set up including at the Javits Center in New

York City, The United States Navy sent the U.S.N.S. Comfort, a Mercy-c]ass hospital ship. to New
York to assist with medical care.

24)

Funeral homes were also overwhelmed resulting in the use of mass graves to bury

the dead.
25)

At the worst stage of the pandemic New York tate had more coronavirus cases

than any single country in the world.
26)

Among other measures aimed at flattening the curve, slowing the spread of

COVIO-19 and preventing the health care system from becoming overburdened, Governor
Cuomo issued multiple Executive Orders restricting gatherings.
27)

On March 16 2020, gatherings in excess of 50 people were prohibited. On-

prem1ses service offood and beverages in an bars and restaurants were indefinitely suspended and
gambling establishments, gyms, and movie theaters were indefinitely closed. A copy of Governor
Cuonio's Executive Order 202.3 is attached hereto as Exhibit J. AU non-essential state and local
workers to stay home "except for those _personnel essential to the . .. response to the COVID-19
emergency." A copy of Governor Cuomo's Executive Order 202.4 is attached hereto as Exhibit
K. All schools were closed. Id.
6

6 of 20

R.A. 232

28)

On March 18, 2020, all malls and places of public amusement closed. A copy of

Governor Cuoruo's Executive Order 202.5 is attached hereto as Exhibit L.
_New York State on PAUSE

On March 20, 2020, the governor announced the New York State on PAUSE

29)
initiative.

The I 0-point New York State on PAUSE plan is as follows:

30)

•

All non-essential businesses statewide closed, effective March 22, 2020, at 8pm;

•

on-essential gatherings of individuals of any size for any reason (e.g., parties,
celebrations or other social events) are canceled or postponed at this time;

•

Any concentration of individuals outside their home must be limited to workers

•

When in public, individuals must. practice social distancing of at least six feet from
others;

providing essential services and social distancing should be practiced;

• Businesses and entities that provide other essential services must implement rules
that help facilitate social distancing of at least six feet·
•

Individuals should limit outdoor recreational activities to non-contact and avoid
activities where they come in close contact with otbe1· people;

•

Individuals should limit use of public transportation to when absolutely necessary
and should limit potential exposure by spacing out at least six feet from other
riders;

•

Sick individuals should not leave their home unless to receive medical care and
only after a telehealth visi1 to determine if leaving the home is in the best interest
of their health;

•

Young people should also practice social distancing and avoid contact with
vulnerable populations: and

•

Use precautionary sanitizer practices such as using isopropyl alcohol wipes.
7

7 of 20

R.A. 233

!FILED• E\ ~ COmJ.; S&E~
NYSCEF
~ -f17-0
~ r..;J
-

<;ee~

31)

ffl~120 Pag~~&r~2rPOO~!,l;?Jf

0~ 14 , 2021,0 1 ~ : l J
COiii rtt
- 3o
ile 1

INDEX NO.

Among the more important measures the Governor adopted as part of the

ew

York on PAUSE initiative were restrictions Qn non-essential gatherings.
32)

On March 23, 2020, tbe Governor issued Executive Order 202.10, which banned

'[n]on-esseniial gatherings of any size for any reason.'' A copy of Governor Cuomo's Executive
Order 202.10 is attached hereto as Exhibit M
33)

That restriction remained in place until May 21, 2020, when the Governor issued

Executive Order 202.32 to permit non-essential outdoor gatherings of up to ten individuals for
religious services or Memorial Day service or commemoration, provided the participants follow
the sodal distancing and cleaning and disinfection protocols established by the Department. A
copy of Governor Cuomo s Executive Order 202.32 is attached hereto as Exlubit N.
34)

The following day, May 22, 2020, the Governor issued Executive Order 202.33,

which further modified the ban to permit non-essential outdoor gatherings of up to ten
individuals for any lawful purpose or reason, provided the participants follow the social
distancing and cleaning and disinfection protocols established by the Department. A copy of
Governor Cuomo's Executive Order 202.33 is attached hereto as Exhibit 0.
35)

On June 15, 2020, the Governor issued Executive Order 202.42, which extended

Executive Order 202.33 until July 15, 2020 and further modified the restriction to permit nonessential outdoor gatherings of up to twenty-five individuals for any purpose or reason provided
fue gathering was in a region that had reached Phase Three of the re-opening plan and the
participants follow the social distancing and cleaning and disinfection protocols established by
the Department. A copy of Governor Cuomo 's Executive Order 202.42 is attached hereto as

8

8 of 20

R.A. 234

809297/2020
&9A. 4/2020

Exhibit P.
36)

On June 15 2020, the Governor issued Execufrve Order 202.45, which permits

non-essential gatherings ofup to SO individuals for any purpose or reason, provided the
gathering was in a region that had reached fourth phase of the re-opening plan, and the
participants follow the social distancing and cleaning and disinfection protocols established by
the Department. A copy of Governor Cuomo's Executive Order 202.45 is attached hereto as
Exhibit Q.

APRIL. MAY. and JUNE 2020-New York Appears to F latten the Curve.
37)

Before the New York State on PAUSE initiative. the daily increase in the number

of positive COVID-19 tests bad been rising quickly. On March 19, the number of positive tests
increased nearly 70%, from , 1.769 to 2,950. For the remainder of Mru·ch and early April, the
number of positive tests increased at an average rate of approximately 20% per day. On April 9,
2020 alone, over 10,000 people tested positive for COVID-19. Sinc-e April 9 2020, the number
of positive tests pet _
day has declined steadily. On May 28, 2020, over 1,551 people tested positive
for COVID-~9. On June 29, 2020, 46 428 people were tested and only 319 tested positive-a
positivity rate below .7 %. 5

New York Forward
38)

When New York transitioned from New York State on PAUSE to New York

Forward, four phases were created to guide non-essential businesses and offices, as well as the
essentjal businesses that remained open, on bow to reopen.

See https://fo1ward.11y.gov/ny-

Found at https://covidl9tracker.health.ny.2ov/view YS-COVID l 9-Tracker
SDOHCOVID- J9TrackerDailyTracker?%3Aembegryes&%3Atoolbro=no&%3 Atabs=n (last viewed September 11, 2020).

5

9

9 of 20

R.A. 235

forward.
3 )

Due to the success of the people of the State of New York at flattening the curve

all regions are in~hase Four. See https://forward .nv.go /.

40)

The Governor and tbe Department of Health are constantly monitoring transmission

and infection rates. See COVID-19 Early Warning Monitoring System Dashboard6•
41)

Providing transmission and infection rates remain stable, restrictions can be relaxed

allowing for larger gatherings.
42)

B_y following tile guidelines and requirements, such as social distancing and

wearing masks New York has successfully reduced the spread of the virus. As testing throughout
the

state

bas

increased,

the

number . of

positive

cases

has

decreased.

https://forward.ny.gov/percentage-positive-results-region-dashboard. On August

See

, 2020, the

downward trend of positive cases continued as 51,839 individuals were tested and 545 of those
tested positive. Id.

43)

The transmission rate, also known as the reproduction rate- which measures the

number ofinclividuals infected on average by an.infected indi idual-was at 3.59 on February 24,
2020. The rate was as Iowas .67 on April 17 2020. The rate rem.ained consistent between .67 and

.73 until May wben the NY Forward transition began. Since reopening lbe rate has remained low
but has begun inching up as the state progresses through the phases of reopening. On September

14, 2020, tile transmission rate was 1.07%, slightly above the critical l .0 which warrants close
monitoring. See https://rt.live/.

6

Found at https://forward.11v.gov/early~wamin2-monitorio!!.-dasbbonrd (last viewed September 14, 2020).

10

10 of 20

R.A. 236

44)

The goal of all i-estrictions in the Executive Orders and guidance is to reduce the

opportunity for fue virus to spread

The Pandemic Continues to Present a Grave Threat to the Hea_ltb and Safetv of the People
of the State of New York
45)

Despite the gains that New York has made, the pandemic is not over. On July 29

2020 WHO reported 16,558,289 individuals confirmed positive for COVID-19, and 656,093
confirmed COVID 19 deaths worldwide. Se,e Fn. 1. On July 29 2020 the CDC reported that
4 339,997 individuals in the United States had tested positive for COVID-19, and 148 866 bad
died of COVID-19. See Fn. 2.
46)

Indeed, during the week of July 18 through July 24, the United S_tates reported the

highest seven-day average of new COVID-19 cases with the highest number of new cases rep01ted
in a single day on July 24, 2020 - 74,818. Id.

47

On September 5 2020, WHO repotied a total 27,738,179 individuals confirmed

positive for COVID-19, and 899,916 coofinned COVID-19 deaths worldwide. See Fu. L
48)

A second wave of the COVID-19 pandemic is currently sweeping United States.

On September 14, 2020, the CDC reported that 6 467,481 individuals in the United States had
tested positive for COVID-19, and 193,195 had died ofCOVID-19. See Fn. 2 .
49)

As of September 12 2020, 34 states and one territory bad a positivity rate of over

10% or higher than 10 per 100 000 residents, over a seven-day rolling average, including
Alabama, Alaska, Arkansas, California, Delaware, Florida, Georgia, Guam, Hawaii, Idaho

Illinois, lndiana, Iowa, Kansas, Kentucky Louisiana, Maryland, Minnesota, Missouri, Mississippi,
Montana, Nebraska,

evada, N01th Carolina, North Dakota, Ohio Oklahoma, South Carolina,
11

11 of 20

R.A. 237

South Dakota, Tennessee, Texas, Utah, Virginia, West Virginia, and Wisconsin. See COVID-19

Travel Advisory, available at https://coron~virus.health.ny.gov/covid-19-travel-advisory.
50)
op_ JWJe

In an effort to sustain the gains attributable to the·PAUSE initiative, the Governor

24, issued Executive Order 205, "Quarantine Restrictions on Travelers Aniving in New

York." A copy of Governor Cuomo' s Executive Order 205 is attached hereto as Exhibit R. The
Order requires all travelers entering New York from a state with a positive test rate higher than
10 per 100,000 residents, or higher than al 0% test positivity rate, over a seven-day rolling
average, to quarantine for a period of 14 days consistent with Department of Health regulations
for quarantine. See also https:// oronavirus.health.ny.gov/covid-l 9-travel-advisory.
51)

Executive Order 205 gives discretion to the Commissioner of the Department of

Health to issue additional protocols for essential workers, or for other extraordinary
circumstances, When a quarantine is not possible, provided such measures continue to safeguard
the public health. See Exhibit R.
52)

On June 24, 2020, the Office of the Commissioner for the New York Sta e

Department issued the ''Interim Guidance for Quarantine Restrictions on Travelers Arriving in
New York State Following Out of State Travel." See NYS Interim Guidance for Quarantine
Restrictions oo Travelers Arriv1ng in New York State Following Out of State Trnvel, available at
https://coronavirus..health.ny .gov/covid-19-travel-advisory.
53)

All individuals traveling to New York from any of the restricted states must

complete the form upon entering New York. Travelers corning to New York from designated
states tbrnu,ghmeans of transport, including trains and cars must fill out the £01:m online. Id.
This includes individuals traveling to New York State to attend ticketed events and
L

12 of 20

R.A. 238

perfoanances.

Risks for Non-essential Business and Indoor Gatlterings
54)

Restrictions on the opetat:ion of non-essential businesses and indoor gatherings

are necessary to ensure sufficient space for proper distancing, -thereby reducing potential
transmission rates.
BO 202.6 listed what businesses and services in New York State were deemed
'
"essential and directed Empire State Development ("ESD;1) to issue guidance to futther clarify
55)

which businesses would be considered "essential" or 'non-essential." A copy of Governor
ClJOmo's Executive Order 202.6 is attached hereto as Exhibit S., On March 23, 2020, the
Governor barred all non-essential gatherings of any size. See Exhibit M. AH of these measures
were aimed at eliminating situations in which people wer likely to congregate and mingle in a
way that could increase the spread of the COVID-1 9 virus.
56)

Such situations included places of public amusement and restaurants/bars. On

March 18, 2020, the Governor ctirected the closure of"all places of public amusement, whether
indoors or outdoors, including but not limite.d to, locations with amusement rides, carnivals amusement
parks, water parks, aquariums, zoos, arcades fairs, children splay centers, funplexes, theme parks, bowling
alleys family and children's attractions," but the directive did not apply ''to public parks and open recreation
areas. ' See Exhibit L.
57)

Venues' at which the public would watch any type of entertainment, sporting, or

other event -- inclucting musical perfo1mances -- were thus closed under BO 202.5. That
restriction, implemented to address the risks associated with the non-essential congregating and
mingling of people, especially indoors, remains in effect.
13

13 of 20

R.A. 239

58)

The BSD guidance issued for EO 202.6 listed the following business specifically

as non-essential and unable to request designation as essential:
•

Any large gathering or event venues including but not limited to establishments
that host concerts conferences, or othedti-person performances or presentations
in front of an in-person audience;

•

Any facility authorized to conduct video lottery gaming or casino gaming;

•

Any gym, fitness centers, or exercise classes. except the remote or streaming
service noted above;

•

Any movie theater except drive-ins·

•

Any indoor common portions of retail shopping malls with 100,000 or more
square feet of retail space available for lease; and ·

All places of public amusement whether indoors or outdoors, including but not
limited to, locations with amusement rides, carnivals, amusement parks, water
parks, arcades fairs, children's play centers, funplexes, theme parks, bowling
alleys, family and children's attractions.
A copy of the Empire State Development Guidance on Executive Order 202.6 Guidance For
Determining Whether A Business Ente1prise Is Subject To A Workforce Reduction Under Recent
Executive Orders is attached hereto as Exhibit T.
•

59)

'These non-essential businesses were directed to monitor the NY Forward website

for any reopening developments. Id.
60)

EO 202.8 requires that all non-essential businesses reduce their in-person

workforce by one hundred percent. A copy of Governor Cuomo's Executive Order 202.8 i.s
.attached hereto as Exhibit U. As music venue are non-essential businesses under this EO music
venues must close there can be no staff on-site . These requirements of BO 202.8 are mirrored
in Department's emergency regulations at 10 NYCRR § 66-3.4.

14

14 of 20

R.A. 240

61)

EO 202.45 pennitted low risk indoor and outdoor entertainment to reopen,

provided that such businesses follow Department guidance available. See Exhibit Q. The types
of indoor activities contemplated by this guidance are museums, historical sites, aquariums and
other similar types, which all have in common that patrons/attendees mov~ through the space and
are not stagnant for an extended period of time. Both sets of guidance expressly state that
concerts or similar types of performances should remain closed. A copy of the Department's
Master Guidanc,e for Low Risk Indoor and Outdoor Activities is attached hereto as Exhibit V . As
such, BO 202.8's rule on reducing a non-essential businesses in-person workforce by 100% is
still in effect for this type of business.
62)

On July 6, 2020 Executive Order 202.48 extended the dosure order for video

lottery gaming or casino gaming, gyms, fitness center or classes, indoor common portions of
retail shopping malls, and all places of public amusement, whether indoors or outdoors. A copy
ofGovemorCuomo' s Executive Order 202.48 is attached hereto as Exhibit W.
63)

ln Phase Four, mans, professional sports with no fans and low risk arts and

entertainment were allowed to reopen and the Department provided sunnnary guidance for each.
A copy

of Governor Cuomo 's Executive Order 202.50 is attached hereto as Exhibit
64)

.

All forms of indoor entertainment involving performances that are the primary

attraction for customers (such as the ones Petitioner seeks to advertise) and w hich usually
involve large gatherings or crowds with common arrival seating, viewing and departure times
continue t6 be restricted sta1ewide.

15

15 of 20

R.A. 241

6.S)

The sole e.-.;:ception·to this rule is for outdo9r drive-in concerts, which have been

allowed by BSD provided that all attendees remain in their vehicles except to use restroom
facilities.
66)

There is a narrowly tailored exception for incidental background music in

restaurants because different groups of people do not tend to coordinate their anival at, and
departure from, a dining experience at the same time, which avoids unnecessary congregation,
and because such music serves as a background accompaniment to a meal, as opposed to an
event in and of itself. which would be an attraction that is distinct from the dining experience. A
copy of the New Yock State Liquor Authority Guidance for Phase 3/4 is attached hereto as

Exhibit Y.
67)

Ordinary restaurant service is not an appropriate comparator for a venue that

relies on musical performances to attract customers.
68)

These risks of congregating and mingling are not associated with incidental live

music perfoJJllances in restaurants, as permitted under current State-issued guidance.
69)

In the case of ordinary restaurant service, the customers arrive and leave at

different times. 1n contrast musical perfonnances typically are scheduled to take place at a
particular time, which means the guests all arrive and leave together at roughly the s·a me time, a
fact that increases the chances offurther mingling and transmission of the virus.
70)

Musical performances and other similai: events generally last for a much l~nger

period of time than ordinary restaurant dining. This is especially so as people arrive early to get
good seats and may linger after tl1e performance is finished . By contrast, in ordinary restaurant
dining, customers can be expected .to finish a meal within an hour or two. A lengthy period of

16

16 of 20

R.A. 242

time occupying the same space is an important factor in increased risk of transmitting the

COVID-l 9 virus.
Large and Super-Spreader Gatherings

71)

Gatherings, both indoor and outdoor, pose a significant risk of becoming super-

spreader events. For example, '[a]s scientists have learned more about COVID-19, it bas be-come
clear that so-called superspreader incidents-in which one person infects a disproportionate
number of other individuals-have played an oversized role in the transmission of the virus that
causes the disease." A copy of the Scientific American Article How Super spreading Events

Drive Most COVID-19 Spread is attached hereto as Exhibit Z.
72)

"The more individuals you pile into one place, the greater the opportunity for the

coronavirus to infect many people at once .... If you max out at five pe.ople, it will be very hard
to have a superspreacling event .... But as a group's size increases so does the risk of transmitting
the virus to a wider cluster. A large group size also increases. the chance that someone present
will be infectious.'' Id.
73)

It is critically important to control the size of gatherings, both indoor and outdoor,

since ' as a group's size increases, so does the risk of transmitting the virus to a wider cluster. A
large group size also increases the chance that someone present will be infectious.'; Id.
74)

A research team "found 1hat superspreading events tended to happen in indoor

spaces, with people in close proximity. Social occasions led to more clusters than eiq>osur in the
workplace or home - mass transmissions occu1Ted at weddings, temples, bars and karaoke
parties, for instance. The risk seems 10 be higher if people are raising their voices in some way,
such as singing or shouting." A copy of the New Scientist Article Finding coronavirus

17

17 of 20

R.A. 243

superspreaders may be key to hqlting a second wave is attached hereto as Exhibit AA

75)

As CDC stated in guidance released on Friday June 12 2020: The more people an

individual interacts with at a gathering and the longer that interaction lasts, the higher the potential
risk of becoming infected with COVID-19 and COVID-19 spreading. A copy of the CDC Article

Considerations for Events and Gatherings is attached hereto as Exhibit BB.
76)

Gatherings provide an ideal platform for the efficient transmission of COVID-19

t? multiple people at once. Those individuals who contract COVID-19 at a gathering may
themselves become super-spreaders if they attend further gatherings while they are
asymptomatic. A copy of the NIH Article COVID-19 S11per spreaders definitional qucmdaries is
attached hereto as Exhibit CC.
77)

A super-spreader, usually identified in retrospect, bas,. a greater than average

propensity to infect a larger number of people and it is thought that "10% oft.he [COVID-19]
cases may be responsible for 80% of the transmission". Id.
78)

"fA]ny large gathering or movement of groups or individuals can constitute

super-spreading." Id.
79)

The idea of "super-spreaders'' or super-spreading events is not new to COV 10-19.

' [S]uper-spreading was thought to be a driver of MERS, SARS and, to a lesser extent, Ebola."

80)

Different activities have different requirements. The Department has provided

guidance for large social gatherings religious services, and food service/restaurants. There are
no guidelines for concert balls or music venues because musical performances are not permitted,

18

18 of 20

R.A. 244

81)

Large social gatherings were only permitted if l 0 or fewer people were in

attendance during Phase One, 25 or fewer people attending during Phases Two and Three, and
now if 50 or fewer people attend a social gathering during Phase Four. See
https://coronavirus.health.ny.gov/travel-large-gatberings-and-quarantines. During a large social
gathering, "[i]ndividuals must wear face coverings when they are in a public and are: with.in six"
feet of distance from other individuals; or in a situation or setting where they are unable to
maintain six feet of distance from other individuals .. .. " Id.
82)

The guidance for food services is very detailed. There can be no more than 50%

of maximum occupancy, excluding employees. Copy of the Department's Food Service
Summary Guidelines is attached hereto as Exhibit DD.
83)

"All indoor and outdoor tables with seating for customers must be separated by a

minimum of 6 ft. in all directions. Wherevet distancing is not feasible between tables, physical
b;u-riers must be enacted between such tables." Id.
84)

The operator of the food-service site, as the "responsible party," must "[c]learly

signal 6 ft. spacing in any lines for customers waitin,g to order, pick-up food, be seated, or use the
restroom as well as in any pick-up or payment location.
85)

lt .is important to consider the intention behind the guidance and the activities that

take place during normal business operations - here, musical performances and food service.
For example, when going to a restaurant for a meal, the expectation during normal business
operations is that small parties (a maximum of 10 individuals per table) are there to eat their
meal and leave, not mix and mingle with other patrons at the restaurant for hours.

19

19 of 20

R.A. 245

86)

Based on the activities that take place during each event it is important to foJlow

the proper guidelines for that event
87)

Currently there are no guidelines for the ticketed indoor performances or concerts

that Petitioner seeks to host because there are not permitted.
Responsible Parties

88)

For industries where people may gather, guidelines are directed at a responsible

party - the individual who will ensure that the guidelines and EOs are being adhered to at the

gatherings. See https ://forward.ny .gov/statewide-guidelines. It is the responsible party for any
gathering who must ensure that masks are worn, soap and water and/or hand sanitizer are
available, proper distances are maintained, and any necessary markings are made on the floor or
ground to sho:w proper distancing.
89)

It is important for responsible parties to follow State and local guidance to prevent

transmission of COVID-19.

WHEREFORE, it is respectfully requested that the Court deny the relief sought
in the Petition.

SUSAN G. CARTIER

Notary Public, State of New York
No. 02CA6129083
Qualified in Albany County
I
Commission Expires June 20, 20..::.

20

20 of 20

R.A. 246

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
JENNA M. DIMARTILE, JUSTIN G. CRAWFORD,
PAMELLA GIGLIA, JOE DUROLEK, and
DAVID SHAMENDA,
Plaintiffs,

DECLARATION
Civil No. 20-cv-859
(GTS)(CFH)

-againstANDREW M. CUOMO, LETITIA JAMES,
MARK POLONCARZ, EMPIRE STATE
DEVELOPMENT CORPORATION, and
ERIE COUNTY DEPARTMENT OF HEALTH,
Defendants.

Howard A. Zucker, M.D., J.D., on the date noted below and pursuant to § 1746 of title 28
of the United States Code, declares the following to be true and correct under penalty of perjury
under the laws of the United States of America:
Background and Qualifications
1.

I am the Commissioner of the New York State Department of Health

("Department"). I make this declaration in my capacity as the Commissioner after consultation

with Department program staff directing the initiatives detailed below. I respectfully submit this
declaration in order to place before the Court certain testimony and documents relevant to the
relief requested. I am familiar with the matters set forth herein, either from professional
knowledge, conversations with Department staff, or on the basis of documents that have been

1

R.A. 247

provided to and reviewed by me. I have been asked to assist New York State in its response to
the COVID- 19 public health emergency. I have attended meetings of the Governor's COVID -19
Response and Recovery Task Force (the "COVID- 19 Task Force").

2.

I have extensive knowledge of pediatric medicine and care and am aware of many

family health issues. I am board-certified in six specialties/subspecialties and trained in
pediatrics at Johns Hopkins Hospital, anesthesiology at the Hospital of the University of
Pennsylvania, pediatric critical care medicine/pediatric anesthesiology at The Children's
Hospital of Philadelphia, and pediatric cardiology at Children's Hospital Boston/Harvard

Medical School. I was a professor of clinical anesthesiology at Albert Einstein College of
Medicine of Yeshiva University and pediatric cardiac anesthesiologist at Montefiore Medical
Center in the Bronx. I also served as associate professor of clinical pediatrics and anesthesiology
at Columbia University College of Physicians & Surgeons and pediatric director of the ICU at
New York Presbyterian Hospital. I am a former Columbia University Pediatrics Teacher of the
Year.
3.

As Commissioner of the Department, I must "take cognizance of the interests of

health and life of the people of the state, and of all matters pertaining thereto and exercise the
functions, powers and duties of the department prescribed by law." Public Health Law ("PHL'')

§206(1)(a).
4.

I preside over the State's Office of Public Health, whic h includes epidemiology,

the Medicaid program, the New York State Public Health and Health Planning Council, and the
Wadsworth Center, New York's premier public health lab, as well as the entire health care

workforce, and health care facilities.
2

R.A. 248

5.

In the last five months, I have been personally involved in the development and

implementation of what is known as the "New York State on PAUSE" initiative-restrictions

implemented through a series of executive orders and associated guidance designed to stop the
transmission of the novel coronavirus (COVID-19)

and I am also familiar with the detailed

plan that the State adopted to allow the safe reopening of each New York industry, including the
food and beverages services industry.
6.

I submit this declaration in support of the application by Defendants Governor

Andrew M. Cuomo, Attorney General Letitia James and Empire State Development Corporation
("ESD") (collectively "State defendants"), for a stay pending appeal of the court's August 7,

2020 order granting two sets of plaintiffs a preliminary injunction enjoining the enforcement of
the State's 50-person gathering limit at their respective wedding celebrations. (ECF # 20.) The

first of the two weddings in the underlying complaint took place within hours of the C ourt's
Order. The second of those weddings is scheduled to place on Saturday, August 22, with
approximately 175 guests in attendance at an indoor facility at the Arrowhead Golf Club in
Akron, Erie County, New York. (ECF # 1, ¶¶ 80-81.)
7.

The injunction rests on an assumption that is contradicted by information that has

guided the formulation of the executive order at issue here. The Court assumed that a wedding
celebration has a "high degree of similarity" to an ordinary dining situation in a restaurant
serving a comparable number of people. (ECF # 20, p. 22.) In fact, there are many important
differences between such a celebration and ordinary restaurant dining, and those differences are
highly significant from a public health perspective. At a restaurant, parties come and go at
different times, they dine separately from one another, and they spend, perhaps, an hour or two at
3

R.A. 249

a meal. At a wedding or other celebratory event, guests arrive and leave at roughly the same
time, they do so for the very purpose of celebrating together, making mingling among guests
inevitable, and they usually spend far more time in the event space than patrons typically spend
dining in a restaurant. As more fully set forth below, these differences greatly increase the
probability of transmission of the COVID-19 virus. Therefore, the number of people permitted
in a restaurant for ordinary restaurant dining cannot be used for a social gathering at the same
facility, such as a wedding or other similar event. Because such an event carries a greatly
increased risk of transmission of disease, the number of attendees must be more limited than the
number permitted for ordinary restaurant dining, in order to maintain comparable control of
transmission risk.
8.

To be clear, the restrictions applicable to this gathering, if reinstated by a stay of

the injunction, would not prohibit Plaintiffs from proceeding with their wedding celebration on
August 22. Nor would those restrictions prohibit Plaintiffs from having a religious ceremony. If
reinstated by a stay of the injunction pending appeal, the restrictions would simply limit the size
of the in-person gathering at the August 22 wedding to 50 people or fewer. That same restriction
applies uniformly to all social gatherings across the State in Phase 4 of the reopening plan,
regardless of the events' type or purpose. It applies to civil wedding ceremonies and

denominational ceremonies equally. And it applies to large events of other kinds, including, for
example, award banquets or retirement dinners.
9.

For the reasons set forth below, a stay pending appeal of the C ourt's Preliminary

Injunction is critically necessary because of the high risk that allowing 175 guests to attend in
person the August 22 wedding at issue here could revive the spread of coronavirus in New York
4

R.A. 250

State and defeat the careful, phased reopening now in progress. Public health demands
compliance with the State's gathering limits at the upcoming August 22 event as well as at future

still-unidentified events.
Potential Super-Spreader Events
10.

A "super- spreader" event is one in which one person infects a disproportionate

number of other individuals. As we have learned more about COVID-19, it has become clear
that super-spreader incidents have played an oversized role in the transmission of the
coronavirus. (See ECF #14-2, Ex. O.) A super-spreader event, usually identified in retrospect,
has a greater than average propensity to infect a larger number of people, and it is thought that
10% of the COVID-19 cases may be responsible for 80% of the transmission. (ECF #14-2, Ex.
R.)
11.

One hallmark of a super-spreader event is its size. As CDC stated in June 12,

2020 guidance, the more people with whom an individual interacts at a gathering and the longer
that interaction lasts, the higher the potential risk of becoming infected with COVID-19 and
COVID-19 spreading. (ECF #14-2, Ex. Q.) A s a group's size increases, so does the risk of
transmitting the virus to a wider cluster. A large group size also increases the chance that
someone present will already have the virus and be contagious, even if entirely asymptomatic.
(ECF #14-2, Ex. O.) This is the reason that size limits have been imposed on gatherings of all
kinds by the Executive Orders.
12.

The number of people in a room is not, however, the sole determinant of the risk

of transmission. In particular, the risk is much higher when the people in a room arrive and
depart at the same time, are there for a communal purpose that encourages mingling, and spend
5

R.A. 251

long hours there together. Weddings and other social gatherings thus entail a much higher risk
of transmission at any given size than opening a restaurant to the same number of individuals in
separate dining parties.
a. Weddings and other social gatherings generally involve much more direct
interaction and mingling among the attendees than ordinary restaurant dining. At the wedding at
issue here, the 175 guests will be "friends and family" (ECF #1 ,85)-indeed, "cl ose, intimate
friends and family members" (ECF #4-1 at 9)

who can be expected to interact socially and

physically over the several hours scheduled for the event. By contrast, in an ordinary restaurant
situation, the patrons at each table do not usually know those at other tables and are not generally
present for the purpose of interacting with those at other tables. During normal business
operation, a restaurant expects that small parties ( under the State's current rules, a maximum of
10 individuals per table are allowed) are there to eat their meals and leave, not mix and mingle
with other patrons at the restaurant for hours.
b. Weddings and other similar events generally last for a much longer period of time
than ordinary restaurant dining. This is especially so after the wedding ceremony itself, and
during the celebration, which in this case is scheduled to take place at an indoor facility where
guests will be served a meal over many hours. 1 By contrast, in ordinary restaurant dining,
customers can be expected to finish a meal within an hour or two. A lengthy period of time

For example, for the wedding celebration that proceeded on August 7, on authority of the
court's preliminary injunction, the reception was scheduled to take place over a period of five
and half hours, from 5:30 to 11:00 pm. See https://www.theknot.com/us/jenna-dimartile-andjustin-crawford-aug-2020.
1

6

R.A. 252

occupying the same space is an important factor in increased risk of transmitting the COVID-19
virus.
c. While the gathering limit at issue is not specific to weddings, it is worth noting
that large wedding celebrations

and in particular the large event planned for August 22

have

several features that make them particularly potent spreaders of disease. This wedding is
planned to take place indoors, and researchers have found that super-spreading events tended to
happen in indoor spaces, with people in close proximity. And the risk seems to be higher if
people are raising their voices in some way, such as singing or shouting, as frequently happens at
celebrations, including wedding celebrations. (ECF #14-2, Ex. P.) In general, social gatherings
have led to more clusters of disease than exposure in workplaces or homes

for example, mass

transmissions have occurred at wedding celebrations, bars and karaoke parties.
d. In the case of ordinary restaurant service, the customers arrive and leave at different
times. In contrast, wedding celebrations typically are scheduled to take place at a particular time,
which means the guests all arrive and leave together at roughly the same time, a fact that increases
the chances of further mingling and transmission of the virus.
13.

Thus, the risks posed by large numbers of people at social gatherings are much

greater than the risks posed by the same number of patrons dining indoors, separately in a
restaurant. Social gatherings of large numbers of people, like the 175 people currently planned
for the August 22 wedding, provide a vehicle for the efficient transmission of COVID-19 to
multiple people at once. Those individuals who contract COVID-19 at such a gathering may
themselves spread the virus further should they come in contact with others, which they could do
while asymptomatic. (ECF #14-2 Ex. R.)
7

R.A. 253

14.

For example, the first super-spreader event in New York occurred when a 50-

year-old man in New Rochelle started showing signs of illness on Saturday, February 22, 2020,
but attended a bat mitzvah and a funeral at his synagogue, Young Israel of New Rochelle. As has
been well publicized, his interaction with the other people at those gatherings created the State's
first coronavirus cluster.2
15.

A CDC report of a large gathering in Arkansas in March provides an additional

example of how easily and rapidly coronavirus transmission can occur. Two asymptomatic
individuals, a husband and wife, attended events at a church with a total of 92 attendees on
March 6-8. They both developed symptoms a few days after the events. Of the 92 attendees, 35
(38%) had confirmed COVID-19 cases and there were three deaths. In the community, at least
26 COVID-19 other cases were confirmed and there was one death. 3
16.

Even if a venue promises to enforce social distancing protocols, and to assure that

guests wear masks at all times when not seated at their tables, there are practical limits on a
venue's ability to fulfill such promises when hosting a large gathering such as that at issue here,

where 175 friends and family will join together from various locations to mingle and celebrate.
Indeed, surveys show that, nationwide, at least one-third of Americans do not wear masks to

2

See, e.g., https://www.lohud.com/story/news/politics/2020/03/13/coronavirus-timeline-newyork-how-we-got-here-and-where-were-headed/5045463002/.
3

See https://www.cdc.gov/mmwr/volumes/69/wr/mm6920e2.htm.
8

R.A. 254

prevent the spread of coronavirus.4 Even in New York, a significant minority of people are not
consistently complying with social distancing protocols. 5
New York Restrictions on Activities Designed to Prevent the Spread of Coronavirus
17.

On March 7, 2020, Governor Cuomo issued Executive Order ("EO") 202 to

combat the then-emerging COVID-19 pandemic, declaring a statewide disaster emergency until
September 7, 2020, pursuant to New York State Executive Law § 29. Through EO 202, as
amended and extended, the Governor suspended various state and local laws, rules, and
regulations to the extent necessary to respond to, and ultimately recover from, the COVID-19
disaster emergency, again pursuant to New York State Executive Law § 29.
18.

Following the initial issuance of EO 202, Governor Cuomo issued various

supplemental Executive Orders, continuing the temporary suspension and modification of certain
laws relating to the state of emergency. To date, the Governor has issued over fifty additional
Executive Orders related to the COVID-19 disaster emergency, each of which suspends or
modifies specified legal provisions pursuant to Executive Law § 29-a and makes declarations
related to the disaster emergency. As relevant here, the Executive Orders have addressed social
gatherings and the gradual reopening of various sectors of the economy, including the foodservices sector.6

4

See https://www.pewresearch.org/fact-tank/2020/06/23/most-americans-say-they-regularlywore-a-mask-in-stores-in-the-past-month-fewer-see-others-doing-it/
5

See https://scri.siena.edu/wp-content/uploads/2020/07/ICS0620CV-Release-d_finalv2.pdf

True and correct copies of relevant Executive Orders are available at
https://www.governor.ny.gov/executiveorders.
6

9

R.A. 255

19.

To date, these efforts have been largely successful in halting the spread of

COVID-19. After reaching a peak in early April of around 48% positive test results of those
tested, the percentage of positive test results has been reduced as of this writing to less than 1%
in every region of the State but Long Island, where it is 1.2%. 7
Restrictions on Social Gatherings to Prevent Coronavirus Spread
20.

On March 12, 2020, the Governor by executive order directed cancellation of

"any large gathering or event for which attendance is anticipated to be in excess of five hundred

,,
people, directed that smaller gatherings be limited to 50 percent of a location's occupancy
capacity, and directed closure of theaters for live performances in large cities. See EO 202.1.8
21.

As we gained a greater understanding of the extent of the spread of the virus in

New York, subsequent executive orders tightened these restrictions further. On March 16, 2020,
EO 202.3 ordered the cancellation of any large gathering or event, including a gathering for
purposes of religious worship, or a concert, conference or performance, if more than 50 people
were expected to be in attendance. (ECF # 14-1, Ex. M.) That Executive Order also required
gyms, fitness centers and movie theaters to cease operations. See id. And on March 18, 2020,
EO 202.5 directed the closure of all places of public amusement. (ECF # 14-1, Ex. L.) Venues at
which the public would watch any live entertainment or sporting event or were thus closed. See
id.

7

See https://forward.ny.gov/percentage-positive-results-region-dashboard.

8

See https://www.governor.ny.gov/news/no-2021-continuing-temporary-suspension-andmodification-laws-relating-disaster-emergency.
10

R.A. 256

22.

I was involved in the process of developing these Executive Orders on the basis of

what we knew of the COVID-19 virus at the time. We had input from a team of epidemiologists
at the Department 's Center for Community Health, which is within the Office of Public Health.
The decision to cancel events in performances spaces, instead of merely limiting attendance, was
based on several factors: not only the risk of transmission during the performance itself, but also
the fact that scheduled performance events lead to large groups of people arriving at the same
time, looking for seating at the same time, using the same common areas and amenities, and then
leaving at the same time. These are all settings in which people congregate and mingle, often in
close proximity within an indoor environment, and are thus the very conditions the State's

COVID-19 Task Force was trying to prevent as a community mitigation strategy.
23.

As conditions worsened in the State, on March 23, 2020, EO 202.10 imposed a

total ban on all non-essential gatherings, such as "parties, celebrations or other social events."
(ECF # 14-1, Ex. E.)
24.

The closures and restrictions on particular sectors of the economy were designed,

among other reasons, to minimize circumstances in which people, and groups of people,
congregate and mingle, especially within indoor environments. According to available scientific
information, close person-to-person contact is the primary vector in which COVID-19 is most
likely to spread. To limit exposure to COVID-19 and slow its spread, the CDC recommends
social distancing and limiting close contact with others outside your household in indoor and
outdoor spaces including avoiding groups and crowded places.
25.

With respect to the food-services sector in particular, the COVID-19 Task Force

recognized that the complete closure of restaurants would not only potentially cripple that
11

R.A. 257

industry, but would also cut off a significant food supply source to New York citizens, a service
we consider essential. On the other hand, service of food and beverages in restaurants would
inevitably result in significant congregating and mingling. The restaurant industry thus
presented a complex case in which these interests needed to be balanced with care.
26.

Ultimately, the Taskforce concluded that during a period when the State

continued to experience a high rate of infection, the service of food and drink for consumption
on the premises posed too great a risk of further spreading the virus, but that serving food and
drink for takeout and delivery could be managed while minimizing congregating and mingling
crowds. Accordingly, on March 16, 2020, EO 202.3 ordered that restaurants and bars cease
serving patrons food or beverages on premises, allowing such establishments to provide take-out
and delivery services only. (ECF # 14-1, Ex. M.)
The Loosening of Restrictions on Gathering Limits and the Phased Reopening of
Sectors of the Economy
27.

In May 2020, the Governor implemented New York Forward, the 10-Point Plan

previously announced on March 22, 2020, for the phased and safe reopening and reduction of
restrictions on businesses in various industries. Under the plan, as regions in the State satisfy
identified COVID-19 testing and other metrics, they move through five potential phases of
recovery, in which gathering limitations and other restrictions are gradually loosened.
28.

At the same time, new Executive Orders gradually loosened the restrictions on

gatherings. On May 21, 2020, EO 202.32 permitted a gathering of 10 of fewer for any religious
service or ceremony. (ECF # 14-1, Ex. F.) The next day, EO 202.33 extended the same 10person limit to non-essential gatherings held for any purpose. (ECF # 14-1, Ex. G.)

12

R.A. 258

29.

On June 15, 2020, EO 202.42 permitted any region that had entered Phase 3 of the

State's reopening plan to allow gatherings of 25 or fewer individuals "for any lawful purpose or
reasons." (ECF # 14-1, Ex. I.)

30.

And on June 26, 2020, EO 202.45 permitted social gatherings of up to 50 people

"for any lawful purpose or reason," so long as the region had reached Phase 4 of the State's

reopening plan. (ECF # 14-1, Ex. J.) The permitted gatherings were still subject to Department of
Health protocols relating to social distancing, face covering, cleaning, and disinfection. See id.
Further, indoor gatherings could not exceed 50% of the building's capacity. See id.

31.

Because all regions of the State are now in Phase 4, gatherings of up to 50 persons

are once again permitted for any purpose, including weddings.
32.

Additionally, as regions of the State progressed through the various phases of

recovery, restrictions various sectors of the economy, including the food-service sector, were
loosened accordingly. By Phase 2, restaurants were permitted to open outside areas for dining,
subject to social distancing and other health and safety protocols. Thereafter, and continuing to
Phase 4, restaurants are permitted to offer indoor dining, but at 50% of maximum capacity,
exclusive of employees. 9 The capacity limit was designed to decrease density indoors. And there
are other restrictions on the indoor dining how permitted. Among other things, tables
indoors or outdoors

whether

must be separated by a minimum of six feet; patrons over age 2 must wear

9

Indoor dining has been postponed in New York City, however. See
https://www.governor.ny.gov/news/no-20248-continuing-temporary-suspension-andmodification-laws-relating-disaster-emergency.
13

R.A. 259

face coverings at all times except when they are seated at their tables; individuals seated at each
table must be members of the same party; and no more than 10 people can be seated at a table. 10
33.

In support of loosening the previously applicable restrictions and gradually

reopening the State's economy, our goal was to balance the needs of each industry to conduct the

core activities and operations of business with the health and safety interests of the business
owners and operators, employees, customers, and the public at large

a primary feature of which

is to avoid congregating and mingling of people, and groups of people, anywhere and promote
appropriate social distancing of at least six feet between individuals everywhere.
34.

The restrictions on restaurants are of critical importance. In the past few weeks

alone, even with these restrictions in place, I have learned that fifteen clusters of Coronavirus
victims have been traced back to indoor dining.
The Contemplated Wedding Celebration Is Not Comparable to the Other Events Cited by
Plaintiffs and the Court
35.

I have explained above, in paragraph 12, how the 175-guest wedding currently

planned for August 22 differs from ordinary restaurant dining for a similar number of people.
Plaintiffs and the Court also compared the anticipated gathering to three other group settings: (a)
outdoor graduations; (b) special education classes; and (c) mass protests triggered by the killing
of George Floyd. None of those examples provides a valid comparator.
Outdoor Graduations

10

https://www.governor.ny.gov/sites/governor.ny.gov/files/atoms/files/Food_Services_Summary_
Guidelines.pdf
14

R.A. 260

36.

In June 2020, with the rate of new infections at its lowest level since the

beginning of March 2020, the State authorized outdoor graduations. As noted previously in
paragraph 24, outdoor events are less likely to spread Coronavirus than indoor ones.
37.

The State recognized that schools generally have large spaces, such as football

fields, where those in attendance can be spread out, and that ample time can be allowed during
which small groups of people, families for example, can enter and exit one at a time, to assure
compliance with social-distancing protocols. Moreover, a graduation is a one-time event in a
given community. Even then, DOH guidance on graduations strongly urges the use of other
alternatives (i.e. virtual ceremonies, ceremonies where people stay in their cars, etc.). See
https://coronavirus.health.ny.gov/system/files/documents/2020/06/doh_covid19_updatedgraduati
onguidance_061420.pdf
38.

Outdoor graduations are also subject to numerous additional restrictions.

Gatherings for the purposes of graduation ceremonies can occur only outdoors, and they are
subject to a 150-person gathering limit, inclusive of all students, guests, teachers, administrators,
and staff. All attendees are required to remain outdoors at all times, with the exception of
restroom use, and must remain six feet apart from other attendees at all times, excluding
immediate family members or household members. See id.
39.

Signs, tape, or other materials must be used to demarcate six feet of distance

between students and others while standing and walking. Any chairs for students, guests and
staff must be at least six feet apart. See id.
40.

If a school divides its graduating class into groups and conducts a separate

ceremony for each group in order to comply with the 150-person limit, all CDC and NYSDOH
15

R.A. 261

cleaning and disinfection protocols must be adhered to in between ceremonies, including
cleaning and disinfection of any shared surfaces (such as chairs, podiums, handrails, etc.). See
id.
41.

All attendees at the graduation must wear a mask or face covering at all times, if

they are over age two and able to medically tolerate a covering. Individual students may
temporarily remove their masks or face coverings only while crossing the award area or having
their individual photo taken. See id.
42.

Moreover, all person-to-person contact during the celebration is prohibited.

Individuals may not shake hands. Diplomas, or any other items, can only be handed from one
designated individual (e.g. superintendent, principal) to students if both individuals are wearing a
face covering and either using gloves or applying hand sanitizer between touching of objects.
Otherwise, diplomas, or any other items, must be pre-arranged for students to retrieve them
without direct interaction with other individuals. See id.
43.

Sharing or exchanging materials of any kind, such as throwing graduation caps

and giving of gifts poses an increased risk of transmission of COVID-19 and is prohibited, as
well. See id.
44.

Students may walk across a stage or area and pose for a picture individually.

However single-direction flow should be marked to cross the graduation stage or take a photo,
and the standing locations of graduates waiting to cross the graduation stage or take a photo must
be clearly marked to ensure all individuals remain at least six feet apart at all times. See id.
45.

It is strongly encouraged that the length of ceremonies be limited to shorten the

time the individuals are exposed to each other. Additionally, group performances and speakers
16

R.A. 262

should be limited, and precautions must be taken to ensure that individuals do not share
microphones or other equipment, unless it is appropriately cleaned and disinfected between use.
See id.
46.

Staff must be assigned to monitor entrances and egresses to prevent congregation.

The staggering of arrival times to ease crowds at access points should be considered. See id.
47.

It is not realistic to expect a venue hosting a wedding, or other social celebration,

to utilize these graduation-specific guidelines. As with its restrictions relating to social
gatherings, discussed above, the State's graduation-specific restrictions are tied to the conduct

that is traditionally expected at a graduation ceremony. That conduct is markedly different from
that which takes place at a wedding celebration, where physical contact such as hugging is an
evitable part of the celebratory nature of the event . Accordingly, the State's 50-person indoor
gathering limit applicable to social gatherings is appropriately tailored to anticipate the conduct
and interaction that any reasonable person would expect to occur at a social gathering.
Special Education Classes
48.

Special education classes typically involve the same teacher with the same group

of students. They consequently do not create the risk that infected people from different
communities will mingle and then disperse, thus super-spreading the virus.
Civil Rights Protests
49.

The State imposed gathering limits without regard to purpose. There is no

exception for protests. No Executive Order allows or authorizes them. The question of how
much force, if any, should be used to enforce these limits is left to local law enforcement

17

R.A. 263

agencies, who must exercise discretion in these cases as in others in deciding whether and to
what extent the use of force is warranted to enforce the law in light of all relevant circumstances.
Conclusion
50.

New York is one of the few States in the United States that successfully reduced

the community transmission of COVID-19 and has so far avoided the resurgence of COVID-19
cases. (See ECF #14-2 ¶¶40-41.) In the last two months across the country, spikes in COVID-19
cases have been tied to bars and restaurants in other States where there are reports of alcoholassociated partying and lack of adherence to face coverings, social distancing, and other rules to
reduce the close congregation and comingling of patrons. The COVID-19 Task Force remains
gravely concerned that the relaxing of the restrictions the State has implemented will lead to
increases in the spread of the virus, resulting in a serious, but avoidable, impact on the health and
lives of New York's population.

Dated: August 11, 2020
Albany, New York

____________________________
Commissioner Howard A. Zucker, M.D., J.D.

18

R.A. 264

Case 1:20-cv-04844-NGG-CLP Document 22-3 Filed 10/14/20 Page 1 of 12 PagelD #: 661

EXHIBIT 3
R.A. 265

OCTOBER 5, 2020 Albany, NY

Video, Audio, Photos & Rush Transcript: Governor
Cuomo Updates New Yorkers on State's Progress
During COVID-19 Pandemic
Directs Schools in Hot Spot Zip Codes Identified by New York City
to Temporarily Close In-Person Learning Beginning Tomorrow
Governor to Meet with Communities in Brooklyn, Queens and
Rockland, Orange and Nassau Counties to Discuss Religious
Gatherings
New York State to Oversee Enforcement in Statewide Hot Spot
Clusters
20 ZIP Codes in Areas with Hot Spots - Brooklyn, Queens and
Rockland and Orange Counties - Have 5.5 Percent Positivity
Rate
Statewide Positivity Excluding Hot Spot ZIP Codes is 1.01 Percent;
1.22 Percent with Hotspot ZIP Codes Included
8 COVID-19 Deaths in New York State Yesterday
SLA and State Police Task Force Visits 587 Establishments;
Observes O Establishments Not in Compliance

1
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 266

1/11

10/7/20~

8el.~ l ~ f f i R : L : i ~ i ' i 2~ ateiillatil, iiQl~8'40tat~

ro!Ofuiliia ~

ifi):rjijdaia1Gov ...

Governor Cuomo: "On schools, my number one concern has
always been schools. I said to the parents of this state, I will not
send-I will not allow your child to be sent to any school that I
would not send my child, period. And you have my personal word
on that. I've spoken to thousands of parents who have called up
and said, I'm worried about sending my child to school. I said, I
won't allow a school to open that I wouldn't send my child to.
That's my test."
Cuomo: "If we're going to keep religious institutions open, it can
only be with two conditions. One, the community must agree,
whether it's the Jewish community, whether we're talking about
Black churches, whether we're talking about Roman Catholic
churches, the religious community has to agree to the rules and
they have to agree that they are going to follow the rules. And
they have to agree that they are going to be a full partner in the
enforcement of the rules. That's condition one. I'm going to meet
with members of the ultra-Orthodox community tomorrow. I want
to have that conversation directly, myself. This cannot happen
again. If you do not agree to enforce the rules, then we'll close the
institutions down. I am prepared to do that. Second, after we
receive the agreement, and agreement is only as good as the
enforcement."
Earlier today, Governor Andrew M. Cuomo updated New Yorkers on the state's progress
during the COVID-19 pandemic and directed schools in hot spot ZIP codes identified by New
York City to temporarily close in-person learning beginning tomorrow. The governor noted
that New York State needs more data on the threat COVID-19 poses in those schools.
Governor Cuomo also announced he will meet with the communities in Brooklyn, Queens,
and Rockland, Orange and Nassau Counties to address religious gatherings. New York State
will oversee enforcement in statewide hot spot clusters. Yesterday, Governor Cuomo
announced that New York State is deploying personnel to directly enforce state guidance
2
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 267

2/11

10/7/20~

8el.~ l ~ f f i R : L : i ~ i ' i 2~ ateiillatil, iiQl~8'40tat~

r4!0fuiliia ~

ifil:rllild664-I Gov ...

within the hot spot ZIP codes. New York State will review the data in affected ZIP codes,
gather more school data and determine criteria for reopening the schools.
In the top 20 ZIP codes in areas that have seen recent outbreaks - Brooklyn, Queens and
Rockland and Orange Counties - 3,473 tests were conducted, yielding 193 positives or a 5.5
percent positivity rate. In the remainder of the state, 72,931 tests were conducted yielding 740
positives or a 1.01 percent positivity rate.
VIDEO of the Governor's remarks is available on YouTube here and in TV quality (h.264, mp4)

format here.
AUDIO of today's remarks is available here.
PHOTOS are available on the Governor's Flickr p__age.

A rush transcript of today's remarks is available below:
Good morning. Sorry for the delay. I pride myself on my punctuality, but some of the issues
that we are going to discuss today we were just working on resolving, and that's the reason
for the delay. From my far right, Mr. Gareth Rhodes. To his left, Dr. James Malatras. To my right,
Melissa DeRosa, secretary to the governor. To my left, Dr. Howard Zucker, health
commissioner extraordinaire. To his left, the ever smiling and jovial Rob Mujica, budget
director. Thank you and again I apologize for being late.
Today is day 219, but it feels like just yesterday that this started, doesn't it? Have that same
freshness and energy. Groundhog Day, remember that movie, Groundhog Day? These are the
numbers for today. Again , we're looking at two different universes now. It's a little different
than the past. We're looking at the statewide numbers and we are hyper focused on what we
call hot spots. Where was the first hot spot in the United States of America? Trivia contest. Yay.
You win . Three questions today. We had the first hot spot cluster in the United States. New
Rochelle, New York. So we know this well.
We're oversampling in the hot spots and we're testing all across the state. The 20 hot spot zip
codes, 5.5 percent, okay. Our hot spot zip codes are where many states are right now. And
you'll see it in some of the numbers. Statewide positivity rate is 1.01 outside of the hot spot zip
3
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 268

3/11

10/7/20~

8el.~ l ~ f f i R : L : i ~ i ' i 2~ ateiillatil, iiQl~8'40tat~

ro!Ofuiliia ~

i fil:rllild6661Gov ...

codes. 1 percent is an unbelievably low infection rate. And as we're going into the fall, I
believe it's going to be practically unsustainable, but it's remarkable that we're that low right
now. If you roll in the hot spot ZIP codes, which now distorts the balance of the sample, it's 1.2.
Number of deaths, 8. They are in our thoughts and prayers. Statewide hospitalizations, 636,
ICU, 140, statewide intubations, 70.
Context first. We're coming into the fall. We have been told since early March, beware the fall,
beware the fall. Weather gets colder, more people move indoors, flu season, schools open.
Schools opening are almost a predictor of increased infection rate. Colleges opening, turned
out to be more problematic than we thought, colleges opening. SUNY's doing a great job.
That's why Dr. Jim Malatras is here today. If SUNY was not doing a great job, Dr. Jim Malatras
would not be here today. That's how you know that. So the fall is a challenging period, as we
know. And we expect to see the infection rate go up in the fall.
Context, all over the globe, the infection rate is going up. All over the globe. Countries that
were doing remarkably well are now seeing spikes. USA overall is going up, Israel has a real
problem, EU has a real problem, Canada has a problem, Argentina has a problem, the UK has
a problem. And the UK, remember, they were up, they were down, they're up again. You look
across the nation, states are all going up. So context, beware the fall, has been right.
New York is the outlier in all of these international and national trajectories. We are the
exception to the rule. This is the one situation where we want to be the exception to the rule,
right. Other states up, other countries up. That in and of itself is a complicating factor, because
New York State is not hermetically sealed. We put a quarantine in effect. I know, but people
still drive in, it's still water through a screen, people are still coming in on flights, international
flights, people in Texas are coming in, people in California are coming in, people in New
Jersey are coming in, so that's an added problem for us. If you look at the hot spot infection
rate yesterday, Western New York is a hot spot. Yesterday was a good day, 1.2 percent.
Broome has a hot spot. Came out of a pub restaurant. But Broome has a hot spot. Orange
County, Rockland County, Brooklyn, Nassau could be on there with a hot spot in one section
of Nassau. These clusters have to be attacked. Picture that map as a map of dry grass, and
picture those hot spots as embers within the field of dry grass, okay? That's how I think of it.

4
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 269

4/11

10/7/20~

8el.~ l ~ f f i R : L : i ~ i ' i 2~ ateiillatil, iiQl~8'40tat~

re !Ofuiliia ~

ifil:rllildai61Gov ...

the only course is to run to those embers and stamp them out immediately and dramatically.
That's why I don't sleep at night.
So you have to attack the clusters. How do you attack the clusters? Testing, testing , testing,
testing. Get the facts. Follow the data. Contact tracing off the testing . Testing in itself doesn't
tell you anything, just that you have a problem. Contact tracing helps you solve the problem.
And enforcement. Enforcement. Oh, that's so harsh, enforcement. Yeah . It's not. Enforcement
is kind. You know why? Because enforcement saves lives. That's what enforcement does.
Lack of enforcement is not kind. I believe that. I believe that and I have said that from day one
and the State has been bullish on this and it has worked . It's worked . It's not like I'm putting
forth a proposition. Enforcement works. Any rule is only as good as the enforcement. Don't
speed. Are you enforcing it? Don't litter. Are you enforcing it? Any rule is only as good as the
enforcement, especially when it's a rule that people don't want to follow. Seat belts - only as
good as you enforce them . Don't text and drive - only as good as you enforce it. I say to
people when I see them texting and driving, I say to them, I pull up, I roll down my window, I
say hi, you are texting and driving, that is a violation of the law. I know because I passed that
law. It's only as good as the enforcement.
We're New York Tough . What's within tough? Smart - follow the data, follow the analytics.
Disciplined - do the enforcement, stick to the rules, stick to what's working. I've said this 100
times but at this point in my life I've said everything 100 times. Too many local governments
are not doing enforcement. Warnings are not enforcement. "Put a mask on or I will ticket you"
is not enforcement. "Store owner, you're not supposed to have this many people in your
store" - we are past that. Everybody knows the rules. You don't have to pull over a car today
and say, you know you're not supposed to text and drive. They know that. They know that.
What you wind up saying is, I got away with it. We've been saying you get away with it for too
long and we have lived through this repeatedly.
This was bars and restaurants. How many times did I come before you and say bars and
restaurants are a problem. We have gatherings in front of bars and restaurants. Local
governments have to do the enforcement. Week after week after week and it got worse and it
got worse and it got worse. I then said forget it, I give up, the State government will do bars
and restaurants and we put together a task force, we did over 1,000 violations, and you know
5
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 270

5/11

10/7/20~

8el.~ l ~ f f i R : L : i ~ i ' i 2~ ateiillatil, iiQl~8'40tat~

r~ !(Jfuiliia ~

ifil:rllild66?1Gov ...

what? Compliance with bars and restaurants is markedly better than it has been. When was
the last time any of you wrote a story about bars and restaurants and gatherings in front of
bars and restaurants? Why? Because the owners know they'll lose their license. Oh, that's
tough. No. We saved lives. I believe that. We saved lives.
New York City has clusters, Queens, Brooklyn. We also have clusters akin to this in Orange,
Rockland, a little bit in Nassau. I just got off the telephone with Mayor de Blasio, Comptroller
Stringer, Council Speaker Johnson, UFD President Mike Mulgrew. We had a very good
conversation. It was a collaborative, positive conversation. It's a complex situation, worked on
a number of levels, a number of issues and we talked through them. We have clusters where
the viral infection rate is higher, about 3 percent. Where does the virus mainly transmit? Dr.
Zucker was on the phone we asked him that question. Schools, which are also the place
where different communities come together. So, my child goes to a private school, your child
goes to a public school, but our children are on the same hockey team or on the same soccer
team or they play together in the playground. Schools can be locations of transmissions.
Religious gatherings, especially in these communities, New Rochelle, first hot spot, was an
Orthodox Jewish man who went to a temple, hundreds of people, and a wedding, hundreds of
people. Orthodox Jewish gatherings often are very, very large and we've seen what one
person can do in a group. Look at this Rose Garden with the President, by the way. Outdoor
event, oh, those are safe, outdoor events. No, no, no. Safer than indoor. Nobody ever said
safe. Safer than indoor. And look at that growing list of people at a presidential Rose Garden
event who are theoretically tested before they came in. How many people could have been
infected? One, two? And look at the spread in the Rose Garden. You know what happens
here. You've seen it over and over again. Third, public spaces. These are basically in priority
order. Fourth are businesses where consumers may interact but that is way down on the list
relatively. And the key to all of these areas is enforcement. All of them. We have rules for all of
these areas. We have rules for all these areas in place now. Well then how's it increasing?
Because people are not following the rules. That's why.
On schools, my number one concern has always been schools. I said to the parents of this
state, I will not send-I will not allow your child to be sent to any school that I would not send
my child, period. And you have my personal word on that. I've spoken to thousands of parents
who have called up and said, I'm worried about sending my child to school. I said, I won't
6
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 271

6/11

10/7/20~

8el.~ l ~ f f i R : L : i ~ i ' i 2~ ateiillatil, iiQl~8'40tat~

rB!Ofuiliia ~

i fil:rHildi881Gov ...

allow a school to open that I wouldn't send my child to. That's my test. On the schools in these
areas, not all of them have been tested. So we don't have data on all of the schools in these
hotspot clusters. That troubles me. And on the telephone call we were all basically in
agreement. They have sampled some schools in the clusters, but not all the schools. And
these are the hotspot clusters, right? So if you have to prioritize testing, you want to go to
these schools first because you know they are in hotspot clusters. So some schools in those
clusters we have not yet done testing on. Better safe than sorry. I would not send my child to a
school in a hotspot cluster that has not been tested . Where I did not have proof that the
infection rate was low in that school. I would not send my child. I am not going to recommend
or allow any New York City family to send their child to a school that I wouldn't send my child .
We're going to close the schools in those areas tomorrow. And that's that.
Religious gatherings-the city's proposal does not close religious institutions. We know
religious institutions have been a problem. We know mass gatherings are the superspreader
events. We know there have been mass gatherings going on in concert with religious
institutions in these communities for weeks. For weeks. I don't mean little violations. You're
only supposed to have 50, they had 55. I'm talking about you're only supposed to have 50
outdoors, they had 1,000. These are pictures from the past couple of weeks. And these are
just emblematic. You've all seen pictures like this for weeks. What did you think was going to
happen? What did you think was going to happen? Religious institutions are mass gatherings
and raise the greatest potential. It's schools and it's large mass gatherings. Schools, frankly,
because they're students and that's where our heart goes, our priority goes. But in terms of
numbers, it's large gatherings and large religious gatherings are large gatherings. These have
been going on for weeks. You don't see masks. And you see clear violations of social
distancing. When were these pictures from?

Gareth Rhodes: The one on the right is more recent than the one on the left.
Governor Cuomo: Okay, but they're in the recent past. So this has been going on for weeks.
We've been talking about it for weeks. If we're going to keep religious institutions open, it can
only be with two conditions. One, the community must agree, whether it's the Jewish
community, whether we're talking about Black churches, whether we're talking about Roman
Catholic churches, the religious community has to agree to the rules and they have to agree
7
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 272

7/11

10/7/20~

8el.~ l ~ f f i R : L : i ~ i ' i 2~ ateiillatil, iiQl~8'40tat~

rB!Ofuiliia ~

i fi):rjijdi691Gov ...

that they are going to follow the rules. And they have to agree that they are going to be a full
partner in the enforcement of the rules. That's condition one. I'm going to meet with members
of the ultra-Orthodox community tomorrow. I want to have that conversation directly, myself.
This cannot happen again. If you do not agree to enforce the rules, then we'll close the
institutions down. I am prepared to do that. Second, after we receive the agreement, and
agreement is only as good as the enforcement.
We have to have real enforcement. In these clusters and the other statewide clusters, the
enforcement will help the community. If the rule is no more than 50 percent of the people in a
Black church, I want someone at that door when 50 percent enter the church, a person there
who says to the pastor, you agree to follow the rules. That's 50 percent. That's it, or we close it
down. It does not work without enforcement, but both of those conditions have to be in place.
And if I do not have the agreement from the religious community directly as a starting point
then we will close down the religious institutions. If they do agree to do it in partnership, then I
want a real enforcement capacity. We're not going to make the same mistake twice.
Tomorrow I'm going to meet with the larger congregations. New York City, Rockland, Orange,
Nassau and have that conversation. That's step one. If we get past step one, then we need
enforcement in place. Enforcement is enforced. I've said this to you I have this conversation
with local officials all day long. "Well we issue warnings." That's not enforcement. "Well, we do
public education." That's not enforcement. There is no person in the state of New York who
needs you to tell them at this point, "you must wear a mask." They know that they must wear a
mask. There is no need for public education. Find me the person who says, "I never heard
that. Really, you have to wear a mask?" Find me the person in the state who says that.
Enforcement is enforcement, okay? New York City only did 26 enforcement actions.
Enforcement is, "here's a violation." New York City deployed 1,000 people for three days,
1,000 people for three days is what- 24,000 personnel hours. 24,000 personal hours you only
did 26 enforcement actions? That's not enforcement.
We have to be more aggressive. I understand that it's impolitic. I understand the sensitivity in
the community now. I also understand that you will see people die if we don't do more
enforcement. I also understand that we have learned this experience before. This is the bars
and restaurants story. Week after week after week we have to do the enforcement; nobody's
8
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 273

8/11

101712d2lilaee1Ji 0~ ~i~

~ l ,ddidlllld.vli0t1IBI/OO,taP ~ i LO

oirili~ agelOaftaEiilQ Gov ...

doing the enforcement. Week after week after week nothing changes; the state took it over: I
did 1,200 enforcement action; 228 immediate license revocations, just on bars and
restaurants. Now, was I happy about doing 1,200 enforcement actions? No. Immediate license
revocation is very difficult. That business basically closes. People lose their jobs. You don't
want to do this, but life has options, my friends. You don't do this, the virus spreads, and
people die. You tell me which is the nice and kind and responsible course of conduct? 1,200
enforcement actions just on bars and restaurants: that's enforcement.
The state is going to take over the enforcement oversight in all the hotspot clusters, okay?
Local governments will need to provide us with personnel, but the state will take over the
enforcement with the local personnel. I do not have enough state personnel to supplement
every local police department in the state. To give you an idea, we have about 5,000 state
troopers; there are about 35,000 NYPD. Most of this enforcement is also going to be done by
Health Department officials, other agency-type officials. I said from day one for the local
officials, I understand this is all tough stuff and politicians like to make people happy, as a
general rule. I like to make people happy as a general rule too. I just have a superseding rule,
which is I like to keep people alive. I'd rather you be alive and angry at me, then have people
happy with me. I'm elected to do a job and be responsible and that's what I want to do. I said
from day one, blame me. If you have to revoke a bar owners license? Blame me. We have to
close a temple because it's over 50 percent? I'll do it. We have to close a Roman Catholic
Church? I'll do it. I had closed the Saint Patrick's Day parade. I did it. But none of these rules
are going to make a darn, if you don't have the enforcement.
Another issue that came up on the phone which is right: targeting by zip codes is imperfect.
The virus doesn't travel by zip code. Neighborhoods and communities aren't organized by zip
codes. Zip codes can be arbitrary and can leave out some communities that are infected. Zip
codes can include communities that have a low infection rate. This is a zip code in Brooklyn.
The white areas are inside the zip code, but we have the infection rate by address. You have
areas in that zip code that aren't infected, so the ZIP code as a template is rough justice, but
only rough justice and we can refine that. It takes some review and analysis, but look at the
actual cases that you have again by address and make sure you're including the relevant
zone, not just the ZIP code. If you have to go a little bigger, you go a little bigger. If you have
to, if you don't have an infection rate in certain communities, don't include those infection
9
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 274

9/11

101712d2lilaee1Ji 0~ ~i~

~ l ,ddidlllld.vlifat1IBI/OO,taP ~ i LE

oirili~ agelOafta~

Gov ...

rates, so the ZIP codes as a starting place, but we then want to have a team of
epidemiologists and demographics people actually look at the maps and where the infection
rate is and make sure we're drawing the right circle, or the right borders. And the Comptroller
raised that point, and it's a good point, and the health officials agree.
When we did New Rochelle, we did a circle. Every other state, every other country, does a
political subdivision: a county, a city, a town . So, the ZIP codes are not the best template to
use and we want to refine that template. For example, we're closing schools in ZIP codes, but
the school district is different than the ZIP code - so just because a school is located in that
ZIP code doesn't mean the students come from that ZIP code. The catchment area can go
opposite direction from the ZIP code, but right now that's the best we have with the New York
City data but we're going to refine this.
Non-essential businesses, public spaces - remember it's mass gatherings. Public spaces,
schools should close, but we need to have the right template designed before we can do that
with full accuracy. The only action we're taking today on this data - we are using the ZIP
codes to close those schools tomorrow. If we expand the regions and that then includes other
schools, we'll then notify people as soon as we know. But for today, all we have is the ZIP
code data, so it's the schools in those ZIP codes, and as we refine it, we'll let you know.
So in total, schools close tomorrow. I'm going to be meeting with the Orthodox community
tomorrow, see if they will agree to live and abide by the rules and advocate compliance. If the
rabbi advocates compliance, that would be a very positive start. If the communities don't
agree with the rules, which is possible - I had some conversations where some religious
leaders believe they have herd immunity, which is not true. Some people believe, that,
followed politics, and think that masks are ineffective and this is all a hoax. That's not true. But
if they don't agree, then the state will take action. If they do agree and we have the ability to
enforce, then we will go with reduced guidance: 50 percent rules, primarily outdoors, etc.
We're going to do statewide enforcement, state supervised with local resources, but
enforcement has to be enforcement. We need better templates, geographic templates, than
ZIP codes. We also need better data on these schools in these hotspot ZIP codes, more
testing, faster testing so we find out exactly where we are, and we need to establish criteria

10
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 275

10/11

101712d2lilaee1Ji 0~ ~i~

~ l ,ddidlllld.vli0t1IBI/OO,taP ~ i l i a oirili~

agelOafta~

Gov ...

for reopening . When do the areas reopen? What testing data, what percent over what period
of time? That has to be established.
So, in closing, New York City is not unique. We have this all across the state. Again, we started
with the first hotspot and it's going to continue. It is the way of the world; it's the way this virus
moves. It starts in a cluster; it always starts in a cluster wherever, and the question always
becomes, "can you stop it in the cluster?" Can you stamp out the embers before it's a fire out
of control. That's always the question. That was the question in Wuhan , China. Can you get to
Wuhan and stamp it out before it spread? That was the question in New Rochelle and we did
stamp it out in New Rochelle by the way, and every state is dealing with it. But's a statewide
issue. It's testing and it's enforcement. That's what we're down to. We're New York tough,
smart, disciplined. Just to reiterate, the fall is perilous. We have to stay vigilant.
When we talk about 1 percent, I understand that it is a hyper-ambitious goal. You have to
remember we were at a 20 percent infection rate at one time and I understand that we are
surrounded by higher infection rates. New Jersey is 2.1; they were 3 last week, OK?
Connecticut is 1.3; they were 1.5 and Connecticut has always been a relatively easier situation
than New York. I'm envious of my friend Governor Ned Lamont. Pennsylvania's at 7.9 percent.
We have people coming in and out of here every day from these states. We have people
flying in from other countries. So, 1 percent. Hyper ambitious, unrealistic. Keep the bar high,
raise the goal, and we do the best we can . But, I'm also realistic and these are the facts that
surround us. That's why right now, you take out our hot spots, we have one of the lowest
infection rates in the United States of America, and that is the gold standard, and that's what
we want to try to achieve, even if it is not fully realistic. But, New Yorkers have done an
amazing job, highest infection rate at one time, lowest in the nation. God bless New Yorkers,
and I want to make sure as governor I'm doing everything I can to honor and fulfill their
sacrifice and their toughness and their love for each other, and we're doing that.

Iii!

Contact us
by phone:

Albany: (518) 474 - 8418
New York City: (212) 681 - 4640

m

Contact us
by email:

Press Office@exec ny gov

11
https://www.governor.ny.gov/news/video-audio-photos-rush-transcript-governor-cuomo-updates-new-yorkers-states-progress-during-1

R.A. 276

11/11

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 1 of 8 PagelD #: 725

UNITED i ATES DISTRICT COURT
EASTERN DISTRICT OF EW YORK
TI-IE ROMAN CA1HOLICDIOCESB OF BROOKLYN,
NEW YORK,

Plaintiff,
vs.

DECLARATTO
Civil No. 20-cv-4844

GOVERNOR A.NOR WM. CUOMO, in bis official
capacity,
Defendant.
Howard A. Zucker, M.D., J.D., on the date noted below and pursuant to § 1746 of title 28
of the United States Code, declares the following to be true and con:ect under penalty of perjury
under the laws of the United States of America:
Background and Qualific1.ttions

1)

I am the Commissioner of the New York State Department of Health

( 'Department''). 1 make this declaration in tnY capacity as the Commissioner af er consultation

with Department program staff directing the initiatives detailed below. l respectfully submit this
declaration in order to place before the CoUit certain testimony and documents relevant to the relief
requested. I am fami liar with the matters set forth herein, eitl1er from professional knowledge,
conversations With Department staff, or on the basis of documents that have been provided to and
reviewed by me. I have been asked to assist New Y01·k State in its response to the COVID-19
public health emergency. I am a member of the Governor's COYJD-19 Response and Recovery
Task Force (the "COVID-19 Task Force").

R.A. 277

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 2 of 8 PagelD #: 726

2)

I have extensive knowledge of pediatric medicine and care and am aware of many

family health issues. I am board-certified in six specialties/subspecialties and trained in pediatrics
at Johns Hopkins Hospital, anesthesiology at the Hospital of the University of Pennsylvania
pediatric critical care medioine/pediatric anesthesiology at The Children' s Hospital of
Philadelphia, and pedia1l'i.c cardiology at Children's Hospital Boston/Harvard Medical School. I
was a professor of clinical anesthesiology at AJbert Einstein CoUege of Medicine of Yeshiva
University and pediatric cal'cliao anesthesiologist at Montefiore Medical Center in the Bronx. I
atso sei·ved as associate professor of clinical pediatrics and anesthesiofogy at Columbia University
College of Physicians & mgeons and pediatric diTector of the ICU at ·ew Yotk PresbyteTian
Hospital. lam a fom1er Columbia University Pediatrics l'eacher of the Yeat'.
3)

As Commissioner pf the Department, I must " take cognizance of the interests of

health and life of the people of the state, and of all matters pertaining thereto and exercise the
functions, powers and duties of the department prescribed by law." Public Health Law ("PHL")

§206 l)(a).
4)

J preside over the State s Office of Public Real1h, which includes epidemiology,

the Medicaid program, the New

ork State Public Health and Heal.th Planning Council, and the

Wadsworth Center, New York' s ptemier public health lab, as well as the entire health care
workforce, and health care facilities.

5)

In the last nine months, I have been personally involved in the development and

implementation of what is known as the "New York State on PAUSE" initiative-restrictions
implemented through. a series of executive orders and associated guidance designed to stop the
transmission of the novel coronavirus (COVID-19 - and I am also familiar with the detailed plan
2

R.A. 278

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 3 of 8 PagelD # : 727

that the State adopted to allow the safe reopening of each New York industry, including all
gatherings. I am familiar with the facts set forth herein based upon personal knowledge,
di_scussions with Department staff, and D partment r ·cords.

6)

l make tbfa declaration - based upon, among other things, my personal knowledge·

my studies and research on matters related to infectious diseases· and my work and discussions
with other infectious disease experts and public health officials - to among other things, further
clarify the process and the creation, designation, and monitoring of the zones 1hrough the
Governor's Cluster Action Initiative ("lnitiative"); the tracking of the disease; and the State' s
response generally to this global pandemic.
7)

The data throughout New Yori shows the

tate has maintained an average

trnnsmis -ion rate around 1 % or below since March 22, 2020, when the

ew York State on PAUSE

plan was initiated, but there have been outbreaks and spikes in areas necessitating immediate
attention to contain the virus and mitigate spread throughout the community.
8)

The intention is to create an aggressive and targeted approach to contain and control

the spread of the virus from the immediate area where the cluster is located and to a larger region.

COVTD-19 Mapping
9)

The lnitiative was created to divide clusters and the areas aroU11d them into three

categories with successively higher restrictions withfo each one: Red Zone - cluster itself;
Orange Zone - warning zone· and Yellow Zone - precautionary zone.
10)

The creation of the Zones is intended to be a short-term, but aggressive, approach

to contain the threat of the -virus spreading throughout a community and creating a larger potential
super-spreader event.
3

R.A. 279

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 4 of 8 PagelD # : 728

Members of my team in the Department closely track the metrics related to

11)

COVID-19 on a daily basis to determine areas of particular concern that may need additional
resources such as increased testing access, compliance enforcement or targeted pause on
economic and/or social activities. My staff and J work with members ofth.e Governor's COVID19 Response and Recovery Task Force ("COVID-19 Task Force"), by among other things
providing case data and rates to help infonn decisions on what steps the State needs to take to
address areas of concern with higher positivity rates.
An area may be placed in a 'Red Zone" if the following factors are met:

12)
•

The area is a defined geographic area (which may or may not align
to geopolitical or other common geographic subdivisions, such as
county, zip codes, or contiguous neighborhoods) has a 7-day rolling
average positivity rate of3% or higher for a sustained period of fune
(metrics adjusted for popu.lation size and population density);

•

Positive cases i-eflect community spread and cannot be solely
explained by a contained cluster in a single institution (e.g., nursing
home, factory, college, etc.); and

•

The Department in consultation with the local departments of
health, finds that it is in the best interest of public health for the area
to be placed in Red Zone status.

13)

Once an area has been designated as a "Red Closure Zone," the following steps

are taken:
•

The Department in coordination with local health authorities uses
case incidence and mapping data to refine boundaries that balance
epidemiological priorities with geographic realities;

•

The Department, in coordination with local health authorities, uses
case incidence and mapping data to refine and establish boundaries
for "buffer zones" around the Red Closure Zone to ensure spread
4

R.A. 280

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 5 of 8 PagelD # : 729

from the closure zone does not broaden into the wjder commwuty.
In densely populated ll!ban areas, two buffer zones - an Orange
Waming Zone and a Yellow Precautionary Zone -- may be required;
and
•

14)

The Department issues guidance specific to eaoh warning zone and
the statu of activities within the zone (i.e., mass gatherings,
businesses, schools, etc.).
After 14 days, the Department; in coordination with local heal th authorities and in

consultation wi1h. global health experts, determines whether data sufficiently demonstrate that the
area has successfully reduced viral spread to a level able to be contained given testing, contact
tradng, and other health system met1·ics. Based on this data and expert advisement, the
Department decides whether the Red Closure Zone will be extended, modified, or ended.

Mappi ng Data
15)

The creation of the cluster zones is map-based and formulated from data

submitted to the Department and analyzed by Depa1tment staff.

l 6)

We rely_upon data submitted to the State's Electronic Clinical Laboratory

Reporting System ("ECLRS") to map the zones. Laboratories in New York State use this system
for secure and rapid transmission of reportable disease information to the Department county
health depa1tments, and the New York City Department of Health and Mei;i1al Hygiene
('

YCDOI-IMH") ,
17)

A laboratory is required to report all COVID-19 tests resuJts to the State and will

upload data files related to these tests. It is this data analyzed and used to generate a map
indicating the location of these cases (COVID-19 positive test results). The cases are
represented as dots on a map and indicate areas with hlgh positivity percentages. My team

s

R.A. 281

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 6 of 8 PagelD # : 730

works with members of the Task F01·ce to look first at the zip codes with the highest positivity
rates and then break that down further based oo individual addresses using the data pulled from
ECLRS.

IS)

The Red Zone contains the highest level and concentration of positi,v e cases

which is the cluster itself and is created by analyzing the mapping of the positivity rates and
using streets as a boundary.

19)

The Red Zone is created by pulling data form ECLRS and analyzing it to map out

cases as dots. It is the concentration of dots that indicate a high level of virns in an area which in
turn delineates the boundaries of the red zone. When we are mapping the positive cases and
creating the zones, we are not looking at the businesses or entities located within those zones,
only the number and grouping of positive cases. We look soleiy at the data and do not take into
account who m what are located in that zone - whether it is a non-essential business, school,
yeshiva, church synagogue or a car dealership - as they all face restrictions if justified by the
scientific data whether or not that particular school, car dealership or religious group has
positive cases within it. The data drives the zone.
20)

There is no specific percentage r threshold to determine when an area should be

designated as an Orange or Yellow Zone, as it is a nuanced process that takes multiple factors
into account and not solely the positivity percentage. ft is important, for instance, to consider the
population density of the area. The Department analyzes the number of cases within the Orange
and Yell ow Zones to dete1mine the rates positive cases. The positivity percentages within those
zones indicate the level of spread beyond the cluster and require some level of mitigation to
p1·event any further spread of the virus.
6

R.A. 282

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 7 of 8 PagelD # : 731

21)

The Orange Zone serves as a buffer to the Red Zone and is generally a -five block

or quarter mile boundary around the Red Zone tracked by streets .. The goal of having such an
area, which is given more scrutiny, is to prevent the cluster zo~e from expanding further and
keep it contained.
22)

The Yellow Zone serves as a buffer to the Orange Zone with the same goal of

containing the virus and not allowing the cluster to expand.

Positivity Rates
23)

The positivity rates are pulled daily from ECLRS, are mapped out, and are

analyzed to determine if a particular cluster is improving or getting worse. The positivity rates in
all red zones as of October 15, 2020 is 4.8% a reduction oftbe 7.9% positivity rate the week of
September 20 through September 26 and reducing each subsequent week. While this indicates
that the targeted restric.-tions are having the desired effect to mitigate and control the spread of the
virus, this is still approximately 4 times the overall state.positivity rate, which is still highly
concerning since it is oveJ 1%.
24)

Any re-evaluation for a reduction in resh'ictions would not occur before 14 days

s·ince that is the incubation period for the virus. This data ·and analysis are provided to the
Governor and his team on a daily basis, including the COVJD-19 Task Force.
25)

Any reduction or increase in restrictions will occw: based on the analysis of al l of

the available data. While we do not speculate on what futme actions will be taken since this is
an ever-evolving process, driven by tl1e positivity rates and trends over time, the goal is clearly to
mitigate community spread and continue the phased reopening throughout the state.
26)

Many different actions can be taken based on an analysis of the data and due to its
7

R.A. 283

Case 1:20-cv-04844-NGG-CLP Document 29-1 Filed 10/16/20 Page 8 of 8 PagelD #: 732

evolving nature. This is a highly calibrated process to ensure that the most precise restr ictions are

in place. The Department receives new data throughout U1e day creating fluctuations in numbers
and rates. The data is continually reassessing to fioetune the statistics to ensure that we, the Task
Force, and the Governor have the most current data available tu indicate progress, or lack thereof1
in the zones.

Modification of the Zones

27)

The Department and the Task Force are continually monitoring and testing the data

related to transmission, including the positivity rates and population density , to iofonn decisions
on zone designation and possible modification.
28)

Where the data shows sustained decrease in community transmission in the cluster,

lhe Department the Task Force and the Govemor assess the change in transmission rates and all
available relevant info11nation related thereto to determine whether zone modification is wan:anted
and would protect the public health of New Yorkers.
29)

With respect to any easing of restrictions in the Red Zone, the Department, the

Govemor's team and the Task Force will contim-1e to monitor and assess the cllrrent decreasing
trend in that zone to ensure that it a sustained downward trend . Upon th.is review, if the operation

has been successful, the designation of a Red Zone may be modified or lifted altogether.

Dated: Octobel' 16, 2020
Albany New York

8

R.A. 284

Case 20-3590, Document 29, 10/22/2020, 2958599, Page1 of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
22nd day of October, two thousand twenty.
Before:

William J. Nardini,
Circuit Judge.
________________________________
ORDER
The Roman Catholic Diocese of Brooklyn,
New York,

Docket No. 20-3590

Plaintiff - Appellant,
v.
Governor Andrew M. Cuomo, in his official
capacity,
Defendant - Appellee.
________________________________
Appellant The Roman Catholic Dioceses of Brooklyn, New York moves for an emergency
injunction pending appeal. Appellant seeks a decision no later than October 23, 2020 at 5:00 pm.
Appellee Governor Andrew M. Cuomo opposes the motion.
IT IS HEREBY ORDERED that the request for an administrative stay of the district court
decision denying Appellant’s motion for a preliminary injunction is DENIED. The motion is
referred to the panel sitting on November 3, 2020. It will be heard in tandem with the motion
seeking similar relief filed in Agudath Israel of America et al., v. Andrew M. Cuomo, Docket
No. 20-3572. Appellee’s opposition to the motion is due by noon on October 27, 2020.
Appellant’s reply is due by noon on October 29, 2020.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

R.A. 285

Case 20-3590, Document 75-1, 11/07/2020, 2970225, Page1 of 1

GIBSON DUNN

200 Park Avenue

New Yoric, NY 10166-0193

Tel 212.351.4000

www.gibsondunn.com
Randy M. Mastro
Direct: +1 212.351.3825
Fax: +1 212.351.5219
RMastro@gibsondunn.com

November 7, 2020
VIAECF
Hon. Catherine O'Hagan Wolfe
Clerk of Court
United States Court of Appeals for the Second Circuit
Thurgood Marshall United States Courthouse
40 Foley Square
New York, New York 10007
Re:

The Roman Catholic Diocese of Brooklyn, New York v. Cuomo , Case No. 20-3590

Dear Ms. Wolfe:
I write as counsel to Plaintiff-Appellant The Roman Catholic Diocese of Brooklyn, New
York (the "Diocese"), in this appeal, pursuant to Federal Rule of Appellate Procedure 28G),
to submit a supplemental authority relevant to the Diocese's pending motion for an
injunction pending appeal. On Friday, November 6, Governor Cuomo announced
modifications to the "zones" that are subject to Executive Order 202.68. A true and correct
copy of the Governor's press release is attached. Following these modifications, six of the
Diocese's churches, with normal capacities ranging from 500 to 950 persons, now fall in
"red" zones. Absent an immediate injunction pending appeal, these six churches will
effectively have to remain shut, as they continue to be subject to the 10-person capacity cap
in "red" zones at issue on this appeal.
Respectfully,

Isl Randy M. Mastro
Randy M. Mastro

Enclosure
cc: Counsel for Defendant (via ECF)

Beijing• Brussels• Century City• Dallas• Denver• Dubai• Frankfurt• Hong Kong• Houston• London• Los Angeles• Munich

New York• Ofanp County• Palo Alto• Paris• San Francisco• Slo Paulo• Sinpponi • Washington, O.C.

R.A. 286

11/6/2020

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage1
I GovernorofAndrew

NOVEMBER 6, 2020 Albany, NY

Governor Cuomo Announces Updated COVID-19
Micro-Cluster Focus Zones
Based on Progress Controlling COVID Spread, Zones Change in
Brooklyn, Queens - Far Rockaway, and Rockland and Orange
County
Zones Do Not Change in Queens - Kew Gardens/Forest Hills and
Broome, Steuben, Chemung Counties
New Yellow Precautionary Zone in Port Chester, Westchester
County
SUNY to Test All On-Campus Students Before Holidays; Private
Colleges Asked to Consider Similar Plans
Positive Testing Rate in All Focus Zone Areas is 3.16 Percent; New
York State Positivity Outside All Focus Zone Areas is 1.84 Percent
Statewide Positivity Rate is 1.99 Percent
18 COVID-19 Deaths in New York State Yesterday
Governor Andrew M. Cuomo today announced updated COVID-19 micro-cluster focus areas in
New York State. Brooklyn's Red Zone focus zone area has new boundaries to reflect a
decreased positivity rate and new daily cases in certain neighborhoods. Based on data
https://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 287

1/15

11/6/2020

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage2
I GovernorofAndrew

metrics including testing results and hospitalization rates Queens - Far Rockaway's yellow
zone has been removed; Rockland County's red zone focus areas will change to an orange
warning zone; and Orange County's orange zone will change to a yellow precautionary zone.
Focus zones in Queens - Kew Gardens/Forest Hills and Broome, Steuben and Chemung
counties will not change. The Governor also announced a new yellow precautionary zone
focus area in Westchester County.
SUNY will test its in-person students before sending them home for Thanksgiving and will
keep them home for the rest of the semester. The Governor asked that private colleges in
New York consider adopting similar plans.
''As a matter of context, we are obviously in a different phase with COVID, and we've been
talking about it for weeks, but we have to fully acknowledge it. The fall phase the scientists all
predicted was going to be worse. You're seeing global and national surges that are dramatic,
and that's the new reality of COVID. The challenge for our state, like other states, is managing
the increase," Governor Cuomo said. "We are going to modify some micro-cluster zones in
response to declining positivity rates. In Erie, Monroe, Onondaga Counties, we're going to
study them over the weekend. We're going to talk to the elected officials over the weekend,
try to find out exactly what is going on, so that we can design a micro-cluster strategy that is
responsive. But at these numbers, and in these areas, a micro-cluster response is appropriate.
We tailor the micro-cluster strategy to the particulars of that area, and therefore we want to
have conversations over the weekend and then I'll have an announcement on Monday as to
exactly what we're going to do. Those are the highest places in the state, but again, they're
lower than Connecticut, New Jersey and Pennsylvania."

Modifications to Current Focus Zones
Brooklyn - Modified Red Zone and New Yellow Zone - Click .!:!.ere for Map
Since early October, Brooklyn's Red Zone has seen a positivity decline from 5.9% to 3.1%
Based on case prevalence data and analysis of where positivity rates remain high and where
they have declined, the Brooklyn's Red Zone was redrawn to include a smaller geographic
area with a modified Yellow buffer zone area.

Queens - Far Rockaway - Yellow Zone Removed
hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 288

2/15

11/6/2020

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage3
I GovernorofAndrew

The positivity in this zone has been consistently in 1%-2% range effectively over a ten-day
period with low number of hospitalizations and new daily cases. This zone will be removed
and cases continued to be monitored.

Rockland County - Red Zone Changes to Orange Precautionary Zone, Yellow Buffer Zone
Remains - Cilek .!::!..ere for Map
Since early October, Rockland's Red Zone has seen a positivity decline from 9.8% to 3.6%,
meeting the metrics for transitioning from a Red Zone to an Orange Warning Zone. The Yellow
buffer zone will remain.

Orange County - Red Zone Changes to Yellow Zone - Click Here. for Map
Orange County's Warning focus zone has been under 3% positivity, and hospital admission
rates have declined, meeting the metrics for transitioning to a Yellow Precautionary Zone. The
buffer zone will be removed.

Focus Zones Without Modifications
Queens - Kew Gardens/Forest Hills - Click .!::!..ere for Map: The positivity in this zone is currently
2.69% (7-day rolling average), effectively flat over a ten-day period. No changes to zone.

Broome County- Click Here for Map: Yellow Precautionary Zone is unchanged (4.05% current
7-day positivity, down from 7.44% ten days ago)

Steuben County- Cilek .!::!..ere for Map: Yellow Precautionary Zone is unchanged (4.15 current 7day positivity, down from 6.22% ten days ago)

Chemung County- Click Here. for Map: Orange Warning zone is unchanged (6.84% current 7day positivity, down from 8.02% ten days ago)

New Focus Zones
Westchester County - New Yellow Zone - Click .!::!..ere for Map

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 289

3/15

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage4
I GovernorofAndrew

11/6/2020

The Port Chester area along the Connecticut border has had a sustained average positivity
rate above 2.5%, with upticks in new positive cases and hospital admissions, meeting metrics
for a yellow zone designation. In response to an increase in cases in Port Chester, NY, the
New York State Department of Health, Westchester County Department of Health and Open
Door Family Medical Center have coordinated to provide rapid testing at a new site below. To
schedule an appointment please follow this link:
httP-s:/laP-P-S.health.ny.. gov/doh2/aP-P-links/cdmsP-r/2/counties?OP-ID=11900360 or call 914-9957425.

Open Door
5 Grace Church Street
Port Chester, NY 10573
Saturday, November 7, from 9:00 AM - 2:00 PM
Monday, November 9, from 10:00 AM - 5:00 PM
Tuesday, November 10, from 10:00 AM - 5:00 PM
The Governor noted that the positive testing rate in all focus areas under the state's MicroCluster strategy is 3.16 percent, and outside the focus zone areas is 1.84 percent. Within the
focus areas, 19,084 test results were reportedyesterday, yielding 604 positives. In the
remainder of the state, not counting these focus areas, 141,621 test results were reported,
yielding 2,605 positives. Full results for tests reported yesterday, the day prior, the current 7day rolling average, and last two weeks is below:

FOCUS ZONE

Brooklyn red-zone

10/4-

10/11-

10/18-

10/25-

10/10 %

10/17 %

10/24 %

10/31 %

Positive

Positive

Positive

Positive

5.86%

5.29%

4.44%

4.14%

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 290

Current

Day

7-day

Prior

rolling

(11/4) %

average

Positive

3.08%

2.96%

Ye

('

p

..
4/15

11/6/2020

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage5
I GovernorofAndrew

focus area% positive

Brooklyn yellow-zone
focus area% positive

1.36%

1.93%

2.38%

2.68%

2.63%

3.06%

.

2.27%

2.03%

2.40%

2.68%

2.69%

2.68%

.

2.71%

2.70%

2.00%

2.16%

2.12%

1.63%

9.77%

4.54%

3.65%

4.33%

3.58%

3.81%

..

12.41%

4.62%

2.64%

2.57%

2.78%

0.75%

!

3.63%

4.05%

6.39%

4.25%

4.05%

3.47%

7.82%

7.52%

4.42%

4.50%

4.15%

3.68%

Queens Kew Garden
Hills/Forest Hills yellowzone focus area%
positive

Queens Far Rockaway
yellow-zone focus area
% positive

Rockland red-zone
focus area% positive

Orange orange-zone
focus area% positive

Broome yellow-zone
focus area% positive

Steuben yellow-zone
focus area% positive

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 291

5/15

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage6
I GovernorofAndrew

11/6/2020

Chemung orange-zone

6.49%

7.12%

8.36%

6.10%

6.84%

6.64%

3.18%

3.00%

3.27%

3.23%

3.00%

3.04%

1.18%

1.16%

1.31%

1.54%

1.72%

1.86%

1.01%

1.06%

1.06%

1.34%

1.55%

1.70%

focus area% positive

All focus area statewide
% positive

Statewide%
positive with all focus
areas included

Statewide%
positive without allfocus
areas included

Today's data is summarized briefly below:
• Patient Hospitalization -1,321 (+44)
• Patients Newly Admitted - 202
• Hospital Counties - 45
• Number ICU - 285 (+17)
• Number ICU with Intubation - 129 (+1)
• Total Discharges - 80,368 (+143)
• Deaths -18
• Total Deaths - 25,910

Each region's percentage of positive test results reported over the last three days is as
follows:

REGION

TUESDAY

WEDNESDAY

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 292

THURSDAY
6/15

11/6/2020

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage7
I GovernorofAndrew

Capital Region

1.2%

1.3%

1.7%

Central New York

2.7%

2.1%

2.5%

Finger Lakes

2.9%

3.7%

3.2%

Long Island

1.1%

2.0%

1.9%

Mid-Hudson

2.5%

2.4%

2.5%

Mohawk Valley

0.6%

0.8%

1.2%

New York City

1.3%

1.6%

1.9%

North Country

1.9%

0.6%

1.4%

Southern Tier

1.1%

1.1%

1.0%

Western New York

3.4%

3.3%

3.3%

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 293

7/15

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage8
I GovernorofAndrew

11/6/2020

Each New York City borough's percentage of positive test results reported over the last three
days is as follows:

BOROUGH

TUESDAY

WEDNESDAY

THURSDAY

Bronx

1.4%

1.9%

2.2%

Brooklyn

1.6%

1.7%

2.0%

Manhattan

0.9%

1.2%

1.0%

Queens

1.2%

1.6%

2.0%

Staten Island

2.1%

3.0%

3.5%

Of the 522,021 total individuals who tested positive for the virus, the geographic breakdown is
as follows:

County

Total Positive

New Positive

Albany

3,942

65

Allegany

414

25

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 294

8/15

11/6/2020

Case
20-3590,
75-2,
11/07/2020,
2970225,
15 M. Cuomo
Governor
Cuomo Document
Announces Updated
COVID-19
Micro-Cluster
Focus ZonesPage9
I GovernorofAndrew

Broome

3,927

43

Cattaraugus

591

9

Cayuga

496

10

Chautauqua

1,094

13

Chemung

2,046

50

Chenango

449

6

Clinton

292

4

Columbia

782

8

Cortland

622

9

Delaware

222

9

Dutchess

5,710

41

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 295

9/15

11/6/2020

CaseGovernor
20-3590,
75-2,COVID-19
11/07/2020,
2970225,
Page10
15 M. Cuomo
CuomoDocument
Announces Updated
Micro-Cluster
Focus Zones
I Governorof
Andrew

Erie

14,338

215

Essex

213

1

Franklin

114

9

Fulton

372

2

Genesee

450

9

Greene

527

4

Hamilton

19

0

Herkimer

434

10

Jefferson

260

11

Lewis

171

4

Livingston

393

18

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 296

10/15

11/6/2020

CaseGovernor
20-3590,
75-2,COVID-19
11/07/2020,
2970225,
Page11
15 M. Cuomo
CuomoDocument
Announces Updated
Micro-Cluster
Focus Zones
I Governorof
Andrew

Madison

627

11

Monroe

8,398

161

Montgomery

292

9

Nassau

51,164

246

Niagara

2,274

43

NYC

268,663

1,203

Oneida

2,993

47

Onondaga

6,257

135

Ontario

778

20

Orange

14,221

86

Orleans

429

7

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 297

11/15

11/6/2020

CaseGovernor
20-3590,
75-2,COVID-19
11/07/2020,
2970225,
Page12
15 M. Cuomo
CuomoDocument
Announces Updated
Micro-Cluster
Focus Zones
I Governorof
Andrew

Oswego

711

22

Otsego

440

3

Putnam

1,921

25

Rensselaer

1,175

14

Rockland

18,756

73

Saratoga

1,503

21

Schenectady

1,687

21

Schoharie

120

1

Schuyler

172

6

Seneca

167

4

St. Lawrence

461

12

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 298

12/15

11/6/2020

CaseGovernor
20-3590,
75-2,COVID-19
11/07/2020,
2970225,
Page13
15 M. Cuomo
CuomoDocument
Announces Updated
Micro-Cluster
Focus Zones
I Governorof
Andrew

Steuben

1,176

17

Suffolk

50,210

177

Sullivan

1,882

20

Tioga

792

17

Tompkins

678

3

Ulster

2,599

11

Warren

475

1

Washington

377

16

Wayne

639

17

Westchester

41,720

178

Wyoming

230

4

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 299

13/15

11/6/2020

CaseGovernor
20-3590,
75-2,COVID-19
11/07/2020,
2970225,
Page14
15 M. Cuomo
CuomoDocument
Announces Updated
Micro-Cluster
Focus Zones
I Governorof
Andrew

Yates

3

156

Yesterday, 18 New Yorkers died due to COVID-19 in New York State, bringing the total to
25,910. A geographic breakdown is as follows, by county of residence:

Deaths by County of Residence

County

New Deaths

Allegany

2

Cayuga

1

Dutchess

2

Kings

4

Nassau

2

Oneida

2

Onondaga

1

hllps://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 300

14/15

11/6/2020

CaseGovernor
20-3590,
75-2,COVID-19
11/07/2020,
2970225,
Page15
15 M. Cuomo
CuomoDocument
Announces Updated
Micro-Cluster
Focus Zones
I Governorof
Andrew

Queens

1

Schenectady

1

Tioga

1

Westchester

1

Contact the Governor's Press Office
liil

Contact us
by phone:

Albany: (518) 474 - 8418
New York City: (212) 681 - 4640

m

Contact us
by email:

Press.Office@exec.ny.. gov

https://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid-19-micro-cluster-focus-zones

R.A. 301

15/15

Case 20-3590, Document 78, 11/09/2020, 2971082, Page1 of 2

STATE OF NEW YORK
OFFICE OF THE ATTORNEY GENERAL
BARBARA D. UNDERWOOD

LETITIA}AMES
ATTORNEY GENERAL

SOLICITOR GENERAL

DMSION OF APPEALS & OPINIONS

November 9, 2020
Hon. Catherine O'Hagan Wolfe
Clerk of Court
U.S. Court of Appeals for the Second Circuit
40 Foley Square
New York, NY 10007
Re:

The Roman Catholic Diocese of Brooklyn, New York v.
Cuomo, No. 20-3590

Dear Ms. Wolfe:
Defendant-appellee Andrew Cuomo submits this supplemental
letter concerning plaintiffs-appellants' motion for an injunction pending
appeal. Earlier today, Governor Cuomo announced that the existing
metrics have demonstrated continued progress in controlling the spread
of COVID-19 in the micro-cluster area designated as a Red Zone in
Brooklyn and, as a result, the Red Zone will be downgraded to an Orange
Zone. 1 Thus, there are no longer any areas in New York designated as
Red Zones, and plaintiffs have no basis at this time for preliminary
injunctive relief arising from any Red Zone-specific restrictions.

See https://www.governor.ny.gov/news/governor-cuomoannounces-updated-covid-19- micro-cluster-focus -zones-0.
1

THE CAPITOL,ALBANY, NEW YORK

12224-0341 •

PHONE (518)

776-2050 • FAX (518) 915-7723 *NOT FOR SERVICE OF PAPERS

WWW.AG.NY.GOV

R.A. 302

Case 20-3590, Document 78, 11/09/2020, 2971082, Page2 of 2

Respectfully submitted,
Isl Brian D. Ginsberg
Brian D. Ginsberg
Assistant Solicitor General
cc: Counsel of Record (via ECF)

2

R.A. 303

